                 THELIBRARY OF CONGRESS

              FINANCIAL STATEMENTS FOR FISCAL YEAR 2006

                          TABLE OF CONTENTS
                                                                         PAGE

MANAGEMENT=S DISCUSSION AND ANALYSIS                                        1

    Introduction                                                           1-1
    The Library of Congress and Its Mission                                1-1
    Strategic Plan and Priorities                                          1-1
    Brief History                                                          1-1
    The Library of Congress Today                                          1-3
    Overview of Financial Statements                                       1-5
    Key Performance Measures                                              1-11
    Major Goals and Accomplishments in Fiscal Year 2006                   1-12
    Management Control Program, Systems, Controls and Legal Compliance    1-19
    Stewardship Reporting                                                 1-20
    Limitations of the Financial Statements                               1-20

FINANCIAL STATEMENTS AND NOTES                                              2

    Consolidated Balance Sheets                                            2-1
    Consolidated Statements of Net Costs                                   2-2
    Consolidated Statements of Changes in Net Position                     2-3
    Combined Statements of Budgetary Resources                             2-4
    Consolidated Statements of Financing                                   2-5
    Notes to the Consolidated Financial Statements                         2-6

STEWARDSHIP REPORT                                                          3

    Overview of the Library Collections                                    3-1
    Collections Policy                                                     3-2
    Preservation of Library Collections                                   3-10
    Service                                                               3-14
    Collections Security                                                  3-14
    Cataloging & Arrearage Reduction                                      3-16
    Offsite Storage Facilities                                            3-17
    Financial Reporting                                                   3-18




                                           i
                 THELIBRARY OF CONGRESS

              FINANCIAL STATEMENTS FOR FISCAL YEAR 2006

                          TABLE OF CONTENTS
                                                                            PAGE

MANAGEMENT REPORT                                                              4

    Preamble – the Mission of the Library of Congress                         4-1
    Management Assertion                                                      4-2

REPORT OF INDEPENDENT AUDITORS                                                 5

    Results of the Library of Congress FY 2006 Financial Statements Audit     5-1
    Independent Auditor’s Report                                              5-2
    Comments by Library of Congress Management                                5-7




                                           ii
                                 THE LIBRARY OF CONGRESS
                            CONSOLIDATED FINANCIAL STATEMENTS
                               Fiscal Year Ended September 30, 2006

                          MANAGEMENT’S DISCUSSION AND ANALYSIS


                 INTRODUCTION                                        and make its invaluable collections accessible to
                                                                     Congress and the nation. The key objectives within the
The Management’s Discussion and Analysis (MDA) is                    plan’s 18 goals are: serving the Congress, sustaining and
designed to provide a high level overview of the Library:            preserving our collections, getting the National
who we are, what we do, and how we accomplished our                  Audiovisual Conservation Center completed and
mission during fiscal year 2006.                                     operational, implementing the Copyright Office’s
                                                                     reengineered processes, converting to digital talking book
                                                                     technology for blind and physically handicapped persons,
                                                                     strengthening the digital competencies of our knowledge
  THE LIBRARY OF CONGRESS AND                                        navigator – curators, and moving to a networked digital
           ITS MISSION                                               environment.

                                                                     The Library's four priorities are:
The Library of Congress, an agency in the legislative
branch of the government, is the world's largest and most
                                                                         1.   To make information, knowledge and
comprehensive library, maintaining a collection of more
                                                                              creativity available to and useful for the
than 134 million items – many of them unique and
                                                                              United States Congress;
irreplaceable – in more than 470 languages. It directly
serves not only the Congress, but also the entire nation
                                                                         2.   To acquire, organize, preserve, secure, and
with the most important commodity of our time:
                                                                              sustain a comprehensive record of American
information.
                                                                              history and creativity and a universal collection
                                                                              of human knowledge;
The Library's mission is to make its resources available
and useful to the Congress and the American people and
                                                                         3.   To make its collections maximally accessible to
to sustain and preserve a universal collection of
                                                                              the Congress, the U. S. Government, and the
knowledge and creativity for future generations.
                                                                              public; and

                                                                         4.   To add interpretive and educational value to the
 STRATEGIC PLAN AND PRIORITIES                                                Library’s collections and enhance and highlight
                                                                              the Library’s contributions to the nation’s
The Library has six diverse programs, staffed by more                         creative work, scholarly activity, and future
than 4,000 people.       They serve the Congress with                         progress.
nonpartisan analysis of legislative issues and preserve a
universal record of intellectual creativity. All libraries –
and especially the Library of Congress – must deal with                              BRIEF HISTORY
the greatest upheaval in the transmission of information
and knowledge since the invention of the printing press –            The Library of Congress is a living monument to the
the electronic onslaught of digitized multimedia                     remarkable wisdom of the Founding Fathers who saw
communications. The Library is responding to this                    access to an ever-expanding body of knowledge as
challenge, with the program-focused goals and outcomes               essential to a dynamic democracy. The Library's three
contained in its 2004 –2008 strategic plan. The overall              buildings are named for Thomas Jefferson, John Adams,
objective is to superimpose a new digital networked                  and James Madison. With the support of these
environment on top of its traditional artifactual                    Presidents, the Congress, as soon as it moved to the new
collections while continuing to acquire, secure, preserve,           capital city of Washington in 1800, established the


                                                               1-1
Library based on an initial collection of law and reference         and Members thereof." In 1946, the Congress granted
books, and established the Joint Committee on the                   LRS further statutory status within the Library and
Library as the first Joint Committee of the Congress in             directed it to employ specialists to cover broad subject
1802.                                                               areas. Congress renamed LRS as the Congressional
                                                                    Research Service (CRS) in 1970 and enhanced its
Jefferson, in particular, took a keen interest in the new           analytical capabilities by defining its policy role for the
institution. After the British burned the Capitol and the           Congress and emphasizing research support to its
Library during the War of 1812, Congress accepted                   committees.
Jefferson's offer to "recommence" the Library and
purchase his multi-lingual 6,487-volume collection (then            More recently, a series of Congressional statutes have
the finest in America) at a price of $23,950. It contained          created within the Library of Congress the American
volumes in many languages on a wide variety of subjects,            Folklife Center (1976), the American Television and
from architecture to geography and the sciences.                    Radio Archives (1976), the national Center for the Book
Anticipating the argument that his collection might seem            (1977), the National Film Preservation Board (1988), the
too wide-ranging for Congress, Jefferson said that there            National Film Preservation Foundation (1996), the
was "no subject to which a Member of Congress might                 Cooperative Acquisitions Program Revolving Fund
not have occasion to refer."                                        (1997), the Sound Recording Preservation Board and
                                                                    Foundation (2000) and the authorization of three
Jefferson's ideals of a "universal" collection and of               revolving funds for fee services (2000) -- further
sharing knowledge as widely as possible still guide the             extending the Library of Congress' national role.
Library. With Congressional blessing and support, the
Library has grown to serve the Congress and the nation              In December 2000, Congress tasked the Library (P.L.
more broadly in ways that no other library has ever done,           106-554) to develop a plan and lead an effort to make
largely as a result of four milestone laws: (1) the                 sure that important digital materials can be preserved for
copyright law of 1870, which centralized the nation’s               our national information reserve. The new digital
copyright functions in the Library and stipulated that two          technology offers great promise, but it also creates an
copies of every book, pamphlet, map, print, photograph,             unprecedented surfeit of data in an unstable and
and piece of music registered for copyright in the United           ephemeral environment. The Library’s National Digital
States be deposited in the Library; (2) the 1886                    Information Infrastructure and Preservation Program
authorization of the first separate Library of Congress             (NDIIPP) plan was approved by the Congress in
building that contained openly accessible reading rooms             December 2002 and envisions the establishment of a
and exhibition space for the general public; (3) the 1902           national network of committed partners, collaborating in
law that authorized the Library to sell its cataloging              a digital preservation architecture with defined roles and
records inexpensively to the nation's libraries and thus            responsibilities. Over the next four years, the Library
massively help to subsidize the entire American library             plans to seed practical projects and to sponsor research-
system; and (4) the 1931 law that established the program           advancing development of a national preservation
in the Library to create and supply free library materials          infrastructure.
to blind and physically handicapped readers throughout
the country. The Congress thus established the basis both           To begin building that infrastructure, the Library is
for the continued growth of the collections and for the             developing (a) a preservation network of partners to
extension of the Library's services to citizens everywhere.         preserve and provide long-term access to digital content
                                                                    and (b) the architecture components that will permit
In 1832, the Congress established the Law Library as the            digital preservation. By establishing NDIIPP, Congress
first separate department of the Library of Congress,               chose to capitalize on the Library’s long history and
reflecting the Library’s origins as a collection of law             unique position in analog selection and preservation to
books to support the legislative work of the Congress.              become a steward of the digital preservation
The Law Library remains the only source for the                     infrastructure. As a trusted convener, the Library will
Congress to research and reference services in foreign,             continue to bring together all the stakeholders in this new
comparative, and international law.                                 digital landscape – creators, distributors, and users – to
                                                                    build a digital preservation infrastructure that fosters
In 1914, Congress created the Legislative Reference                 creativity, protects the rights of individuals, and balances
Service (LRS) as a separate entity within the Library to            the claims of creators for protection and of users to access
provide specialized services to "Congress and committees            information and the legacy of innovation.


                                                              1-2
THE LIBRARY OF CONGRESS TODAY
                                                                  Major annual services include delivering more than 930
The core of the Library is its incomparable collections           thousand replies to members of Congress, covering
and the specialists who interpret and share them. The             nearly 150 current policy areas and providing access to
Library's more than 134 million items include almost all          1,500 regularly updated research products, registering
languages and media through which knowledge and                   about 521 thousand copyright claims, and circulating
creativity are preserved and communicated.                        nearly 25 million books and magazines free of charge to
                                                                  the blind and physically handicapped. The Library
The Library has more than 30 million books and other              provided assistance to local libraries all over the nation
print items, including more than five thousand printed            by cataloging over 346 thousand books and serials — the
before the year 1500; 14 million photographs and other            highest number in the Library’s history.
visual materials; 5.2 million maps; 2.7 million audio
materials; one million moving images (e.g., motion                The Library is one of the leading providers of
pictures); 5.4 million pieces of music; 59 million                noncommercial high-quality content on the Internet at
manuscripts, including those of 23 Presidents of the              www.loc.gov. It offers free access to more than 11
United States; and hundreds of thousands of scientific            million items of American history from its collections and
and government documents.                                         those of its partners in the American Memory Web site.
                                                                  Access to the world's largest catalog of library materials
New treasures are added each year. Notable acquisitions           is also offered online. Through its Global Gateway Web
during fiscal year 2006 include: the microfilm collection         initiative, the Library has partnered with major libraries
Foreign Office Files, United States, Series Two: Vietnam          in bilingual presentations that document the intersection
1959-1975; the rare Japanese atlas, Nihun bunkei zu               of American history with that of six other nations.
(Kyoto, 1666); All-Star Comics, no. 8, December
1941/January 1942, in which Wonder Woman makes her                With its National Digital Information Infrastructure and
first appearance in print; a unique DVD oral history              Preservation Program (www.digitalpreservation.gov), the
collection of Iranian opposition groups; the Dayton               Library is forming a national network of institutions
Accord Collection of some 95 maps produced by the                 dedicated to preserving America's heritage in digital
National Imagery and Mapping Agency to support the                form. More than 67 partners have joined this network,
December 1995 Dayton Peace Accord negotiations,                   and the network will grow to more than 100 in 2007. The
which ended 43 months of war in Bosnia and                        digital materials being preserved include political Web
Herzegovina; Dissent in Poland: Publications and                  sites, public television programs, social science data sets,
Manuscripts of the KARTA Center Archives in Warsaw,               geospatial information, news programs and other
115 microfilm reels of primary sources on the history of          materials important to the history of the nation. As part
the Soviet occupation of Poland and the rise of                   of the project to preserve important Web sites, the
Solidarity; Huddie “Lead Belly” Ledbetter’s 1941                  Library collected 21 terabytes of digital content in fiscal
recording of his original song “Todd Blues,” which had            year 2006, for a total of 56 terabytes to date. This total
not been previously documented; the David G. Hummel               represents more than 1 billion documents downloaded
American Musical Theatre Collection, more than 10,000             from the Web to date. This is the equivalent of digital
recordings of American musicals from 1950-2000;                   text information from more than 55 million books (1
Leonard Bernstein’s holograph sketches for Wonderful              megabyte per book of text only).
Town; and personal and professional papers of novelist
Ralph Ellison, statesman Zbigniew Brzezinski, journalist          Other major digital offerings of the Library include
Mary McGrory, and Nobel Prize winning physicist Jack              THOMAS, a database of congressional information;
                                                                  America's Library, a Web site for kids and families;
S. Kilby, inventor of the microchip.                              virtual presentations of the Library's exhibitions; and the
                                                                  Wise Guide, a monthly Web magazine. In fiscal year
The collections continue to grow. More than 10 thousand           2006, the Library's Web sites handled a total of more than
items are added to the Library’s collections every day.           4 billion hits.
These materials are organized, cataloged, and served to
readers in on-site reading rooms and through cultural             The Librarian of Congress, appointed by the President
programs and exhibitions. A steadily increasing number            with the advice and consent of the Senate, directs the
of materials are made available free of charge on the             Library. The Deputy Librarian of Congress is the Chief
Internet.                                                         Operating Officer who manages the day-to-day


                                                            1-3
operations through five service units and an enabling         !        Revolving and Reimbursable Funds
infrastructure (see organizational chart).
                                                              The Library’s programs and activities are funded by four
The Library has six programs:                                 salaries and expenses (S&E) appropriations, which
                                                              support management of the Library, the National and
!       National Library                                      Law Library Services, Copyright administration,
!       Law Library                                           Congressional Research Service, and Library Services to
!       Copyright Office                                      the Blind and Physically Handicapped.
!       Congressional Research Service
!       National Library Service for the Blind and
        Physically Handicapped




                                                        1-4
        OVERVIEW OF FINANCIAL                                        the Library’s assets, liabilities, and net position as of
            STATEMENTS                                               September 30, 2006 and 2005. In accordance with
                                                                     generally accepted accounting principles for federal
For fiscal years 2006 and 2005, the Library has prepared             government entities, the value of the Library’s collections
Consolidated Balance Sheets, Consolidated Statements of              (our largest asset) is not calculated and reported with a
Net Costs, Consolidated Statements of Changes in Net                 monetary value. Instead, the Library prepares a
Position, Combined Statements of Budgetary Resources                 Stewardship Report (see Section 3), which describes the
and Consolidated Statements of Financing (see Section                collections and provides relevant information about their
2).                                                                  use, preservation, security, etc. The Library’s Net
                                                                     Position consists of: (1) the portion of the Library’s
                                                                     appropriations that are unexpended; and (2) the
             Consolidated Balance Sheets
                                                                     cumulative balances of gift, trust, revolving and
                                                                     reimbursable funds.
The purpose of the consolidated balance sheet is to
provide financial statement users with information about


                    Assets (in millions)                                  Liabilities and Net Position (in millions)

                                       2006          2005                                                2006          2005
                                                                 Liabilities Covered by
Entity Assets                     $      578.3 $        556.2                                       $    1,225.5 $     1,136.6
                                                                 Budgetary Resources

                                                              Liabilities Not Covered by
Non-Entity Assets                      1,122.5        1,048.5 Budgetary Resources                           32.1          32.0

                                                                 Total Liabilities                       1,257.6       1,168.6

                                                                 Net Position                             443.2          436.1

                                                                 Total Liabilities and
Total Assets                      $    1,700.8 $      1,604.7                                       $    1,700.8 $     1,604.7
                                                                 Net Position


The Library’s assets total $1.7 billion for fiscal year 2006         The Library’s liabilities total $1,257.6 million and
and $1.6 billion in fiscal year 2005. Entity assets                  $1,168.6 million for fiscal years 2006 and 2005,
increased by $22.1 million during fiscal year 2006.                  respectively, with custodial and deposit account activities
Significant increases include $18.4 million in the                   (i.e., funds held for future distribution to copyright
Library’s fund balance with the U.S. Treasury and $5.7               owners) as the major item. The custodial liability
million of unrealized gains in the Library’s non-Treasury            increased following the increase in non-entity assets
investment. Non-entity assets (i.e., funds held and                  during fiscal year 2006. Other large liabilities include
invested for future distribution to copyright owners)                funds advanced from other governmental agencies for the
comprise 66 percent and 65 percent of all assets and total           FEDLINK program and accounts payable for various
$1,122.5 million and $1,048.5 million for fiscal years               operating expenses.
2006 and 2005, respectively. Non-entity (custodial)
assets increased by $74.0 million during fiscal year 2006            The accompanying Balance Sheets do not include the
because current year royalty receipts were more than                 acquisition and improvement costs of the Library's
multiple prior-year royalty distributions to Copyright               buildings and grounds. By law, these buildings and
owners. The Library is authorized to invest the royalty              grounds are under the structural and mechanical care of
funds in U.S. Treasury securities until the funds are                the Architect of the Capitol.
distributed.




                                                               1-5
        Consolidated Statements of Net Costs                                    Net costs include allocated management support costs
                                                                                (e.g., human resources, financial services, facility
The purpose of the Consolidated Statements of Net Costs                         services). In general, the Library’s net costs increase
is to provide financial statement users with information                        each fiscal year because of annual employee cost-of-
about the costs and earned revenues for the Library’s six                       living payroll adjustments. The net costs for each of the
programs for the fiscal years ended September 30, 2006                          Library’s six programs are:
and 2005. In other words, the statements present the net
costs of our programs – $653.0 million and $635.8
million for the fiscal years 2006 and 2005, respectively.


                                    The Library of Congress
                                  Consolidated Statement of Net Costs
                      Fiscal Year 2006 - $653.0M                                                        Fiscal Year 2005 - $635.8M
   $400.0
             $386.7     $383.5
   $350.0


   $300.0


   $250.0


   $200.0


   $150.0

                                                                       $127.5
                                                                                  $122.4
   $100.0


    $50.0                                                                                          $59.3
                                                                                                              $50.7
                                                   $40.4     $41.8
                                  $21.7    $21.0                                                                             $17.4    $16.4
       $-
               National Library    Law Library     Copyright Office   Congressional Research   Nat'l Lib Serv for Blind &   Reimbursable and
                                                                             Service                   Phys Hand             Revolving Funds




National Library - With net program costs of $386.7                                    the many services the Library provides to the
million and $383.5 million for fiscal years 2006 and                                   Congress and the nation.
2005, respectively, National Library is the Library’s
largest program and is responsible for the traditional                                 Cataloging – The Library produces
library activities of acquisitions, cataloging, research and                           bibliographic records, standards, and related
reference, and preservation.                                                           products for the Library as well as for libraries
                                                                                       and bibliographic utilities in all fifty states and
National Library provides the following major services:                                territories and many other countries.

    Acquisitions – Each year the Library acquires                                      Research and Reference – The Library makes
    more than two million new items in all formats                                     available to scholars and other researchers vast
    for addition to its priceless collections, which                                   information resources, many of which are
    are the largest and most wide-ranging of any                                       unique, covering almost all formats, subjects,
    library in the world. The collections, and the                                     and languages. The Library responds to nearly
    information they contain, are the foundation for                                   700,000 information requests a year from across


                                                                       1-6
the nation, including more than 310,000 in                      Reading Promotion and Outreach – The
person in the 20 reading rooms open to the                      Library promotes books, reading, and literacy
public in Washington. In addition, the Library                  through the Library's Center for the Book, its
responds to more than 60,000 free interlibrary                  affiliated centers in 50 states and the District of
loan requests from across the nation and nearly                 Columbia, and more than 80 national
30,000 requests for book loans from the                         organizational partners. The Library encourages
Congress each year.                                             knowledge and use of its collections through
                                                                other outreach programs (cable TV, lectures,
On-line Access Services -- The Library                          publications, conferences and symposia,
provides free on-line access via the Internet to                exhibitions, poetry readings -- all primarily
its automated information files, which contain                  supported by private funding) and through use
more than 75 million records -- to Congressional                of the Library's home page on the World Wide
offices, Federal agencies, libraries, schools, and              Web. The Library also gives some 80,000
the public. Internet-based systems include three                surplus books annually to qualified libraries and
World Wide Web (www) services (e.g.,                            nonprofit educational institutions through its
THOMAS, www.loc.gov), the Library of                            nationwide donation program. Finally, the sixth
Congress On-line Public Access Catalog                          National Book Festival was held on September
(http:\\catalog.loc.gov), and various file transfer             30, 2006 on the National Mall and had more
options. These Internet-based systems now                       than 100 thousand attendees.
record more than 320 million transactions a
month.                                                          Digital Initiatives -- The Library oversees and
                                                                coordinates cross-institutional digital initiatives,
American Creativity – The Library manages                       including the NDIIPP, thereby ensuring access
the nation’s largest, most varied, and most                     over time to a rich body of digital content
important archival collection of American                       through the establishment of a national network
creativity including motion pictures, sound                     of committed partners, collaborating in a digital
recordings, maps, prints, photographs,                          preservation architecture with defined roles and
manuscripts, music, and folklore covering a                     responsibilities.
wide range of ethnic and geographic
communities. The Library provides reference                 Law Library - The Law Library of Congress, with net
assistance to researchers and the general public,           program costs of $21.7 and $21.0 million for fiscal years
conducts field research, and promotes the                   2006 and 2005, respectively, provides direct research
preservation of American culture throughout the             service to the Congress in foreign, international, and
United States.                                              comparative law. In addition to Members, Committees of
                                                            the Congress and the Congressional Research Service, the
Preservation – The Library manages a                        Law Library provides officers of the legislative branch,
continuing program to preserve and extend the               Justices of the Supreme Court and other judges, members
life of all the diverse materials and formats in            of the Departments of Homeland Security, State and
the Library's collections. The program provides             Justice, and other federal agencies with bibliographic and
a full range of prospective and retrospective               informational services, background papers, comparative
preservation treatment for hundreds of                      legal studies, legal interpretations, and translations. As
thousands of items a year; conducts research                its congressional priorities permit, the Law Library makes
into new technologies; emphasizes prevention                its collections and services available to a diverse
techniques including proper environmental                   community of users, including members of the bench and
storage and training for emergency situations;              bar, educational institutions, nongovernmental libraries,
conserves and preserves materials; and                      legal service organizations, the foreign diplomatic corps,
reformats materials to more stable media. The               international organizations, and the general public.
Library plays a key role in developing national
and international standards that support the                Copyright Office - The Copyright Office (COP), with
work of federal, state, and local agencies in               net program costs of $40.4 and $41.8 million for fiscal
preserving the nation's cultural heritage.                  years 2006 and 2005, respectively, administers the U.S.
                                                            copyright laws, provides copyright policy analysis to the
                                                            Congress and executive branch agencies, actively


                                                      1-7
promotes international protection for intellectual property              1. The Library of Congress selects and produces
created by U.S. citizens, and provides public information                full-length books and magazines in braille and on
and education on copyright. In fiscal year 2006, the COP                 recorded disc and cassette and contracts for the
registered almost 521,000 claims to copyright, transferred               production of talking book machines.            The
more than one million works to the Library, recorded                     NLS/BPH’s fiscal years 2006 and 2005 net program
13,016 documents containing more than 350,000 titles,                    costs for this segment were $59.3 and $50.7 million,
logged more than 31 million external electronic                          respectively.
transactions to its Web site, and responded to nearly
339,000 in-person, telephone and e-mail requests for                     2. A cooperating network of 131 regional and
information. The COP supports the Copyright Royalty                      subregional (local) libraries distribute the machines
Board (CRB), which is composed of three Copyright                        and library materials provided by the Library of
Royalty Judges and their staff, for the purpose of (a)                   Congress.
distributing hundreds of millions of dollars in royalties
that are collected under various compulsory license                      3. The U.S. Postal Service receives an appropriation
provisions of the copyright law, and (b) adjusting the                   to support postage-free mail for magazines, books,
royalty rates of these license provisions. The CRB,                      and machines, which are sent directly to readers.
created as a result of the Copyright Royalty Distribution                Reading materials (books and magazines) and
and Reform Act of 2004, began transitioning during fiscal                playback machines are sent to a total readership of
year 2005 from its predecessor, the Copyright Arbitration                nearly 800,000 comprised of more than 567,000
Royalty Panels, which were completely phased out in                      audio and braille readers registered individually, in
fiscal year 2006. Registration fees and authorized                       addition to over 226,000 eligible individuals located
reductions from royalty receipts fund almost half of the                 in more than 32,000 institutions.
CO. Copies of works received through the copyright
system form the core of the Library’s immense                        Revolving and Reimbursable Funds - Under the
Americana collections, which provide the primary record              authority of 2 U.S.C. 182, the Library operates the
of American creativity.                                              Cooperative Acquisitions Program revolving fund, the
                                                                     revolving fund for duplication services associated with
Congressional Research Service - The Congressional                   the audiovisual conservation center, the revolving fund
Research Service (CRS), with net program costs of                    for gift shop, decimal classification, photo duplication,
$127.5 and $122.4 million for fiscal years 2006 and 2005,            and related services and the revolving fund for the
respectively, provides non-partisan analytical research              Federal Library and Information Network (FEDLINK)
and information services to all Members and committees               program and Federal Research program. 2 U.S.C. 182
of the Congress. CRS assists all Members and                         was amended in fiscal year 2003 to authorize the
committees of Congress with its deliberations and                    Library’s special events and programs activities under the
legislative decisions by providing objective, authoritative,         revolving fund statute. Through these activities, the
non-partisan, and confidential research and analysis. As             Library is able to further its programs dealing with the
a shared resource, serving Congress exclusively, CRS                 acquisition of library materials, reader and reference
experts work alongside the Congress at all stages of the             services, and support for public programs. The Library
legislative process and provide integrated and                       also provides reimbursable accounting services for five
interdisciplinary analysis and insights in all areas of              legislative agencies under cross-servicing agreements
legislative interest. CRS support takes the form of                  (i.e., the Congressional Budget Office, the Office of
reports, tailored confidential memoranda, individual                 Compliance, the Capitol Preservation Commission,
consultations and briefings. In 2006, CRS delivered                  Abraham Lincoln Bicentennial Commission, and the
more than 933,000 research responses and services.                   Open World Leadership Center).

National Library Service for the Blind and Physically                After reflecting earned revenues of $68.1 and $77.3
Handicapped (NLS/BPH) - The NLS/BPH, which is                        million in fiscal years 2006 and 2005, respectively,
part of Library Services, manages a free national reading            reimbursable and revolving fund net program costs
program for nearly 800,000 blind and physically                      totaled $17.4 and $16.4 million, respectively. The net
handicapped people -- circulating more than 24 million               program costs were the result of the elimination of $7.9
items a year at no cost to users. This program consists of           and $8.7 million of intra-Library net revenues, $7.3 and
three segments:                                                      $6.6 million in allocated administrative overhead, and
                                                                     $1.8 million and $1.9 million in imputed inter-


                                                               1-8
governmental costs (e.g., employee benefits) not                    respectively, and intra-Library transactions of
recovered by fees charged by the revolving funds for                $2.7 million and $1.4 million were eliminated
fiscal years 2006 and 2005, respectively.                           during consolidation.

General descriptions of major revolving fund activities             The FEDLINK program and Federal
are:                                                                Research program (FRP) – FEDLINK serves
                                                                    federal libraries and information centers as their
    Cooperative Acquisitions Program - The                          purchasing, training and resource-sharing
    Cooperative Acquisitions Program, which is                      consortium. As the FLICC business subsidiary,
    operated by the Library’s six overseas field                    the program provides cost effective access to an
    offices, acquires foreign publications and                      array of automated information and retrieval,
    research materials on behalf of participating                   print serials, books, electronic publications and
    institutions on a cost-recovery basis. Earned                   preservation services. FEDLINK contracts with
    revenues were $2.9 million for 2006 and $2.6                    more than 130 major vendors to provide
    million for 2005.                                               services to approximately 1,200 Federal offices
                                                                    participating in the program saving the offices
    Duplication Services – Duplication Services                     an estimated $15 million in cost avoidance
    provides preservation services for the Library's                benefits and more than $22 million in vendor
    audio and visual collections, and products are                  volume discounts. The Federal Research
    also produced for sale to the general public.                   Program provides customized research services
    Earned revenues for fiscal years 2006 and 2005                  that the Library is uniquely able to perform as a
    were $0.4 million and $0.5 million, respectively,               result of its collections and the subject and
    of which $0.2 million and $0.3 million were for                 language expertise of its staff. A popular FRP
    intra-Library transactions, which were                          product, available on-line via the Library's home
    eliminated for both years in the consolidated                   page, is the country study series of books. In
    statements.                                                     fiscal years 2006 and 2005, earned revenues
                                                                    were $60.1 and $69.3 million, respectively, and
    Gift Shop, Decimal Classification, Photo                        intra-Library transactions of $0.8 million and
    Duplication, Special Events and Programs                        $1.4 million were eliminated during
    and related services – This revolving fund                      consolidation.
    provides for the operation of a gift shop or other
    sales of items associated with collections,                 Consolidated Statements of Changes in Net Position
    exhibits, performances, and special events of the
    Library of Congress; decimal classification                 The purpose of the Consolidated Statements of Changes
    development services; the preservation and                  in Net Position is to provide financial statement users
    microfilming services for the Library's                     with information about the Library’s financing sources
    collections and reproduction services to other              and the components of the changes in net position. The
    libraries, research institutions, government                Library’s financing sources totaled $664.3 million and
    agencies, and individuals in the United States              $651.7 million for the fiscal years ended September 30,
    and abroad; and the hosting of special events               2006 and 2005, respectively.
    and programs by corporate and non-profit
    entities that support the Library’s mission.
    Earned revenues were $7.7 million and $7.2
    million in fiscal years 2006 and 2005,




                                                          1-9
                                          The Library of Congress
                      Consolidated Statements of Changes in Net Position
                                                 Total Financing Sources
                                Fiscal Year 2006 - $664.3M            Fiscal Year 2005 - $651.7M

             $600

             $500      $556.0    $543.0


             $400

             $300

             $200

             $100
                                           $25.4 $23.9        $72.9   $73.5       $10.0   $11.3
                $0
                      Appropriations       Donations       Imputed Financing      Other Non
                          Used                                                 Exchange Revenue


The major source of the Library’s funding is from                 The Library’s net position increased by $7.1 million
Congressional appropriations for five programs:                   during fiscal year 2006, primarily due to the increase in
National Library, Law Library, Copyright Office,                  market value of non-Treasury investments.
Congressional Research Service, and National Library
Service for the Blind and Physically Handicapped.                     Combined Statements of Budgetary Resources
Appropriations used during the fiscal years ended
September 30, 2006 and 2005 totaled $556.0 and                    The Combined Statements of Budgetary Resources and
$543.0 million or 84 and 83 percent for fiscal years              the related disclosures provide information about how
2006 and 2005, respectively, of all financing. Along              budgetary resources were made available, as well as
with appropriations made directly to the Library, other           their status at the end of the period. The Budgetary
government agencies (i.e., the Architect of the Capitol,          Resources section of the statement presents the total
the Office of Personnel Management, Government                    budgetary resources available to the Library. The
Printing Office) used Congressional appropriations and            Status of Budgetary Resources section of the statement
other financing sources to provide support for the                presents information about the status of budgetary
Library’s programs totaling an estimated $72.9 and                resources at the end of the period. Finally, the Outlays
$73.5 million (imputed financing) for fiscal years 2006           section presents the total outlays of the Library and
and 2005, respectively. The support provided included             relates obligations incurred to total outlays.
structural care and maintenance of the Library’s
buildings and grounds ($40.6 million and $40.2                    The Library’s budgetary resources were $2.2 billion
million), employee benefits ($31.6 million and $32.5              and $1.9 billion for fiscal years 2006 and 2005,
million), acquisitions exchange services ($0.6 million            respectively, of which $0.7 billion and $0.6 billion were
and $0.9 million) and legal claims ($0.1 million for              from appropriated funds and $1.5 billion and $1.3
fiscal year 2006 only). Other non-exchange revenues               billion were non-appropriated funds. Total outlays of
are positive for fiscal year 2006 primarily due to the            $695.5 and $563.9 million were incurred with the
unrealized gains on non-treasury investments ($5.7                outlays of appropriated funds ($544.0 and $534.2
million and $7.3 million).                                        million) combined with outlays of the non-appropriated
                                                                  funds ($151.5 and $29.8 million) in fiscal years 2006
                                                                  and 2005. The increase in outlays is primarily a result


                                                           1-10
               of a increase of distributions of royalty fees during                                 budgetary imputed costs ($72.9 million and $73.5
               fiscal year 2006.                                                                     million).

                         Consolidated Statements of Financing                                           KEY PERFORMANCE MEASURES
               The Consolidated Statements of Financing are
               presented to explain how budgetary resources obligated                                Since 2002, the Library's collections have increased
               during the fiscal year (presented on the Combined                                     from 126.1 million to 134.5 million items -- an increase
               Statements of Budgetary Resources) relate to the net                                  of 8.4 million or 6.7 percent. Over the same five-year
               costs of operations of the Library (presented on the                                  period, the full-time equivalent (FTE) staff paid by
               Consolidated Statements of Net Costs). The Library                                    appropriated funds has increased by 355 FTE’s – from
               had a difference between its net obligations ($763.7                                  3,947 to 4,302. The Library's Internet transactions have
               million and $595.3 million) and its net costs ($653.0                                 grown dramatically from 2.0 billion in fiscal year 2001
               million and $635.8 million) of $110.7 million and                                     to 4.6 billion in fiscal year 2006. Internet-based
               ($40.5) million for fiscal years 2006 and 2005,                                       systems include major World Wide Web services (e.g.,
               respectively. This difference is primarily explained by                               THOMAS, LC-Web) and various file transfer options.
               the refunds of non-exchange revenue and copyright                                     This rapid growth will almost certainly continue to
               licensing royalties ($192.7 million and $43.3 million)                                increase because the Library has put on-line more than
               and capitalized costs ($9.8 million and $4.1 million)                                 11 million items of American history as the core of a
               being offset by increases of resources of non-budgetary                               National Digital Library and operates an educational
               donations ($16.4 million and $7.5 million) and non-                                   Web site for families called “America’s Library.”

                                                                        THE LIBRARY OF CONGRESS
                                                COMPARISON OF APPROPRIATIONS, STAFF, AND WORKLOAD STATISTICS
                                                                    For the Fiscal years 2002, 2003, 2004, 2005, and 2006
                                                                                                                                                             CHANGE           %
                                                                     FY 2002           FY 2003            FY 2004            FY 2005         FY 2006
                                                                                                                                                            2002 – 2006     CHANGE
LIBRARY APPROPRIATIONS - ACTUAL                                     $525,837,000      $539,469,502       $559,299,548       $584,870,304    $603,622,800    $ 77,785,800     14.79%
FULL-TIME EQUIVALENT (FTE) POSITIONS (Appropriated)                     3,947             4,020              4,056              3,937           4,302           355          8.99%
SIZE OF LIBRARY COLLECTIONS                                          126,060,980       127,720,880        130,198,428        131,879,073     134,517,714     8,456,734        6.71%
WORKLOAD STATISTICS:
Unprocessed Library Arrearages                                       20,095,008        20,422,598         19,313,015         15,983,986      15,901,826      -4,193,182     -20.87%
CRS - Requests & Services Provided Congress                           811,467           875,197            899,284            906,445         933,430         121,963       15.03%
Loans of Collections to Congress                                       25,099            29,454             29,067             29,646          29,275            4,176      16.64%
Copyright Claims Registered                                           521,041           534,122            661,469            531,720         520,906            -135        -0.03%
Copyright Direct inquires (in person, phone, correspondence)          358,604           371,446            381,845            362,263         338,831          -19,773       -5.51%
Services to the Blind & Physically Handicapped (BPH) - Readership     693,151           766,137            766,137            793,891         793,891         100,740        14.53%
BPH - Books & Magazines; Total Circulated                            23,074,033        23,780,639         23,780,639         24,677,023      24,677,023      1,602,990        6.95%
BPH - New Braille & Audio Books & Magazines Titles                      2,616             2,764              5,486              4,275           4,275            1,659       63.42%
Print Materials Cataloged                                             310,235           269,568            294,510            312,818         346,182           35,947      11.59%
National Coordinated Cataloging Operation (NACO) - LC                  88,475            93,584            101,081            101,829         127,672          39,197       44.30%
Contribution
National Coordinated Cataloging Operation - Outside Contribution       162,363          176,487            156,098              161,230         185,184          22,821      14.06%
Exhibits, Displays, & Publications (Funded by Appropriations)             37               23                 23                  27              32               -5       -13.51%
Regular Tours (Participants)                                           112,423          111,755            109,252              140,847         159,604          47,181      41.97%
Reference Service                                                      775,115          715,479            682,264              685,408         686,923         -88,192     -11.38%
Main Reading Room & Five Other Reading Rooms Hours Per Week               65               65                 65                  65              65               0          0.00%
Items Circulated                                                      1,362,724        1,375,807          1,389,161            1,226,067       1,049,230       -313,494     -23.00%
Preservation Treatment - Original Format                               666,422         1,591,735          2,648,334            2,754,425      4,058,707       3,392,285     509.03%
Mainframe Computer Transactions                                      109,008,458      111,175,428        103,463,022          50,730,911        600,000     -108,408,458    -99.45%
Integrated Library System Input/Update Transactions                   91,834,274       96,495,434         98,312,132         103,644,698     104,087,835      12,253,561     13.34%
Machine Readable Cataloging (MARC) Records                            31,638,841       33,758,594         35,758,828          36,873,893      38,527,975      6,889,134      21.77%
Internet Transactions (i.e., LOCIS, MARVEL, World Wide Web,         2,039,268,542    2,620,884,359      3,360,481,609       3,845,481,430   4,594,485,103   2,555,216,561   125.30%
and THOMAS public transactions)




                                                                                          1-11
Other noteworthy workloads include the following:                                MAJOR GOALS AND
                                                                                ACCOMPLISHMENTS IN
         The Library's arrearage totals decreased by 0.5
     percent during fiscal year 2006. The decrease                                FISCAL YEAR 2006
     resulted from nine additional technicians in the
     Manuscript Division processing over 200,000 more                 The following section presents the significant annual
     items than in fiscal year 2005.                                  goals and accomplishments for fiscal year 2006 as they
                                                                      relate to the strategic goals cited in the Library’s 2004–
         The number of Congressional requests and                   2008 strategic plan. Library organizations establish
     services annually provided by the Congressional                  annual goals that meet one or more of the goals in the
     Research Service (CRS) increased from 811,467 in                 strategic plan. The organizational annual goals and
     fiscal year 2002 to 933,430 in fiscal year 2006. This            accomplishments that follow are cited under the strategic
     change reflects an ongoing congressional need for                goal or goals that are most applicable. For each annual
     significant research and analytical support across an            goal, the responsible organization is named followed by
     increased number of major policy areas, particularly             the text of its goal.
     in their use of electronic products via the CRS Web
     site.                                                            Strategic Goal 1: Build and preserve a comprehensive
                                                                      collection of knowledge and creativity in all formats
         Copyright office registrations were 10,814                 and languages for use by the Congress and other
     fewer in fiscal year 2006 than in fiscal year 2005. A            customers.
     scheduled fee increase and planned temporary
     relocation of staff both led to delays in processing.
     The number of copyright direct inquiries (in-person,             Annual Goal: National Library – Library Services (LS).
     phone, and correspondence) was 19,773 less in 2006                Collections Development – define and develop a
     than in 2002. Decreases were principally due to the              universal, multilingual, and multi-format collection of
     growing public use of the Web site for information               works of historical and cultural significance for the 21st
     on copyright law, the Copyright Office’s services,               century.
     and Copyright Office forms and publications.                     Annual Accomplishments: Focused on the acquisition
                                                                      of electronic resources for reference and research. Some
         The number of information requests handled by              examples are the Central and Eastern European Online
     reference staff and items circulated decreased by                Library; Dissertations of China; Universal Database of
     11.4 percent from 775 thousand in 2002 to 687                    Russian/NIS Newswires; Encyclopedia of Taiwan;
     thousand in 2006, while the number of Internet                   China national knowledge infrastructure; proceedings of
     transactions increased from 2.0 billion to 4.6 billion.          academic conferences in China; Iranian opposition party
      This trend reflects greater use of the Library’s on-            materials; foreign map collections, e.g., Brazil, Chinese,
     line resources.                                                  Iran; Korean atlases; 19th century Spanish materials;
                                                                      Russian photographs; collection of 12,000 Tibetan
         The number of items for preservation treatment             materials; nine Timbuktu manuscripts never before seen
     increased by 3.4 million from 2002 to 2006 primarily             in the West; Election 2006 (2400 websites); Iraq and
     due to processing over a million sheets annually of              Darfur websites; and all state and local League of
     non-book material on-site using the manuscript                   Women Voters’ web sites. The following international
     deacidification trader installed in August 2002.                 websites were archived: Hurricane Katrina websites for
                                                                      the Caribbean, Darfur and Iraq websites, visual image
         The number of mainframe transactions                       websites, and numerous international organizations.
     decreased by 50 million during fiscal year 2006
     primarily due to the migration of nearly all                     Annual Goal: LS. Partnerships – develop and sustain
     applications off of the mainframe platform.                      collaborative partnerships with our constituent
                                                                      communities (i.e., Congress, scholars, K-12, secondary
                                                                      and post secondary educational communities, other
                                                                      libraries and cultural institutions, and communities of
                                                                      learners with specialized needs) to enhance collections
                                                                      and increase access.



                                                               1-12
Annual Accomplishments: Pursued collaborative                       communities (i.e., Congress, scholars, K-12, secondary
digital projects with international partners including the          and post secondary educational communities, other
National Libraries of Egypt, Russia, and Brazil; the                libraries and cultural institutions, and communities of
Göttingen State and University Library in Germany; and              learners with specialized needs) to enhance collections
libraries and collections in Senegal, Timbuktu, Taiwan,             and increase access.
Iraq, Iran, and Israel.
                                                                    Annual Accomplishments: Established a partnership
Annual Goal: LS. Core Services – advance and
                                                                    with the State Library of Westphalia, Germany, to link
improve the core services of the Library: acquire,
                                                                    valuable table-of-contents data to as many as 200,000
describe, serve, and preserve information resources for
                                                                    Library of Congress (LC) catalog records for German
Congress and the nation, in the 21st century.
                                                                    materials. Five additional major publishers in the US,
                                                                    UK, and Germany agreed to supply ONIX (formatted
Annual Accomplishments: More than 2,500,000 items                   online data) data about their titles to LC for use in
slated for relocation to either Ft. Meade or National               cataloging. LC now receives ONIX data for about 55
Audiovisual Conservation Center (NAVCC) received                    percent of the books published in the US, enabling tables
conservation attention including books, paper-based                 of contents to be linked to catalog records and supporting
materials, photographs, and audio-visual formats. Over              richer keyword searching.
2.3 million items were housed, 120,000 items were
assessed, over 26,000 items were labeled, 48,000 items
                                                                    Strategic Goal 4: Expand, manage, and communicate
were surveyed, and over 1,500 items were treated.
                                                                    Library of Congress digital strategies and roles.
Participated in developing the environmental
specifications for proposed Secured Storage Facilities
capable of providing cool storage and desiccant                     Annual Goal: Office of Strategic Initiatives (OSI).
dehumidification for vulnerable and high value                      Expand, Manage, and Communicate LC Digital
collections. Completed a second secure storage facility             Strategies and Roles – this goal is intended to increase
capable of providing protection against water                       digital policy, practice leadership and coordination by the
penetration, impact, and intrusion for the Library's                Library of Congress, and increase Congressional and
highest value items.                                                stakeholder understanding and recognition of the Library
                                                                    of Congress’ digital priorities, and activities as defined in
                                                                    the Digital Strategic Plan.
Strategic Goal 2: Provide maximum access and
facilitate effective use of the collections by the
                                                                    Annual Accomplishments:           On a regular basis,
Congress and other customers.
                                                                    communicated and reported on performance and
                                                                    stewardship results, and service unit value contributions
Annual Goal: LS. Core Services – advance and                        to Congress, appropriators and donors, the Library’s
improve the core services of the Library: acquire,                  partners, and Library staff.
describe, serve, and preserve information resources for
Congress and the nation, in the 21st century.
                                                                    Strategic Goal 5: Manage and sustain digital content.
Annual Accomplishments: Completed the design of
NAVCC’s unprecedented new Digital Preservation                      Annual Goal: OSI. Manage and Sustain Digital Content
System to increase audio-visual preservation throughput             – provide access over time to a rich body of digital
in both the Sound and Video and Moving Image                        content through the establishment of a national network
laboratories. Awarded a contract to procure, integrate,             of committed partners, collaborating in a digital
install, and test AV systems for “front-end” preservation           preservation architecture with defined roles and
production and data capture.                                        responsibilities. This includes active institution-wide
                                                                    management of digital content by the Library (throughout
                                                                    each stage of the content’s life cycle) that recognizes
Strategic Goal 3: Lead, promote, and support the
                                                                    interdependencies among various life cycle stages to
growth and influence of the national and international
                                                                    include planning, creating, selecting, describing,
library and information communities.
                                                                    sustaining, and making digital content available.
Annual Goal: LS. Partnerships – develop and sustain                 Annual Accomplishments:            Supported both the
collaborative partnerships with our constituent                     collaborative building of collections of national interest


                                                             1-13
and the 21st century collection strategies of the Library’s          Strategic Goal 7: Acquire, secure, maintain, preserve,
other service units by supporting the intake of digital              and make accessible a comprehensive legal collection,
content received through multiple channels.                          in both analog and digital formats, for use by the
                                                                     Congress, executive branch agencies, courts, the legal
Annual Goal: Information Technology Services (ITS).                  community, and other customers.
Information Technology (IT) Support for Digital
Initiatives – Institution-wide management of digital                 Annual Goal: LAW. Collections development,
content, throughout each stage of the content life-cycle,            maintenance, preservation, and security – ensure the Law
enabling high-quality and timely fulfillment of research             Library collections are developed, maintained, and
and information requests.                                            preserved to maximize its customers’ ability to use
                                                                     materials for research and analysis. Ensure collection
Annual Accomplishments: Provided Institution-wide                    security provides an acceptable level of protection against
management of digital content, throughout each stage of              theft, mutilation, or physical destruction.
the content’s lifecycle. This enabled high-quality and
timely fulfillment of research and information requests.             Annual Accomplishments:           Collection specialists
                                                                     worked with legal specialists to assure acquisition of
Strategic Goal 6: Provide high-quality and timely                    primary legal materials and to address critical regions and
legal research, analysis, and legal reference services to            languages in response to Congressional interests. Issued
the Congress, the executive branch agencies, courts,                 contracts to process, preserve, and shelve collection,
the legal community, and other customers.                            avoiding new arrearages. Using contract resources
                                                                     processed all new receipts within five days of receipt.
Annual Goal: Law Library (LAW). Legal Research,
Analysis, and Reference Services – to improve legal                  Annual Goal: LAW. Law Library security – enhance
research, analysis, and reference service to Congress and            the Law Library’s Security Procedures and Business
other clients.                                                       Continuity Contingency Plan.

Annual Accomplishments:               Exceeded the goal by           Annual Accomplishments: Refined and augmented the
meeting deadlines 100% of the time when responding to                Continuity Plan with a section addressing the
Congressional and other customer requests for reports,               development of a separate annex in preparation for the
studies, opinions, legal briefs and legal research and               possibility of a widespread health alert (pandemic). A
reference inquiries. Conducted numerous seminars,                    visit to the alternate emergency operations site at
demonstrations, and discussions providing U.S. and                   Landover, MD enabled a review of the facility and plans
foreign legal research training to over 300 Congressional            in the event of implementation of emergency procedures.
staff members. Developed the Saddam Hussein Trial
website which combined reports from the Directorate of               Strategic Goal 8: Expand and enhance the Global
Legal Research staff with links to primary source                    Legal Information Network (GLIN).
documents and recommended sources of information.
 Launched the Global Legal Monitor which tracks legal                Annual Goal: LAW. GLIN – as the basis for the Law
documents from around the world in legal issue areas.                Library’s digital future, expand and enhance GLIN by
 Law Library staff worked with OSI to select and archive             increasing its membership and by expanding the system
websites containing important discussions of the Supreme             and its capabilities.
Court nominations. In addition, Law Library staff
selected websites detailing the impact of Hurricane                  Annual Accomplishments: Conducted GLIN new
Katrina on the legal community for the Katrina archive.              membership recruitment missions to China, Israel,
                                                                     Lithuania, and Moldova to incorporate their legal
                                                                     materials into the GLIN database. Deployed a major re-
                                                                     design of the GLIN application that greatly increased the
                                                                     database capabilities by permitting cross-lingual subject
                                                                     searching in nine new language interfaces (Arabic,
                                                                     Chinese, German, Korean, Italian, Lithuanian, Romanian,
                                                                     Russian, and Ukrainian). Provided enhanced online help
                                                                     features and new contributor and approver workflows.


                                                              1-14
Increased the database content through the input of: 826             aspects of systems development. On target for July 2007
public laws enacted by the 107th and 108th Congresses,               start-up.
164 laws from the current Congress, 58 out of 84
decisions from the current U.S. Supreme Court, and 73                Annual Goal: COP. Distribution of Copyright
legislative records from the 108th and 109th Congresses.             Licensing Royalties – ensure the effective and efficient
                                                                     setting of licensing rates and distribution of royalties.
Strategic Goal 9: Carry out the statutory mission of
the Copyright Office to administer copyright and                     Annual Accomplishments: The Copyright Royalty
related laws embodied in Title 17 to provide benefit to              Board, charged with executing this responsibility, became
the nation.                                                          operational during the year and instructed the COP
                                                                     Licensing Division to distribute royalties worth $191
Annual Goal: Copyright Office (COP). Online services                 million.
and Access – initiate and enhance online services to the
public for registrations and for statutory license filings;          Strategic Goal 10: Formulate and provide expert
increase online access to historical records.                        advice to the Congress, executive branch agencies,
                                                                     courts, and international entities in the furtherance of
Annual Accomplishments: Completed the planned                        maintaining a strong and effective national and
milestones to stay on target for online public registration          international copyright system.
and licensing services in July 2007.
                                                                     Annual Goal: COP. Challenges to Copyright Policy
Annual Goal: COP. Optimal processing times – set                     and Law – provide timely, quality service to Congress,
standards for optimal processing times and maintain or               the Executive Branch, and the courts to address current
reduce current processing times to meet those standards              and emerging challenges to copyright policy and law,
in the following targeted processing categories:                     especially relating to: digital technology and other issues
registration, document, Congressional inquiries, search              and protection of copyrighted works internationally.
requests, information line and e-mail requests, status
inquiries, and miscellaneous requests.                               Annual Accomplishments: Testified in five substantive
                                                                     congressional hearings on copyright issues, including the
Annual Accomplishments: Attained the improved                        high-profile “orphan works” issue, music licensing
timeliness standards for 15 of 17 targets and sub-targets.           reform, and fashion design protection; advised on seven
                                                                     copyright-related bills; assisted with 20 major court cases
Annual Goal: COP. Reengineered processes –                           including four before the Supreme Court; completed two
reengineer key business processes to deliver public                  studies, one of which was on “orphan works”; completed
services more effectively and efficiently.                           the comment period for the triennial anti-circumvention
                                                                     rulemaking; issued several regulations.              These
Annual Accomplishments:           Completed planned                  accomplishments assisted owners to protect their rights
preparations for implementing the reengineered                       and users to make lawful use of protected works,
processes. Documented detailed requirements and used                 stimulating creativity and economic growth.
the pre-registration application as a prototype for e-
service.                                                             Strategic Goal 11: Be an effective voice for the
                                                                     principles of copyright, which benefit the public, by
Annual Goal: COP. IT systems Infrastructure – support                providing information and informing the public
key business processes with new information technology               debate on copyright issues.
systems infrastructure to deliver public services more
effectively and efficiently.                                         Annual Goal: COP. Outreach (current and new
                                                                     audiences and media) – reach current and new audiences
Annual Accomplishments: Completed 70% of planned                     through a broad range of information media, with
steps for better service delivery, including definition of           copyright information and a message on the importance
detailed process requirements. Continued design,                     of copyright principles as a means of promoting creativity
development, and testing of system functions.                        and protecting the rights of creators.
Requirements such as pre-registration furthered other




                                                              1-15
Annual Accomplishments: Completed development                       services, distribute reading materials and equipment to
steps to ensure public education efforts about new e-               patrons while maintaining the program’s mission and
services can be implemented in 2007.                                integrity.

Strategic Goal 12: Carry out the statutory mission of               Annual Accomplishments: Met established goals
the Congressional Research Service (CRS) to assist                  related to program operations, materials, and services.
the Congress as it undertakes its legislative                       Book production levels exceeded original targets, and an
responsibilities by providing multi disciplinary,                   increased level of efficiency helped to facilitate the
nonpartisan, confidential, timely, and objective                    timely procurement of program contracts and service
analysis of public policy problems and their possible               agreements. Operational performance evaluations of 31
solutions.                                                          network libraries helped to ensure that quality service
                                                                    was provided to patrons.
Annual Goal: CRS. Service to the Congress –
contribute to an informed national legislature across all           Annual Goal: NLS/BPH. Digital Strategy Planning and
active policy areas by providing research and analytical            Implementation – design and provide an array of services,
support that is relevant, high-quality, and accessible for          content, and equipment through existing and new digital
congressional use.                                                  technology.

Annual Accomplishments: Developed, maintained, and                  Annual Accomplishments: Met established annual
successfully implemented a research agenda, verified to             performance targets and remained on track for achieving
be directly aligned with the work of the Congress by                future design, development, production, and distribution
congressional leadership. This work included important              milestones for the Digital Talking Books and the Digital
ongoing, objective, and nonpartisan contributions to the            Talking Book Machine.
Congress in all major policy areas. For each active policy
area, engaged the full range of appropriate specialized             Strategic Goal 14: Enhance the management and
expertise and provided for immediate, online                        utilization of the Library's Revolving and
congressional access to a full complement of research               Reimbursable funds.
products maintained to reflect the evolving context in
which the Congress was operating.                                   Annual Goal: LS. Revolving and Reimbursable Funds
                                                                    – enhance the management and utilization of the
Annual Goal: CRS. Resource Management – best serve                  Library’s Revolving and Reimbursable funds through e-
the Congress’ legislative needs by organizing functions             commerce initiatives and implementation of a business
and activities, and allocating resources to optimize                enterprises structure.
economy, efficiency, and effectiveness.
                                                                    Annual Accomplishments: Completed a major review
Annual Accomplishments: Through briefings, training,                of the Business Enterprises activities of LS including
and other means of notification, ensured that Members               some of the revolving funds, and developed plans for
had knowledge of and access to the full range of CRS                further action. Closed all five open Government
services. Developed and deployed new tools to assist in             Accountability Office recommendations as a result of this
producing and maintaining research products.                        work. The Motion Picture Broadcasting and Recorded
Transformed the workforce and work processes to                     Sound Division continued development of new workflow,
achieve a more cost-effective method of accomplishing               production, and archiving systems, as well as the
the CRS mission.                                                    software that will integrate and automate all NAVCC
                                                                    business processes.
Strategic Goal 13: Ensure that a high-quality,
responsive, and free national reading program is                    Annual Goal: Office of the Chief Financial Officer
available to the nation's blind and physically                      (OCFO). Manage and utilize revolving and reimbursable
handicapped people.                                                 funds not intended to generate profits in an efficient and
                                                                    cost effective manner – to assist service units that operate
Annual Goal: National Library Service for the Blind                 revolving funds or receive reimbursable funds to identify
and Physically Handicapped (NLS/BPH). Program                       and develop business plans that will maximize the
Operations, Materials and Services – provide high quality


                                                             1-16
potential to generate profits and to cover all costs                  Successfully administered Employee Assistance Program
associated with the program.                                          counseling, the Library’s leave program, the Library’s
                                                                      web-based time and attendance system, and the
Annual Accomplishments: Reviewed two business                         Reduction-In-Force programs.           Personnel action
plans for revolving and reimbursable funds. Monitored                 processing and the correction of pay discrepancies targets
the execution of all the revolving and reimbursable fund              were fully met and showed significant improvement from
business plans for cumulative results and status of funds.            the prior year.
 Coordinated the eighth consecutive successful audit of
the Cooperative Acquisitions Program.                                 Strategic Plan Goal 16: Create an environment that
                                                                      supports delivery of superior service to the Congress
Strategic Goal 15: Manage Human Capital so the                        and the American people through effective
Library is able to attract and maintain an outstanding                communication and management of business and
workforce with the skills, resources, and dedication to               supporting processes and financial resources, and that
deliver a range of high-quality, cutting-edge services,               provides a safe and healthy workplace.
in all the Library's program and support areas.
                                                                      Annual Goal: Integrated Support Services (ISS).
Annual Goal: Human Resources Services (HRS).                          Facility and Logistics Services – provide timely and
Ensure the timely hiring of staff – the Library’s staff have          efficient facilities support and logistics services for staff
the knowledge, skills and abilities needed to serve the               and collections.
Congress and other customers now and in the future.
                                                                      Annual Accomplishments: Implemented the fiscal year
Annual Accomplishments: Met or exceeded all annual                    2006 Facility project plan (42 projects completed; 32
performance targets by providing timely first referral and            projects in progress). Received and processed 1,526
supplemental candidate lists to selecting officials and               facility services requests. When processed, those
conducting job analysis to prepare well-defined job                   requests generated 1,524 additional requests. Supported
descriptions, vacancy announcements and interview                     the Librarian in facility planning initiatives. Began
questions. Continued to offer high quality position                   implementation of new Computer Aided Facility
management and reorganization consultation, and sought                Management (CAFM) system. Developed the Statement
feedback from service and infrastructure units to identify            of Work for a new food services contract. Reported to
opportunities for increased customer satisfaction and                 the Senate Appropriations Committee on extensive
process improvements.                                                 improvements in the Library’s warehousing operations.

Annual Goal: HRS. Retain, motivate, and reward high                   Annual Goal: ISS. Office Systems Services – provide
performers – provide effective and efficient labor-                   effective records management, safe mail distribution,
management relations, employee relations, and                         printing, and transportation services.
performance management.
                                                                      Annual Accomplishments: Supported the Library’s
Annual Accomplishments: Met or exceeded all annual                    needs for printing (completed 1,981 orders) and
performance targets by providing effective and efficient              transportation (shuttled 3,726 passengers to/from the
labor-management relations, employee relations and                    Landover and Taylor Street Annexes). Filled 1,239 staff
performance management services to Library                            requests for loan of vehicles. Administered the Library’s
management and staff.                                                 new contract for administrative and fee-based copying
                                                                      (replaced 240 office copiers and supported 9.2 million
Annual Goal: HRS. Provide responsive, efficient, and                  Library impressions by staff), saving the Library close to
effective human resources services – continuously                     $600,000 (copier and printing programs). Monitored the
improve human resources processes to better serve and                 Library’s receipt of services under the joint mail contract
support the Library.                                                  with the U.S. House of Representatives, assuring that
                                                                      approximately 2 million pieces of mail were received,
Annual Accomplishments: Met all critical annual                       screened, and distributed on a timely basis Library-wide.
performance targets by providing effective, efficient
health insurance and retirement benefits program support
and by responding timely to benefits inquiries.



                                                               1-17
Annual Goal: ISS. Provide safe and healthy workplace                  the programs, collections, exhibitions and staff of the
– provide a work environment that supports and enhances               Library to guests.
the safety, health, and efficiency of the Library’s staff.
                                                                      Annual Accomplishments: Coordinated and managed
Annual Accomplishments: Conducted 100% of planned                     546 Library events for Congressional, corporate, and non-
health and safety audits (14 in-depth audits and 68                   profit events.
conducted by Library’s Joint Management Labor Health
and Safety Committee). Completed fiscal year 2006 with                Annual Goal: OCFO. Establish and promote a financial
a lost-time injury rate of 0.4 injuries per 200,000 hours             management framework in accordance with applicable
worked (goal reduced from 0.9 to 0.4 in fiscal year 2006).            Federal standards and guidelines to ensure good
 Assured 203 hours (76 training sessions) of mandatory                stewardship over the Library’s resources – provide tools
safety training for 501 Library staff members. Managed                for effective financial administration including: planning,
63 worker’s compensation cases (lowest in 5 years, and                budgeting, accounting, and asset management to ensure
decrease of 19 from 2005) during the charge-back year                 accountability and effective utilization of the Library’s
(July 1, 2005 – June 30, 2006), with charge-back costs of             resources.
$798,000 (9% increase over 2005). Provided acute and
emergency health treatment to approximately 6,634 staff               Annual Accomplishments: Following Congressional
members and visitors and responded to 103 medical                     guidance, submitted the fiscal year 2007 budget request
emergencies, 23 of which were life threatening. Formed                for the Library in January, 2006. Accomplished all
and trained the first Library CERT (Community                         responsibilities for monitoring execution of the fiscal year
Emergency Response Team) and acquired emergency                       2006 budget, and led the successful effort to obtain the
medical supplies, as approved in the fiscal year 2006                 Library’s tenth consecutive clean audit opinion for fiscal
appropriation.                                                        year 2005. Completed and submitted all necessary
                                                                      external reports according to federal standards.
Annual Goal: ISS. Support to New Off-site Facilities –
support new off-site facilities for staff and collections,            Strategic Goal 17: Manage and sustain mission-
including facilities support, logistics services, health and          critical IT programs.
safety services, and office systems services.
                                                                      Annual Goal: Information Technology Services (ITS).
Annual Accomplishments: Completed renovation and                      Digital Infrastructure – optimize the digital infrastructure
fit-out of off-site space for Copyright Office staff and              for maximum availability, scalability, security, and
supported move of 464 staff (July 2006) to Crystal City,              manageability to support service unit mission-critical
Virginia, assuring that all functions were fully operational          operations over time.
from the first day of occupancy. Assured identification
and thorough documentation of all infrastructure services             Annual Accomplishments:              Expanded wireless
needed to support new offsite facility at NAVCC in                    capability, installed additional services, and updated the
Culpeper, Virginia. Supported award of initial custodial              IT architecture.
and trash removal contracts.
                                                                      Annual Goal: ITS. IT Support for LC service unit
Annual Goal: LIBN. Reach agency fundraising goals –                   business processes – COP, CRS, LAW and LS.
based on the Library’s fundraising priorities, initiate,
coordinate, and track all fundraising activities throughout           Annual Accomplishments: For COP, supported timely
the Library.                                                          delivery of quality copyright services to the American
                                                                      people. For CRS, provided IT support to ensure
Annual Accomplishments: Fundraising goals met with                    Congress received the timely legislative analysis and
less than 100 solicitations. Increased the attendance at              information support it needed to addresses public policy
the National Book Festival by ten percent. (More than                 issues. For LAW, enhanced GLIN to support more
100,000 people attended).                                             comprehensive and timely global legal information. For
                                                                      LS, created a broad and detailed knowledge resource to
Annual Goal: LIBN. Coordinate and manage Library of                   support servicing research and information requests.
Congress events – well-planned and executed events
which support the mission of the Library and showcase



                                                               1-18
Annual Goal: ITS. IT Support for Digital Initiatives –                reinvestigations program; and conduct defensive security
provide institution-wide management of digital content                briefings.
throughout each stage of the content’s life-cycle
providing high-quality and timely fulfillment of research             Annual Accomplishments: Completed 886 background
and information requests from an increasingly diverse                 investigations for new employees, contractors, and
and distributed customer population.                                  volunteers and granted security clearances for classified
                                                                      access when required by job duties. The number of
Annual Accomplishments: Successfully managed                          background investigations completed in fiscal year 2006
digital content providing high-quality, timely fulfillment            was 36 percent greater than in the previous year because
of research and information requests from an increasingly             of increased personnel and contractor actions. Hosted a
diverse and distributed customer population.                          refresher briefing for staff cleared for classified access.
                                                                      Presented security information during new employee
Strategic Goal 18: Provide effective security and                     orientations.
emergency planning for the Library's staff and
visitors, collections, facilities, and other assets.                  Annual Goal: OSEP. Emergency Preparedness – ensure
                                                                       the Library and its staff are prepared to respond and
Annual Goal: Office of Security and Emergency                         recover efficiently and effectively to internal and external
Prepared-ness (OSEP). Protective Services – provide                   emergency events and situations.
electronic and physical security systems, methods, and
procedures necessary to protect the Library staff, visitors,          Annual Accomplishments: Developed an emergency
buildings, collections, information, and other assets from            preparedness website for staff to provide information
external and internal threats.                                        about shelter-in-place locations, emergency coordinators,
                                                                      and emergency evacuation teams. The website also
Annual Accomplishments: Completed major upgrades                      contains the “Employee Emergency Action Guide.”
to the Library’s security network infrastructure including            Provided shelter-in-place supplies, distributed new escape
improvements to access controls, intrusion detection, and             hoods, and coordinated development of the Library’s
closed circuit television. Installed security systems at              Continuity of Operations Plan and implemented the
NAVCC, the Fort Meade Module 2 Facility, and COP’s                    Computer Emergency Notification System.
temporary relocation site at Crystal City. In collaboration
with the Park Police, developed and executed the 2006
National Book Festival Security Plan.                                       MANAGEMENT CONTROL
                                                                         PROGRAM, SYSTEMS, CONTROLS
Annual Goal: OSEP. Implement the Library of                                 AND LEGAL COMPLIANCE
Congress Strategic Plan for Safeguarding the Collections
and enhance and continually update the plan through the
                                                                      The Library has a management control program (MCP)
Collections Security Oversight Committee – ensure the
                                                                      that requires annual risk (vulnerability) assessments and
physical security controls in place are providing effective
                                                                      periodic detailed reviews of internal controls based on
security for the Library’s collections.
                                                                      the results of the vulnerability assessments. The MCP is
                                                                      designed to ensure that: (1) obligations and costs comply
Annual Accomplishments: Continued implementation                      with applicable law; (2) assets are safeguarded against
of the Strategic Plan for Safeguarding the Collections,               waste, loss, unauthorized use or misappropriation; (3)
2005 –2009. The plan’s focus for the year was to                      revenues and expenditures are properly accounted; and
enhance staff understanding of, and commitment to, best               (4) program activities are carried out in the most
security practices.                                                   efficient, effective, and economical manner possible.
Annual Goal: OSEP. Personnel Security – ensure the                    During fiscal year 2006, Library staff performed
suitability of Library employees and contractors through              vulnerability assessments on all of the 203 identified
the initiation and adjudication of effective and timely               financial and non-financial modules and assigned, based
background investigations; determine security clearance               on an established scoring system, a high, medium or low
eligibility of individuals requiring access to classified             risk to the modules. Then, based on risk and scheduling,
national security information; maintaining a                          Library staff performed 55 detailed control reviews in
                                                                      fiscal year 2006 to examine the controls in place in



                                                               1-19
the selected modules. Plans to correct any deficiencies in          relate to the mission of the entity and a description of the
controls were derived based on the examination results              entity's stewardship policies; (b) for fiscal year 2008, a
and will be tracked at an agency level by program                   description of the major categories and physical unit
officials until the deficiencies are resolved.                      information as of the end of the reporting period; and (c)
                                                                    for fiscal year 2009, the physical units added and
The implementation and regular testing of controls                  withdrawn during the year and a description of the
allows for Library management to assert that these                  methods of acquisition and withdrawal.
controls provide reasonable assurance that the forgoing
objectives are met. This testing is performed on the                The Library's reporting on heritage assets likewise
central financial and reporting systems, along with the             follows this phased-in approach.          Heritage asset
subsidiary and program systems and the external                     information that is not required to be reported as basic
financial interfaces used by the Library. In addition, the          information for fiscal year 2006 is reported in the
Library implemented a new central financial                         Library's 12th stewardship report on its collections. The
management system during fiscal year 2004 (that went                Stewardship Report is included as Section 3 of this
“live” at the beginning of fiscal 2005), which has further          report.
enhanced system controls by decreasing the number of
manual processes and should decrease the number of
program and subsidiary systems in the coming years.                   LIMITATIONS OF THE FINANCIAL
                                                                              STATEMENTS
       STEWARDSHIP REPORTING                                        The Library's financial statements are the culmination of
                                                                    a systematic accounting process. The statements have
In accordance with Statement of Federal Financial                   been prepared to report the financial position and results
Accounting Standards (SFFAS) No. 29, "Heritage Assets               of operations of the Library of Congress, pursuant to the
and Stewardship Land," the Library reports descriptive,             hierarchy of accounting principles and standards set forth
non-financial information on heritage assets as basic               in Note 1 to the Financial Statements. While the
information its financial statements. SFFAS No. 29 is               statements have been prepared from the books and
effective for reporting periods beginning after September           records of the Library, the statements are in addition to
30, 2005.                                                           the financial reports used to monitor and control
                                                                    budgetary resources that are prepared from the same
Prior to the issuance of SFFAS No. 29, information on               books and records. The statements should be read with
heritage assets was reported as Required Supplementary              the realization that they are for a component of the U.S.
Stewardship Information (RSSI). SFFAS No. 29                        Government, a sovereign entity. One implication of this
reclassifies all heritage assets information as basic               is that liabilities cannot be liquidated without legislation
financial information, except for condition information,            that provides resources to do so.
which is reclassified as Required Supplementary
Information (RSI).

SFFAS No. 29 provides for a phased-in approach
whereby heritage asset information is moved from RSSI
to basic information in the financial statements. Certain
disclosures must be reported as basic information
beginning in fiscal years 2006, with other disclosures
reported as basic information beginning in fiscal years
2008 or 2009. Therefore, full implementation of the
standard is not required until reporting periods beginning
after September 30, 2008. In the interim, until
disclosures are reported as basic information, SFFAS No.
29 requires the disclosures to be reported as RSI.

The phased-in disclosures are as follows: (a) for fiscal
year 2006, a statement explaining how heritage assets


                                                             1-20
                                THE LIBRARY OF CONGRESS
                                        Consolidated Balance Sheets
                                             As of September 30, 2006 and 2005
                                                   (Dollars in Thousands)
                                                                                      2006           2005
ASSETS
   Intragovernmental:
        Fund Balance with Treasury (Note 2)                                      $     382,059   $     363,534
        Investments (Note 4)                                                         1,176,359       1,094,874
        Accounts Receivable, Net (Note 5.A)                                             14,545          13,917
        Other Assets                                                                     2,608           7,465
           Total Intragovernmental                                                   1,575,571       1,479,790

   Cash and Other Monetary Assets (Note 1.G)                                              622             581
   Pledges Receivable - Donations (Note 5.B)                                            9,711          13,635
   Investments (Note 4)                                                                77,445          75,121
   Inventory and Operating Supplies and Materials (Note 1.K)                              917           1,345
   Property and Equipment, Net (Note 6)                                                31,765          33,301
   Other Assets                                                                         4,757             919

   Library Collections (Note 1.M)
Total Assets                                                                     $   1,700,788   $   1,604,692


LIABILITIES
   Intragovernmental:
        Accounts Payable and Accrued Funded Payroll, Benefits                    $      7,945    $      6,847
        Advances from Others                                                           30,377          22,961
        Accrued Unfunded Workers’ Compensation (Note 9)                                 1,758           1,597
        Other Intragovernmental Liabilities (Note 11)                                     250              92
           Total Intragovernmental                                                     40,330          31,497

   Accounts Payable and Accrued Funded Payroll, Benefits                                54,221          49,080
   Custodial Liability (Note 3)                                                      1,122,435       1,048,431
   Deposit Account Liability                                                             6,553           5,655
   Accrued Unfunded Annual and Compensatory Leave                                       22,591          22,282
   Actuarial Unfunded Workers' Compensation (Note 9)                                     7,748           8,130
   Other Liabilities (Note 11)                                                           3,695           3,550
Total Liabilities                                                                    1,257,573       1,168,625

   Commitments and Contingencies (Note 10)

NET POSITION

   Unexpended Appropriations                                                          254,175         258,356

   Cumulative Results of Operations                                                                   177,711
      Earmarked Funds (Note 19)                                                       180,273
      Other Funds                                                                       8,767
Total Net Position                                                                    443,215         436,067

Total Liabilities and Net Position                                               $   1,700,788   $   1,604,692


   The accompanying notes are an integral part of these financial statements.




                                                                2-1
                                  THE LIBRARY OF CONGRESS
                                  Consolidated Statements of Net Costs
                                  For the Fiscal Years Ended September 30, 2006 and 2005
                                                   (Dollars in Thousands)
                                                                                     2006         2005
Net Costs by Program Area:
National Library:
   Program Costs                                                                $ 391,139    $ 387,709
   Less Earned Revenue                                                              4,397        4,220
     Net Program Costs                                                             386,742     383,489

Law Library:
   Program Costs                                                                    21,670      20,964
   Less Earned Revenue                                                                  11           8
    Net Program Costs                                                               21,659      20,956

Copyright Office:
    Program Costs                                                                   69,822      68,854
    Less Earned Revenue                                                             29,433      27,043
    Net Program Costs                                                               40,389      41,811

Congressional Research Service:
    Program Costs                                                                  127,511     122,380
    Less Earned Revenue                                                                  5           1
     Net Program Costs                                                             127,506     122,379

National Library Service for the Blind and Physically Handicapped:
   Program Costs                                                                    59,324      50,701
   Less Earned Revenue                                                                   4           0
     Net Program Costs                                                              59,320      50,701

Revolving and Reimbursable Funds:
Program Costs                                                                       85,484      93,698
Less Earned Revenue                                                                 68,081      77,254
Net Program Costs                                                                   17,403      16,444

Net Costs of Operations                                                         $ 653,019    $ 635,780

The accompanying notes are an integral part of these financial statements




                                                                  2-2
                                  THE LIBRARY OF CONGRESS
                     Consolidated Statements of Changes in Net Position
                                  For the Fiscal Years Ended September 30, 2006 and 2005
                                                   (Dollars in Thousands)


                                                                               2006                             2005
                                                               Earmarked      All Other    Consolidated   Cumulative Results
                                                                 Funds         Funds          Total         of Operations
Cumulative Results of Operations:
 Beginning Balances                                              $166,960       $10,751       $177,711             $161,755

Budgetary Financing Sources

     Appropriations Used                                                 0      555,955        555,955              542,955

     Non-Exchange Revenue                                           2,469             1           2,470                 1,650

     Donations-Cash or securities                                   9,053             0           9,053                16,356

     Transfer in/out without reimbursement                              617        (556)             61                 1,046

     Other financing sources with budgetary impact                  1,220             0           1,220                 1,339

Other Financing Sources (Non-Exchange)

     Donations-Property and Services                                     12      16,388          16,400                 7,507

     Imputed Financing (Note 18)                                    2,240        70,633          72,873                73,521

     Other                                                          6,315             1           6,316                 7,362

Total Financing Sources                                            21,926       642,422        664,348              651,736

Net Cost of Operations                                             (8,613)    (644,406)       (653,019)            (635,780)

Net Change                                                         13,313        (1,984)         11,329                15,956

Cumulative Results of Operations, Ending                          180,273         8,767        189,040              177,711

Unexpended Appropriations:
 Beginning Balances                                                      0      258,356        258,356              259,574

Budgetary Financing Sources

     Appropriations Received                                             0      567,424        567,424              549,760

     Appropriations transferred in/out                                   0        (594)           (594)                 (496)

     Other Adjustments (Cancelled Auth, Enacted
     reductions, etc.)                                                   0      (15,056)       (15,056)              (7,527)

     Appropriations Used                                                 0    (555,955)       (555,955)            (542,955)

Total Budgetary Financing Sources                                        0       (4,181)        (4,181)              (1,218)

Unexpended Appropriations, Ending                                        0      254,175        254,175             $258,356

Net Position, Ending                                             $180,273      $262,942       $443,215             $436,067

The accompanying notes are an integral part of these financial statements.




                                                                  2-3
                              THE LIBRARY OF CONGRESS
                       Combined Statements of Budgetary Resources
                                  For the Fiscal Years Ended September 30, 2006 and 2005
                                                       (Dollars in Thousands)
                                                                                                       2006             2005
Budgetary Resources
   Unobligated balance, brought Forward, October 1                                         $           1,221,556    $   1,029,310
   Recoveries of prior year obligations                                                                    6,069            4,355
   Budget authority
      Appropriation                                                                                      857,900         795,685
      Spending authority from offsetting collections
      Earned
         Collected                                                                                       112,742         127,618
         Change in receivables from Federal sources                                                         (21)           3,259
      Change in unfilled customer orders
         Advance received                                                                                  7,765          (7,322)
         Without advance from Federal sources                                                              (492)            6,353
      Expenditure transfers from trust funds                                                                   2                0
      Subtotal Budget Authority                                                                          977,896         925,593
   Nonexpenditure transfers, net, anticipated and actual                                                   (545)            (494)
   Temporarily not available pursuant to Public Law                                                          175               11
   Permanently not available                                                                            (15,151)          (7,597)


   Total Budgetary Resources                                                               $           2,190,000    $   1,951,178

Status of Budgetary Resources:
      Obligations incurred
         Direct                                                                                          771,756          606,061
         Reimbursable                                                                                    118,051          123,561
      Unobligated balance-Exempt from Apportionment                                                    1,290,989        1,209,233
      Unobligated balance not available-other                                                              9,204           12,323

   Total Status of Budgetary Resources                                                     $           2,190,000    $   1,951,178

Change in Obligated Balance:
   Obligated balance, net
      Unpaid obligations, brought forward, October 1                                       $             231,350    $    213,616
      Less: Uncollected customer payments from Federal sources, brought forward,
                                                                                                        (14,975)          (5,363)
      October 1
      Total unpaid obligated balance, net                                                                216,375          208,253
   Obligations incurred net (+/-)                                                                        889,807          729,622
   Less: Gross outlays                                                                                 (861,993)        (707,533)
   Less: Recoveries of prior year unpaid obligations, actual                                              (6,069)          (4,355)
   Change in uncollected customer payments from Federal sources (+/-)                                         513         (9,612)
   Obligated balance, net, end of period
      Unpaid obligations                                                                                253,095          231,350
      Less: Uncollected customer payments from Federal sources                                          (14,462)         (14,975)
      Total, unpaid obligated balance, net, end of period                                                238,633          216,375

Net Outlays
      Gross outlays                                                                                      861,993          707,533
      Less: Offsetting collections                                                                     (120,509)        (120,296)
      Less: Distributed Offsetting receipts                                                             (45,942)         (23,300)
      Net Outlays                                                                          $             695,542    $     563,937

The accompanying notes are an integral part of these financial statements.
The Library has no non-budgetary credit program financing accounts; all amounts above are budgetary.




                                                                2-4
                                  THE LIBRARY OF CONGRESS
                                    Consolidated Statements of Financing
                                       For the Fiscal Years Ended September 30, 2006 and 2005
                                                        (Dollars in Thousands)

                                                                                                                        2006        2005
Resources Used to Finance Activities
Budgetary Resources Obligated:
  Obligations incurred                                                                                          $     889,807 $ 729,622
  Spending authority from offsetting collections and recoveries                                                     (126,064) (134,263)
  Obligations net of offsetting collections and recoveries                                                           763,743     595,359
     Less: Offsetting Receipts                                                                                       (45,942)    (23,300)
 Net Obligations                                                                                                     717,801     572,059
Other Resources:
  Donations of property and services                                                                                  16,400        7,507
  Imputed financing from costs absorbed by others                                                                     72,873      73,521
  Exchange revenue not in the budget                                                                                    (112)       (222)
  Non-exchange revenue not in the budget                                                                                (569)        (12)
  Trust/Special fund exchange revenue receipts                                                                        (5,830)     (3,402)
  Other resources (+/-)                                                                                                 6,316       7,362


Total Resources Used to Finance Activities                                                                           806,879     656,813


Resources Used to Finance Items not Part of the Net Cost of Operations
  Change in budgetary resources obligated for goods, services and benefits ordered but not yet provided (+/-)         (3,097)       1,912
  Resources that finance the acquisition of assets                                                                    (9,843)     (4,042)
  Budgetary offsetting receipts that do not affect net cost of operations                                              45,942      23,300
  Other resources or adjustments to net obligations that do not affect net cost of operations (+/-)                 (192,679)    (43,292)
  Total Resources Used to Finance Items not Part of the Net Cost of Operations                                      (159,677)    (22,122)


Total Resources Used to Finance the Net Cost of Operations                                                           647,202     634,691


Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period
Components Requiring or Generating Resources in Future Periods:
  Increase in annual leave liability and actuarial liabilities                                                            88         474
  Other (+/-)                                                                                                              5           0
 Total Components Requiring or Generating Resources in Future Periods                                                     93         474
Components not Requiring or Generating Resources:
  Depreciation and amortization                                                                                       11,483        8,210
  Revaluation of assets or liabilities (+/-)                                                                          (5,751)     (7,543)
  Bad debt from public vendor overpayment receivables                                                                     (1)         384
  Other costs not requiring or generating budgetary resources (+/-)                                                       (7)       (436)
  Total Components not Requiring or Generating Resources                                                               5,724         615


Total Components of Net Cost of Operations that will not Require or Generate resources in                              5,817       1,089
the Current Period


Net Cost of Operations                                                                                          $    653,019 $   635,780


The accompanying notes are an integral part of these financial statements.


                                                                      2-5
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005



                         1 Summary of Significant Accounting Policies
A.       Reporting Entity                                          primarily of custodial accounts that are not available
                                                                   for use by the Library.
The Library of Congress (Library), a legislative branch
agency of the federal government, was established in               B.      Basis of Presentation
1800 primarily to provide information and policy
analyses to the members and committees of the U.S.                 The accompanying financial statements report the
Congress. Since then, the Library has been assigned                financial position, net costs, changes in net position,
other major missions such as administering the U.S.                budgetary resources and financing of the Library for
copyright laws, providing cataloging records to the                fiscal years 2006 and 2005. These consolidated and
nation's libraries, and coordinating a national program            combined financial statements include the accounts of
to provide reading material for blind and physically               all funds under the Library's control, which have been
handicapped residents of the U.S. and its territories and          established and maintained to account for the resources
U.S. citizens residing abroad. The Library also                    of the Library. They were prepared from the Library's
provides services to other federal agencies and                    financial management system in accordance with
administers various gift funds and funds accepted and              Generally Accepted Accounting Principles (GAAP).
controlled by the Library of Congress Trust Fund
Board (TFB).                                                       Material intra-Library transactions and balances have
                                                                   been eliminated from the Consolidated Balance Sheets,
The Library's programs and operations are subject to               the Consolidated Statements of Net Cost, and the
oversight by the Joint Committee on the Library, which             Consolidated Statements of Changes in Net Position.
is comprised of members of the U.S. House of                       The Statement of Budgetary Resources is presented on
Representatives and Senate.       The Library relies               a combined basis; therefore, intra-Library transactions
primarily on appropriated funds to support its programs            and balances have not been eliminated from this
and operations. Budget requests are subject to review              statement. Intra-Library transactions and balances
by the House Committee on Appropriations and the                   have been eliminated from all amounts on the
Senate Subcommittees on Legislative Branch,                        Consolidated Statements of Financing, except for
Committee on Appropriations. The Library also                      obligations incurred and spending authority from
receives funds from other agencies for services                    offsetting collections and recoveries, which are
provided under the Economy Act and other statutes. In              presented on a combined basis.
addition, the Library administers several fee-for-
service revolving funds and receives donations from                As a legislative branch agency, the Library is not
the public, which are classified as gifts or funds                 required to follow the executive agency accounting
accepted and controlled by the Library of Congress                 principles established by the Comptroller General
Trust Fund Board, which consists of the Librarian of               under 31 U.S.C. 3511 or the standards developed by
Congress (who is Chairman and Secretary of the Trust               the Federal Accounting Standards Advisory Board
Fund Board), the Chairman and Vice-Chairman of the                 (FASAB). However, the Library maintains its fund
Joint Committee on the Library, the Secretary of the               balances with the Department of the Treasury and
Treasury (or an assistant secretary designated in                  submits information required to incorporate its
writing by the Secretary of the Treasury), and ten                 financial and budgetary data into the overall federal
additional members appointed by the President (two),               government structure.      For purposes of financial
the U.S. House of Representatives (four), and the U.S.             management and reporting, the Library has issued a
Senate (four).                                                     regulation (LCR 1510), which adopts the federal
                                                                   standards for financial reporting and internal controls
Entity activities are those for which the Library has the          in a manner consistent with a legislative agency. The
authority to use the assets. Non-entity activities consist         Library has not adopted the Federal Financial

                                                             2-6
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005
Management Improvement Act of 1996, the Federal                 and assumptions that affect the reported amounts of
Managers Financial Integrity Act and the Government             assets and liabilities and the disclosure of contingent
Performance and Results Act, as these standards are             assets and liabilities at the date of the financial
not applicable to the Library. However, the Library             statements and the reported amounts of revenues and
uses these sources as guidance and reference in its             expenses during the reporting period. Actual results
operations.                                                     could differ from these estimates.

The statements include 4 (4) appropriated fund                  D.        Revenues and Other Financing
accounts; 26 (26) revolving (and gift revolving) funds;
23 (26) reimbursable funds; 104 (103) TFB funds; and                      Sources
126 (128) gift funds for fiscal year 2006 (and 2005,
respectively).                                                       x Appropriations

C.      Basis of Accounting                                     The Library receives the majority of its funding to
                                                                support its programs through four appropriations that
The Library’s financial statements conform to                   include both annual and no-year funding.            The
accounting principles generally accepted in the United          appropriated funds may be used, within statutory
States of America as promulgated by the Federal                 limits, for operating and capital expenditures including
Accounting Standards Advisory Board (FASAB). The                equipment, furniture and furnishings. Appropriations
American Institute of Certified Public Accountants              are recognized as revenues at the time they are
recognizes FASAB Standards as generally accepted                expended. The four appropriations for fiscal year 2006
accounting principles for federal reporting entities.           are:

The statements were also prepared based on guidance                  x   Library of Congress, Salaries and Expenses
published in the Office of Management and Budget                          (annual and no-year)
(OMB) Circular No. A-136, Financial Reporting                        x   Copyright Office, Salaries and Expenses
Requirements. The Library is not required to adopt                        (annual and no-year)
this circular, and accordingly has elected to use the                x   Congressional Research Service, Salaries and
disclosures management deems necessary for the fair                       Expenses (annual)
presentation of financial statement information.                     x   National Library Service for the Blind and
                                                                          Physically Handicapped, Salaries and
The accounting structure of the Library is designed to                    Expenses (annual and no-year)
reflect both accrual and budgetary accounting. Under
the accrual method, revenues are recognized when
earned and expenses are recognized when a liability is               x   Earned Revenues
incurred, without regard to receipt or payment of cash.
The budgetary accounting, on the other hand, is                 Additional     amounts      are    obtained    through
designed to recognize the obligation of funds according         reimbursements from services performed for other
to legal requirements, which in many cases is prior to          federal agencies as authorized by the Economy Act and
the occurrence of an accrual-based transaction. The             the Library's annual appropriations legislation. In
budgetary accounting facilitates compliance with legal          addition, the Library operates several self-sustaining
constraints on and controls over the use of federal             revolving funds that generate revenues from the sale of
funds.                                                          various products and services to the public and federal
                                                                customers. Revolving and reimbursable fund revenue
The preparation of financial statements in conformity           is recognized when goods have been delivered or
with GAAP requires management to make estimates                 services rendered.




                                                          2-7
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005
                                                                  financing source is recorded to offset these costs that
Under the authority of 2 U.S.C. 182, the Cooperative              are financed by the other Federal agencies.
Acquisitions Revolving Fund was established on
October 1, 1997, and is the program under which the                   x   Custodial Funds
Library acquires foreign publications and research
materials on behalf of participating institutions on a            The Library of Congress Copyright Office Licensing
cost-recovery basis. 2 U.S.C. 182 was amended for the             Division administers the compulsory and statutory
establishment of revolving funds for Audio and Video              licenses covered by the copyright law (17 U.S.C.). The
Duplication, Gift Shop Operations, Decimal                        Licensing Division receives royalty fees from cable
Classification, Photo Duplication, Special Events,                television operators for retransmitting television and
FEDLINK and Federal Research Program. The Audio                   radio broadcasts, from satellite carriers for
and Video Duplication fund provides audio and video               retransmitting "super station" and network signals, and
duplication and delivery services which are associated            from importers and manufacturers for distributing
with the National Audiovisual Conservation Center.                digital audio recording technologies (DART). Refunds
The Decimal Classification fund performs decimal                  may arise when a cable, satellite, or DART remitter
classification development.       The Gift Shop fund              inadvertently overpays or is otherwise entitled to a
operates a gift shop and other sales of items associated          refund. The Licensing Division invests the licensing
with collections, exhibits, performances, and special             royalty fees in market-based U.S. Treasury notes and
events at the Library. The Photo Duplication fund                 bills. Because these investments are held in a custodial
provides document reproduction and microfilming                   capacity for the copyright owners, income does not
services. The Special Events fund performs services               accrue to the Library's benefit.
related to the hosting of special events and programs by
the Librarian in Library facilities. The FEDLINK                  Controversies regarding the distribution of the royalties
program is the program of the Library under which                 are resolved by the Copyright Royalty Board (CRB),
procurement of publications and library support                   which is composed of three Copyright Royalty Judges
services, along with related accounting, education and            and their staff. The CRB has full jurisdiction over
support services are provided to Federal Government               setting royalty rates and terms and determining
or District of Columbia entities. The Federal Research            distributions. Decisions may be appealed to the United
Program provides research reports, translations and               States Court of Appeals for the District of Columbia
analytical studies for Federal Government or District of          Circuit.
Columbia entities.
                                                                      x   Donation and Interest Revenue
    x Imputed Financing Sources
                                                                  The Library receives monetary gifts from donors and
In accordance with FASAB’s Statement of Federal                   receives interest on invested funds. The Library also
Financial Accounting Standards (SFFAS) No. 4,                     received gifts of donated property or services during
“Managerial Cost Accounting Standards and Concepts”               fiscal years 2006 and 2005. The Library records these
the Library has recorded expenses for the unreimbursed            in-kind donations as donated revenue in the period
full costs of goods and services that it receives from            earned and an offsetting expense in the same period.
other legislative branch agencies (i.e., the Architect of         The Ad Council provided nearly all of the in-kind
the Capitol and the Government Printing Office) and               donations in the form of free advertising for America’s
executive branch agencies specifically identified for             Library website. Several vendors provided in-kind
fiscal years 2006 and 2005 reporting by OMB, (i.e., the           donations for the Library’s annual book festivals and
Office of Personnel Management (OPM) and the                      several other meetings. Finally, the Ira and Leonore
Department of the Treasury). Since these costs are not            Gershwin Trust Fund and Related Charitable Trust
actually paid to the other agencies, an imputed                   provided in-kind materials and services to the Library.




                                                            2-8
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005


     x   Deferred Credits                                       H.       Investments (Net)
The Library received gifts subject to certain conditions         Gift and TFB Funds - The Library of Congress Trust
being met. These are not considered earned until the             Fund Board determines the investment policy for the
conditions are met, and are recorded as deferred credits         Library's gift and TFB funds. The policy provides
until earned.                                                    three options for investment of TFB funds:

E.        Gift and TFB Funds                                              x   A permanent loan with the U.S. Treasury

                                                                          x   A pool of U.S. Treasury market-based
The Library administered gift and TFB funds with
                                                                               securities
combined asset value of approximately $154.4 million
and $145.3 million during fiscal years 2006 and 2005,
respectively. The use of these funds is restricted                        x   A private investment pool consisting of
according to the terms of the gift agreement. In                               the following stock, index and money
general, funds are either temporarily restricted                               market funds utilized during fiscal year
(principal may be spent) or permanently restricted                             2006 and 2005:
(principal may not be spent). Additional restrictions
may be imposed on TFB funds by the terms of an                                 x   Vanguard Money Market Prime Fund
agreement or donor's will. Library fund managers                               x   Vanguard Institutional Index Fund
administer and oversee the gift and TFB funds to                               x   Vanguard Capital Opportunity Fund
ensure they are used as directed by the donors and in                          x   Fidelity Blue Chip Growth Fund
accordance with Library policy.                                                x   Fidelity Capitol Appreciation Fund
                                                                               x   Fidelity Growth Company Fund
F.        Fund Balance with Treasury                                           x   Fidelity Dividend Growth Fund

The amount shown as Fund Balance with Treasury                   The policy for gift funds allows only for investment in
represents the balances of the appropriated,                     U.S. Treasury market-based securities.
reimbursable, gift and TFB funds, revolving, deposit
and custodial funds that are on deposit with the U.S.            Under 2 U.S.C. 158, up to $10 million of the Library's
Treasury.                                                        gift and TFB funds may be invested with the U.S.
                                                                 Treasury as a permanent loan at a floating rate of
                                                                 interest, adjusted monthly, but no less than four percent
G.        Cash and Other Monetary Assets                         per annum. The permanent loan is an interest bearing
                                                                 investment recorded at cost, which is the same as
Cash and other monetary assets are defined as all cash           market value.
not held by the U.S. Treasury. This category includes
deposits in transit, cash on hand and imprest funds.             Treasury securities are intended to be held to maturity,
                                                                 are valued at cost, and are adjusted for the amortization
The Library receives and utilizes foreign currencies in          of discounts and premiums. Interest is computed using
carrying out operations abroad as it conducts business           the straight-line method, which approximates the
through six overseas offices.        Foreign currency            effective interest method.
balances at year-end are immaterial to the financial
statements.                                                      Stock and money market funds are stated at current
                                                                 market value and are considered available for sale.
                                                                 Unrealized gains and losses are recognized and




                                                           2-9
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005
recorded as a component of non-exchange revenue in                Intragovernmental receivables are likely to be totally
the statement of changes in net position.                         collected.

All gift and TFB fund investments are obtained and                J.       Pledges Receivable
held by the gift and TFB funds under conditions set
forth in the respective gift and TFB instruments.
                                                                  Contributions of unconditional promises to give
Custodial Fund - Copyright royalties collected by the             (pledges) to the Library and the Library of Congress
Copyright Office on behalf of copyright owners are                TFB are recognized as donated revenue in the period
invested, net of service fees, in U.S. Treasury                   the pledge is received. They are recorded at their
securities. Treasury securities are intended to be held           estimated present value using a market-based discount
to maturity, are valued at cost and are adjusted for the          rate. Accretion of the discount in subsequent years is
amortization of discounts and premiums. Interest is               also recorded as donated revenue. Substantially all of
computed using the straight-line method, which                    the Library's pledges are from major corporations or
approximates the effective interest method. These                 donors. The Library regularly monitors the status of all
investments will be held until distributions are made to          pledges and adjusts accordingly; therefore no
copyright owners. Income accrues to the benefit of the            allowance for uncollectible pledges has been
copyright owners.                                                 established.

Deposit Funds - Pursuant to Public Law 105-80, funds              K.       Inventory and Related Property
deposited by copyright applicants are invested, based
on the unearned balance available, by the Copyright               The Library's inventories and supplies and materials
Office in U.S. Treasury securities. Treasury securities           are primarily comprised of bibliographic products,
are intended to be held to maturity, are valued at cost           unissued supplies and unused postage that will be
and are adjusted for the amortization of discounts and            consumed in future operations; materials used to
premiums. Interest is computed using the straight-line            reproduce printed materials; sound recordings for both
method, which approximates the effective interest                 internal and external sales; and sales shop merchandise
method. These investments will be held until the                  for resale. Consumable operating supplies are valued
deposit fees are earned and income accrues to the                 at cost using a first-in first-out method of valuation.
benefit of the Copyright Office.                                  Sales shop merchandise is valued at cost or market,
                                                                  whichever is lower. The recorded values of inventory
I.       Accounts Receivable                                      and operating materials and supplies are adjusted for
                                                                  the results of periodic physical counts.
Accounts receivable primarily resulted from billings to
other federal agencies under reimbursable interagency             L.       Property and Equipment
agreements for database retrieval and other library
services. The Library has established an allowance for            For fiscal years prior to 1998, the Library capitalized
doubtful accounts against accounts receivable due from            furniture and equipment at cost if the initial acquisition
non-federal customers, based on past collection                   cost was $10,000 or more. Starting in fiscal year 1998,
experience. The Library does not record allowance for             the Library capitalizes furniture and equipment at cost
doubtful accounts for intragovernmental accounts                  if the initial acquisition cost is $25,000 or more.
receivable in accordance with SFFAS No. 1,                        Depreciation is computed on a straight-line basis using
“Accounting for Selected Assets and Liabilities,”                 estimated useful lives.
which cites that “losses on receivables should be
recognized when it is more likely than not that the               Property and equipment accounts are maintained in
receivable    will   not    be    totally   collected.”           three categories of funds: Appropriated, Reimbursable




                                                           2-10
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005
and Revolving.     The appropriated fund category                  Maryland. The Architect receives an appropriation
includes all property and equipment used by the                    from Congress to fund maintenance, care and
Library for general operations.       Property and                 operations of the Library’s buildings and grounds.
equipment purchased by the Integrated Support                      Costs associated with the acquisition and maintenance
Services Administrative Working Fund are recorded in               of these buildings is accounted for by the Architect.
the reimbursable funds. Property and equipment                     However, the Library has recorded the inter-entity
purchased by FEDLINK, the Federal Research                         costs and related imputed financing source in its books.
Program, Document Reproduction and Microfilm                       The Library does capitalize and depreciate leasehold
Service, Audio Visual Services, and the Cooperative                improvements to its facilities as long as the
Acquisitions Program are recorded in the revolving                 improvements were made using the Library’s funding
funds.                                                             sources.
The Library occasionally acquires property and                     M.       Library Collections
equipment by direct gift or by purchase from funds
donated for a specific purpose or project. Because                 The Library's collections are classified as “heritage
property is generally not restricted for use to gift and           assets.” Heritage assets are assets with historical,
trust activities, property accounts are not maintained in          cultural, educational, artistic or natural significance.
the gift and TFB funds. Capitalized property and
equipment acquired through gifts are recognized as                 The Library has collection development policies, which
donated revenue in the gift and TFB funds and                      are designed to fulfill its responsibilities to serve (1)
transferred to the Library's appropriated fund. The                the Congress and United States government as a whole,
Library records the donated property and equipment at              (2) the scholarly and library community, and (3) the
its fair market value at the time of the gift.                     general public. Written collection policy statements
                                                                   ensure that the Library makes every effort to possess
                                                                   all books and library materials necessary to the
Operating equipment is amortized over a 3 to 20-year               Congress and various offices of the United States
period. Software includes ADP software purchased                   government to perform their duties; a comprehensive
from outside vendors and software defined as “internal             record, in all formats, documenting the life and
use software” in accordance with SFFAS No. 10,                     achievement of the American people; and a universal
“Accounting for Internal Use Software,” All software               collection of human knowledge embodying primarily
recorded has an estimated useful life of three years or            in print form the records of other societies, past and
more and a value of at least $10,000 per item acquired             present.
in fiscal years 1997 and prior or at least $100,000 per
item acquired in fiscal years after 1998.                          Copyright deposits are a major source of the Library’s
                                                                   collections of Americana. The Library also acquires
Leased equipment meeting the criteria for                          materials by purchase, transfer from other federal
capitalization in accordance with Statements of Federal            agencies, gift, domestic and international exchange, or
Financial Accounting Standards is included in property             by provisions of state and federal law. Many of these
and equipment.                                                     materials are foreign publications. Various preservation
                                                                   methods are used to maintain the collections, and
Land and buildings are excluded from the Library's                 disposals occur only for the exchange and gift of
property and equipment accounts because they are                   unwanted or duplicate copies.
under the custody and control of the Architect of the
Capitol. This arrangement encompasses four Capitol                 The collections are priceless and in many cases
Hill buildings (the Thomas Jefferson, James Madison,               irreplaceable. No financial value can be placed on
John Adams Buildings, and the Special Facilities                   them. So, in accordance with federal accounting
Center) and a secondary storage facility at Fort Meade,            standards, their value is not presented on the balance




                                                            2-11
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005
sheet.    The cost of acquiring additions to the                            leave account is adjusted to reflect current pay
collections is expensed when incurred in the statement                      rates.
of net cost. Stewardship information covering the
acquisition, use, preservation, and security of the                         Employees' compensatory time earned but not
collections is contained in a supplementary                                 taken is also accrued at year-end.        An
Stewardship Report.                                                         employee may accumulate a maximum of 40
                                                                            hours of compensatory time during the fiscal
N.       Liabilities                                                        year. A maximum of 20 hours may be carried
                                                                            forward from one leave year to the next only
                                                                            when it was earned during the last pay period
Liabilities represent the amounts that are likely to be                     of the leave year.      Exceptions to the
paid by the Library as a result of transactions that have                   accumulation and carry forward rules require
already occurred.           Liabilities for which an                        the approval of the Librarian or his/her
appropriation has not been enacted, or which are the                        designee.
result of deposit account activities, are classified as
liabilities not covered by budgetary resources. For                         Sick leave and other types of nonvested leave
accrued unfunded annual leave, compensatory time                            are expensed as taken.
earned, workers' compensation and capital lease
liabilities, it is not certain that appropriations will be                  Capital Lease Liabilities are liabilities
enacted to fund these amounts.                                              resulting from capital leases of equipment.
                                                                            The Library’s lease agreements are annual
         Advances From Others are funds received for                        fiscal year contracts that are subject to the
         the revolving programs that have not yet been                      availability of funding.      The agreements
         earned.                                                            contain a lease to purchase provision and there
                                                                            is no penalty for discontinuing the lease and
         Custodial and Deposit Liabilities are customer                     turning back equipment prior to the
         funds      on     deposit     for     Copyright                    completion of the agreement.
         Photoduplication and Cataloging Distribution
         Service products and services. This category
         also includes the custodial funds for Copyright
         royalties.                                                 O. Federal Employee Retirement Benefits

         Accrued Annual and Compensatory Leave -                    Approximately 31 percent and 35 percent of the
         The Library's basic leave policy is contained              Library's employees participated in the Civil Service
         in Title 5, U.S.C.; the Uniform Annual and                 Retirement System (CSRS) during fiscal years 2006
         Sick Leave Regulations of the Office of                    and 2005, respectively, to which the Library makes
         Personnel Management; and the decisions of                 contributions equal to seven percent of pay.
         the Comptroller General. Generally, each                   Approximately three percent of employees under
         employee may carry forward a maximum of                    CSRS during fiscal years 2006 and 2005 are also
         240 hours of annual leave per calendar year.               covered by Social Security (FICA), for which the
         Accrued annual leave is accrued as it is earned            Library’s contribution is slightly less.
         and adjusted at the end of each fiscal year
         based on annual leave earned and taken.                    Approximately 65 percent and 61 percent of the
         Annual leave earned in excess of the                       Library’s employees were covered by the Federal
         maximum permitted carryover is forfeited.                  Employees Retirement System (FERS) during fiscal
         Each year, the balance in the accrued annual               years 2006 and 2005, respectively, to which the
                                                                    Library's normal contribution was 11.2 percent of pay




                                                             2-12
                              THE LIBRARY OF CONGRESS
                NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                      Fiscal Years Ended September 30, 2006 and 2005
during fiscal years 2006 and 2005, respectively.                      expenses have been recognized for expenses incurred
Additionally, for employees under FERS, the Library                   by certain other agencies on behalf of the Library,
contributes an automatic one percent of employee's                    including settlement of claims and litigation paid by
pay, plus matches employee Thrift Savings Plan (TSP)                  the Treasury’s Judgment Fund and the partial funding
contributions up to four percent of pay (matched                      of employee benefits by OPM.
dollar-for-dollar on the first three percent of pay and 50
cents on the dollar for the next two percent of pay).                 The Library's program for the blind and physically
Under FERS, the employee is also covered by FICA to                   handicapped participates in the U.S. Postal Service's
which the Library contributes the employer's matching                 (USPS) "Matter for Blind and Other Handicapped
share.                                                                Persons" program (39 U.S.C. 3403 - 3406). This
                                                                      Postal Service program receives an appropriation from
Approximately three percent and four percent of the                   Congress to provide free postage for qualifying
Library's employees were covered only by FICA                         organizations, programs, and individuals such as mail
during fiscal years 2006 and 2005, respectively, to                   from war zones, letters from blind people to anyone,
which the Library contributes the employer’s matching                 and organizations that work for the blind. The
share. The remaining one percent of the Library's                     Library's National Library Service for the Blind and
employees were covered by other retirement plans or                   Physically Handicapped uses this free matter program
not covered by any plan during fiscal year 2006.                      for mailing all books and equipment to its participating
                                                                      lending libraries and patrons. No cost for this has been
The accrued contributions due at the end of the fiscal                determined, nor included in the Library’s financial
year are reported as liabilities covered by budgetary                 statements as the Library views the relationship with
resources.                                                            the USPS and state and local libraries as a partnership
                                                                      and not inter-entity costs.
The actuarial present value of accumulated benefits,
assets available for benefits, and unfunded pension                   Services Provided to other Federal Agencies:
liability of Social Security, FERS and CSRS is not
allocated to individual Federal departments and                                x   The Library is authorized to provide to
agencies. However, in accordance with SFFAS No. 5,                                  other federal libraries and agencies
“Accounting for Liabilities of the Federal                                          services such as automated library
Government,” current year expenses were recorded for                                information and other data base retrieval
the service cost of the Library’s employee retirement,                              services through data base vendors and
health and life insurance benefits during fiscal years                              in-house research studies. These services
2006 and 2005, respectively, and was offset by an                                   are provided on a cost reimbursement
imputed financing source, which represents the amount                               basis and are billed in advance of
being financed directly by OPM.                                                     providing the services. At year-end the
                                                                                    Library estimates the amount received in
P.       Federal Government Transactions                                            advance (Advances From Others -
                                                                                    Intragovernmental) and the amount to be
The financial activities of the Library interact with and                           received for services provided (Accounts
depend on other federal government agencies. Thus,                                  Receivable - Intragovernmental).
the Library's financial statements do not reflect all
financial decisions and activities applicable to it as if it          Services Provided by other Federal Agencies:
were a stand-alone entity. The financial statements do
not contain the cost of activities performed for the                  Three governmental agencies provide administrative
benefit of the entire government, nor do they include                 services to the Library on a reimbursable basis.
the agency's share of the federal deficit or of public
borrowings, including interest thereon. However,




                                                               2-13
                            THE LIBRARY OF CONGRESS
              NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                    Fiscal Years Ended September 30, 2006 and 2005
        x   The Department of Agriculture's National            operations, management, and employees are
             Finance Center (NFC) processes the                  the responsibility of the LCCCA and not the
             Library's     personnel,   payroll,  and            Library.    However, the Library and the
             employee          benefits     accounting           Architect of the Capitol support the center
             transactions.                                       with equipment, free space, cleaning and
                                                                 maintenance of grounds and building, utilities,
        x   The Library utilizes the services of the            local telephone service, and security. The
             Department of State as documented by                value of the services provided by the Library
             the       International     Cooperative             cannot be readily determined. In addition, the
             Administrative Support Services (ICASS)             Library, in accordance with Public Law 106-
             system to support the Library's six                 554, pays the government contributions for
             overseas field offices.                             individuals receiving health, life and
                                                                 retirement benefits provided by the Office of
        x   General Services Administration (GSA)               Personnel Management.           The Library
             provides building and vehicle leasing               provides an official who is a non-voting
             services for the Library.                           representative on the center's Board of
                                                                 Directors and who acts as a liaison with the
Q.      Related Party Organizations                              Library.

The Library lends support to several related                     3. The Archer M. Huntington Charitable
organizations, projects, and programs from which it              Trust - This charitable trust was established
receives benefits in various forms. The following is a           in 1936 and is controlled and invested by the
list of these organizations or programs:                         Bank of New York. The assets of the
                                                                 endowment are not a part of the Library of
        1. Telephone Pioneers of America - The                   Congress Trust Fund Board and the board's
        Telephone Pioneers is a large industry-related           only control over its investment activities is
        organization that voluntarily repairs playback           through the role of the Librarian of Congress
        machines for the blind and physically                    as trustee. The trust is defined as a split-
        handicapped program. Approximately 1,500                 interest agreement with a fair value of assets
        Telephone Pioneers (AT&T retirees) and                   of $5.3M and $5.1M at September 30, 2006
        Elfuns (General Electric retirees) donate their          and 2005, respectively.         The Library is
        time to repair the cassette book machines and            entitled to one-half of the income from the
        talking book machines.                                   trust for perpetuity, which is used to support a
                                                                 rotating consultantship to bring "distinguished
        2. Library of Congress Child Care                        men of letters . . ." to the Library. Currently,
        Association (LCCCA) - The LCCCA is a                     the income assists in the funding of a "poet
        nonprofit corporation under the District of              laureate" position, the acquisition of materials
        Columbia's Nonprofit Corporation Act. It was             for the Library’s Hispanic collections, and the
        granted 501(c)(3) status by the Internal                 promotion of activities of the Hispanic
        Revenue Service on August 31, 1992, and                  Division, particularly those that relate to
        currently operates as the "Little Scholars               Spain, Portugal and Latin America.
        Child Development Center." The center is
        located on the ground floor of the Library's             4. Ira and Leonore Gershwin Trust Fund
        Special Facilities Center, 601 East Capitol              and Related Charitable Trust - Under the
        Street, District of Columbia. The center                 will of Mrs. Leonore Gershwin, the Library of
        provides childcare for Library employees and             Congress Trust Fund Board is the beneficiary
        other federal and non-federal employees. Its             of 37.5 percent of Mrs. Gershwin's "1987




                                                          2-14
                    THE LIBRARY OF CONGRESS
      NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
            Fiscal Years Ended September 30, 2006 and 2005
Trust." The will established the "Library                           principal of the charitable trust will be
Charitable Trust" which was accepted by the                         distributed to the Library in 2033, fifty years
Library of Congress Trust Fund Board in                             after the date of death of Ira Gershwin.
January 1992. The primary purpose of the
trust is to perpetuate the name and works of               R.       Reclassifications
George and Ira Gershwin through all
resources of the Library. The charitable trust             Certain FY2005 balances have been reclassified,
does not belong to the Library but is a                    retitled, or combined with other financial statement line
separate entity administered by trustees. The              items for consistency with current year presentation.
net income of the charitable trust is distributed
to the Library's Ira and Leonore Gershwin
Trust Fund yearly or upon the request of the
Library. Income is recorded by the Library in
the period received. The balance of the




                                                    2-15
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005



                                   2 Fund Balance With Treasury

A. Fund balance with Treasury at September 30, 2006 and 2005, is summarized as follows:


                                               (Dollars in Thousands)
                                                                      2006                      2005
        Appropriated Funds (2)                                            $290,367                 $282,485
        Revolving and Reimbursable Funds                                    75,598                   65,245
        Gift and TFB Funds (1)                                              14,740                   14,250
        Custodial, Deposit and Other Funds                                   1,354                    1,554
         Total                                                            $382,059                 $363,534


(1) At September 30, 2006 and 2005, the gift and TFB fund balance with Treasury included $10 million invested in
the permanent loan, which is included in fund balance with Treasury, at interest rates of percent 4.6 and 4.5 percent,
respectively.
(2) Pursuant to Public Laws 106-554, 108-447, and 109-55, $39 million is unavailable for expenditure unless
matched with non-Federal contributions for the NDIIPP that are received by March 31, 2010.


B. Status of Fund Balance with Treasury

                                                                        2006                     2005
       Unobligated Balances Available                                          $121,756             $119,609
       Unobligated Balances Unavailable                                          21,493                27,053
       Obligated Balances not yet Disbursed                                     238,810               216,872
        Total                                                                  $382,059             $363,534




                                                        2-16
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005



                                                3 Custodial Funds
Custodial activity consists of the following:

                                                 (Dollars in Thousands)
                                                                      2006             2005
        Source of Cash Collection:
           Licensing Fees                                                  $226,794       $214,240
           Investment Interest                                               43,465         21,737
        Total Cash Collections                                              270,259        235,977
        Investment Amortizations/Accruals                                       840            988
        Total Custodial Revenue                                            $271,099       $236,965

        Disposition of Collections:
        Payments to Copyright Owners                                       (191,043)          (39,843)
        Refunds                                                                (935)           (1,227)
        Change in Investment Premium                                               0               (9)
        Retained by Copyright Licensing for
                                                                             (5,117)           (3,155)
        Administrative Costs

        Net Custodial Activity                                               74,004           192,731

        Beginning Custodial Liability                                      1,048,431       855,700
        Ending Custodial Liability                                        $1,122,435    $1,048,431




                                                         2-17
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005



                                              4 Investments, Net

Investments at September 30, 2006 and 2005 are as follows:

                                                (Dollars in Thousands)

                                       2006                                                  2005
                        A.          B. Other              Total             A.          B. Other              Total
                Intragovernmental Investments                       Intragovernmental Investments
                   Investments      Private                            Investments      Private
                 Non-Marketable,     Sector                          Non-Marketable,     Sector
                  Market-Based                                        Market-Based
Face Value              $1,180,430                       $1,180,430         $1,097,444                       $1,097,444
 Cost                                         78,752        78,752                                  82,165      82,165
Unamortized                      (1)                              (1)                    4                             4
Premium
Unrealized                   (4,743)                        (4,743)               (2,962)                       (2,962)
Discount
Interest                        673                               673                388                              388
Receivable
Investments,              1,176,359           78,752      1,255,111            1,094,874            82,165    1,177,039
Net
Market Value             $1,175,857        $77,445       $1,253,302           $1,094,384        $75,121      $1,169,505


A. Intragovernmental Investments                                  Custodial funds investment maturity dates for fiscal
                                                                  years 2006 and 2005 range from October 19, 2006 to
Non-marketable, market-based securities are                       August 31, 2007 and October 06, 2005 to August 31,
Treasury notes and bills issued to governmental                   2006, respectively, and interest rates for the same
accounts that are not traded on any securities                    fiscal years range from 3.75 percent to 4.71 percent
exchange, but mirror the prices of marketable                     and 1.50 percent to 3.42 percent, respectively.
securities with similar terms. TFB fund investment
maturity dates for fiscal years 2006 and 2005 range               B. Other Investments
from October 5, 2006 to April 30, 2008 and October
6, 2005 to May 15, 2006, respectively, and interest               Other investments are the Library's investments in
rates for the same fiscal years range from 3.5 percent            private sector money market and mutual funds. Cost
to 5.05 percent and 2.72 percent to 4.63 percent,                 was derived from the investments made plus
respectively.                                                     reinvested gains, dividends, and interest.




                                                          2-18
                              THE LIBRARY OF CONGRESS
                NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                      Fiscal Years Ended September 30, 2006 and 2005


 Balances at September 30, 2006 and 2005, are as follows:


                                  Non-Treasury Investments
                                   Fiscal Year 2006            Fiscal Year 2005



$90.0                                     $81.8                                                       $82.2
            $77.4                 $78.8                                     $77.4 $75.1       $78.8
                    $74.7
$80.0
$70.0
$60.0
$50.0
$40.0
$30.0
$20.0
$10.0                                                   $0.0    $0.4

 $0.0
        Equity Mutual Funds   Equity Mutual Funds   Money Market Fund    Total Market Value   Total Costs
          (market value)             (cost)          (cost and market)




                                                        2-19
                              THE LIBRARY OF CONGRESS
                NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                      Fiscal Years Ended September 30, 2006 and 2005


                                              5    Receivables

The breakdown of consolidated gross and net accounts receivable at September 30, 2006 and 2005, are as follows:

A. Accounts Receivable

                                              (Dollars in Thousands)
                                                                                2006                  2005
 Intragovernmental
   Accounts Receivable, Gross and Net                                                    $14,545           $13,917
 With the Public
   Accounts Receivable, Gross                                                              4,553               630
   Allowance for Doubtful Accounts                                                          (27)               (28)
   Accounts Receivable, Net                                                                4,526               602

B. Pledges Receivable

At September 30, 2006 and 2005, the Library had                discount rate and included in the statement of
unconditional pledges of contributions totaling $11.1          financial position at their discounted value of $9.7
million and $15.4 million, which were discounted               million and $13.6 million, respectively.
through fiscal years 2032 and 2031 at a market

The amounts due in future years, at September 30, at their current discounted value are:

                                              (Dollars in Thousands)
  Fiscal Year                                                          2006                        2005
  2006                                                                               -                     $9,092
  2007                                                                         $6,175                       2,993
  2008                                                                          1,277                        115
  2009                                                                            485                        111
  2010                                                                            339                        106
  2011-2032                                                                     1,435                       1,218
  Total                                                                        $9,711                     $13,635




                                                        2-20
                               THE LIBRARY OF CONGRESS
                 NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                       Fiscal Years Ended September 30, 2006 and 2005

                                     6 Property and Equipment

Property and equipment that were capitalized at September 30, 2006 and 2005 are as follows:

                                             (Dollars in Thousands)

                                             2006                                         2005
                                           Accumulated         Net                      Accumulated      Net
  Classes of Property       Acquisition                                   Acquisition
                                           Depreciation/      Book                      Depreciation/   Book
   and Equipment              Value                                         Value
                                           Amortization       Value                     Amortization    Value
Security Improvements –
Leasehold Improvements                $0               $0          $0         $4,144              $0     $4,144
in-progress
Operating Equipment               78,256           73,524       4,732         72,359           65,757     6,602

Software                          26,985           11,957     15,028          25,347            9,197    16,150

Furniture & Furnishings              985              564        421             985             515       470

Capital Leases                         0                0             0           82              70        12

Leasehold Improvements           22,996            11,412     11,584          16,509           10,586     5,923

Total                          $129,222           $97,457    $31,765        $119,426          $86,125   $33,301




                                                      2-21
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005

                            7 Entity and Non-Entity Assets
                                     (Dollars in Thousands)

                                     2006                                       2005

                        Entity    Non-Entity           Total      Entity     Non-Entity       Total

Intragovernmental
Assets

  Fund Balance with    $381,652        $407            $382,059   $363,337        $197       $363,534
  Treasury

  Investments            54,318    1,122,041       1,176,359        46,641    1,048,233      1,094,874

  Accounts               14,540             5            14,545     13,827             90      13,917
  Receivable, Net

  Other Assets            2,608                           2,608      7,465                       7,465

Investments              77,445                          77,445     75,121                     75,121

Pledge Receivable -       9,711                           9,711     13,635                     13,635
Donations

Cash and other              622                            622        581                         581
Monetary Assets

Inventory                   917                            917       1,345                       1,345

Property and             31,765                          31,765     33,301                     33,301
Equipment, Net

Other Assets              4,754             3             4,757       916               3         919

Total                  $578,332   $1,122,456      $1,700,788      $556,169   $1,048,523     $1,604,692




                                                2-22
                        THE LIBRARY OF CONGRESS
          NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                Fiscal Years Ended September 30, 2006 and 2005

2006 Entity Assets
                                            Property and
                                                          Pledges Receivable
                                           Equipment, Net
                                                                 2%
                     Public Investments         5%
                            13%

                                                                        Accounts Receivable
            Government                                                         3%
            Investments
                9%                                                              Other
                                                                                 2%




                                                                     Fund Balance with
                                                                         Treasury
                                                                           66%




2005 Entity Assets
                                           Property and    Pledges Receivable
                                          Equipment, Net          2%
                  Public Investments           6%
                         14%
                                                                        Accounts Receivable
                                                                               3%
           Government
           Investments                                                          Other
               8%                                                                2%




                                                                      Fund Balance with
                                                                          Treasury
                                                                            65%




                                              2-23
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005


                                                   8     Leases

A. Capital Leases

The Library does not have assets under capitalized              30, 2006. Estimated future minimum lease payments
leases for machinery and equipment as of September              are as follows:

                                              (Dollars in Thousands)
                      Fiscal Year Ended September 30                                2006                 2005
2006                                                                         $                  0   $                 6
2007                                                                                            0                     0
2008                                                                                            0                     0
2009                                                                                            0                     0
2010                                                                                            0                     0
2011 and thereafter                                                                             0                     0
Total Future Lease Payments                                                                     0                     6
Less: Imputed Interest                                                                          0                     2
Net Capital Lease Liability                                                  $                  0   $                 4

B. Operating Leases

The Library leases office space and vehicles from the           Lease costs for office space, vehicles and equipment
General Services Administration and has entered into            for fiscal years 2006 and 2005 amounted to
other operating leases for various types of equipment.          $4,138,250 and $3,651,192 respectively. Under
Additionally, the Library’s overseas field offices              existing commitments as of September 30, estimated
lease operating space from the Department of State.             future minimum lease payments through fiscal year
                                                                2011 are as follows:
                                              (Dollars in Thousands)

                  Fiscal Year Ended September 30                                 2006                   2005
 2006                                                                                      $0              $1,730
 2007                                                                                   4,703                   175
 2008                                                                                   4,185                   112
 2009                                                                                   3,899                   58
 2010                                                                                   3,854                    5
 2011 and thereafter                                                                    1,288                     0
 Total Estimated Future Lease Payments                                                $17,929              $2,080




                                                         2-24
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005


                                       9 Workers’ Compensation

The Federal Employees' Compensation Act (FECA)                  $1,757,993 and $1,596,827 of unbilled or unpaid
provides income and medical cost protection to                  workers' compensation costs as of September 30,
covered federal civilian employees injured on the job,          2006 and 2005, respectively. The amount owed to
employees who have incurred a work-related                      DOL is reported on the Library’s Balance Sheet as an
occupational disease, and beneficiaries of employees            intragovernmental liability.        The Library also
whose death is attributable to a job-related injury or          established an estimated unfunded liability payable to
occupational disease. Claims incurred for benefits              employees, for future costs based on historical claims
for Library employees under FECA are administered               rates. The estimated future unfunded liability is
by the Department of Labor (DOL) and later billed to            $7,747,786 and $8,130,471 as of September 30, 2006
the Library.                                                    and 2005, respectively, and is based on a ten-year
                                                                projection. This liability is recorded on the Balance
The Library is using estimates provided by DOL to               Sheet as a liability with the public.
report the FECA liability. The Library accrued


                                       10 Contingent Liabilities

Several claims relating to employment matters are               (back pay, front pay, attorney's fees). Under law, any
outstanding against the Library. While management               claims settled internally would be paid from the
cannot predict the outcome of the claims and is                 Library's funds and any claims defended in court
unable to estimate the potential loss, the maximum              would be settled by the Treasury's Claims, Judgments
loss under each claim may not exceed $300,000 in                and Relief Act Fund.
compensatory damages, plus any equitable relief




                                                         2-25
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005

                                           11 Other Liabilities

Other Liabilities as of September 30, 2006 and 2005 are comprised of the following:

                                               (Dollars in Thousands)

                                                                            2006                    2005
  Deferred Credits and pledges                                                        $751                  $775
  Advances from the Public                                                            2,915                 2,746

  Capital Lease Liability                                                                  0                   4

  Liability for BCA and deposit accounts                                               275                   117

  Cancelled Accounts Payable                                                               4                   0

  Total Other Liabilities                                                          $3,945                  $3,642




           12 Liabilities Covered and Not Covered by Budgetary Resources
                                               (Dollars in Thousands)


                                                                          2006                    2005
  Liabilities Covered by Budgetary Resources                                $1,225,472               $1,136,612
  Liabilities Not Covered by Budgetary Resources – Intra
                                                                                   1,758                    1,597
  Governmental
  Liabilities Not Covered by Budgetary Resources - Other                         30,343                    30,416

  Total Liabilities                                                         $1,257,573               $1,168,625


Liabilities covered by budgetary resources include              budgetary resources include accrued unfunded annual
accounts payable, advances from others, accrued                 and compensatory leave, accrued unfunded workers
funded payroll and benefits, custodial liabilities,             compensation, capital lease liability and other
deposit account liabilities, advances from the public,          unfunded liabilities.
and deferred credits. Liabilities not covered by




                                                         2-26
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005


                        13 Program Costs by Budget Object Classification

                                               (Dollars in Thousands)

 FY 2006 Program Costs by Budget Object Classification
                                                                        Depreciation and
                                  Non-Capitalizable                      Amortization
                                     Equipment                              $11,483
                                      $35,501                                 2%
                                        5%
                                                                                            Other Program Costs
    Library Materials                                                                             $46,609
         $57,529                                                                                    5%
           8%



                                                                                                Personnel Services and
                                                                                                      Benefits
       Contractual Services                                                                           $420,770
            $183,058                                                                                    56%
              24%




 FY 2005 Program Costs by Budget Object Classification
                                                                         Depreciation and
                                 Non-Capitalizable
                                                                          Amortization
                                    Equipment
                                                                             $8,210
                                     $49,950
                                                                               1%
                                       7%
                                                                                            Other Program Costs
  Library Materials                                                                               $44,908
       $58,805                                                                                      6%
         8%



                                                                                                Personnel Services and
                                                                                                      Benefits
       Contractual Services                                                                           $414,823
            $167,610                                                                                    56%
              22%




The Library’s collections are classified as “heritage assets.” $12.2 thousand and $11.0 thousand of the amount
designated as “Library Materials” above represents the fiscal years 2006 and 2005 cost incurred by the Library for
“heritage assets.”




                                                      2-27
                           THE LIBRARY OF CONGRESS
             NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                   Fiscal Years Ended September 30, 2006 and 2005



         14 Program Costs and Earned Revenue by Functional Classification

Program Costs by Functional Classification

                                           (Dollars in Thousands)
Function Classification                                             2006              2005
Commerce and Housing Credit                                                 $53,381       $68,953
Education, Training, Employment and Social Services                         594,695       553,095
General Government                                                          106,874       122,258
Total                                                                      $754,950      $744,306

Earned Revenue by Functional Classification

                                           (Dollars in Thousands)
Function Classification                                             2006              2005
Commerce and Housing Credit                                                 $29,430       $27,078
Education, Training, Employment and Social Services                          72,479        81,422
General Government                                                               22            26
Total                                                                      $101,931      $108,526




                                                      2-28
                       THE LIBRARY OF CONGRESS
         NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
               Fiscal Years Ended September 30, 2006 and 2005
            15 Program Costs and Earned Revenue for Revolving Funds
                                     (Dollars in Thousands)
                                                              2006             2005
Audio Visual Services:
  Program Cost                                                         $604             $691
  Less Earned Revenue                                                   172              185
    Net Program Cost                                                    432              506

Cooperative Acquisitions Program:
  Program Cost                                                         2,391            2,528
  Less Earned Revenue                                                  2,857            2,606
    Net Program Cost                                                   (466)             (78)

Decimal Classification:
  Program Cost                                                          285              303
  Less Earned Revenue                                                   280              285
    Net Program Cost                                                      5               18

Document Reproduction and Microfilm Services:
  Program Cost                                                         3,401            3,583
  Less Earned Revenue                                                  2,149            3,064
    Net Program Cost                                                   1,252              519

Gift Shop Operations:
   Program Cost                                                        1,420            1,422
   Less Earned Revenue                                                 1,335            1,324
     Net Program Cost                                                     85               98

Federal Research Division:
  Program Cost                                                         2,626            2,509
  Less Earned Revenue                                                  1,159            3,212
    Net Program Cost                                                   1,467            (703)

FEDLINK:
  Program Cost                                                        57,822           66,913
  Less Earned Revenue                                                 58,147           64,727
    Net Program Cost                                                   (325)            2,186

Special Events:
  Program Cost                                                         2,054            1,930
  Less Earned Revenue                                                  1,176            1,143
    Net Program Cost                                                     878              787

Total Program Cost                                                   $70,603          $79,879
Less Total Earned Revenue                                            $67,275          $76,546
Total Net Program Cost                                                $3,328           $3,333




                                                2-29
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005


                                           16 Exchange Revenues
In accordance with Library of Congress Regulation                  is authorized to fix fees at a level not more than
(LCR) 1510, Financial Services, the Library must                   necessary to recover reasonable costs incurred for
comply with any OMB circular or bulletin if it is                  services plus a reasonable adjustment for inflation.
specifically prescribed in (1) an LCR, (2) an FSD                  Fees should also be fair and equitable and give due
Directive, or (3) if required by law. OMB Circular                 consideration to the objectives of the copyright
No. A-25, User Charges, does not fall into any of these            system.
three categories, but may be used by the Library as a
useful point of reference. Circular No. A-25 requires              If the Library were to increase fees and prices to
that user charges be sufficient to recover the full costs          recover full costs to the government for providing
to the federal government. Full costs include all direct           these goods and services, this would in some cases
and indirect costs to any part of the federal                      reduce the quantity for goods and services demanded.
government of providing the good or service,                       It is not practicable to provide reasonable estimates
including unreimbursed inter-entity costs.                         regarding (1) revenue foregone from charging fees that
                                                                   do not recover full costs to the government and (2) to
The Copyright Office’s registration operations have                what extent the quantity of goods and services
legislatively mandated fees, which do not require the              demanded would change as a result of changes in
recovery of the full costs of operations. The Register             prices and fees.



                                  17 Classification of Program Costs

                                                  (Dollars in Thousands)
Fiscal Year 2006                               Intragovernmental                           Public
                                                                 Non                                Non
                                          Production                           Production                          Total
                                                              Production                         Production
National Library                              $112,282                 $31          $278,788              $39      $391,140
Law Library                                      6,866                    2           14,802                -        21,670
Copyright Office                                24,067                   25           45,730                -        69,822
Congressional Research Service                  32,910                   38           94,563                -       127,511
National Library Service for the Blind
                                                  9,396                    3          49,924                  -      59,323
and Physically Handicapped
Revolving and Reimbursable Funds                  6,873                  21            78,590                 -      85,484

Total                                          192,394                  120          562,397                39      754,950




                                                            2-30
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005
                                               (Dollars in Thousands)
Fiscal Year 2005                             Intragovernmental                         Public
                                                             Non                                 Non
                                         Production                          Production                         Total
                                                          Production                          Production
National Library                            $114,912               $34           $272,736              $27     $387,709
Law Library                                    6,972                  2            13,990                        20,964
Copyright Office                              20,499                (8)            48,363                        68,854
Congressional Research Service                31,883                 18            90,479                       122,380
National Library Service for the Blind
                                                6,609                    4          44,088                       50,701
and Physically Handicapped
Revolving and Reimbursable Funds                7,124                   20          86,554                       93,698

Total                                       $187,999                $70          $556,210             $27      $744,306



                                     18 Imputed Financing Sources
Imputed financing from costs absorbed by others consists of:

                                               (Dollars in Thousands)
Agency                                                                       2006                   2005
Architect of the Capitol – Library buildings and grounds costs                      $40,640                $40,195
Government Printing Office – exchange program costs                                     564                    860
Office of Personnel Management – staff benefit costs                                 31,594                 32,466
US Treasury Judgment Fund – Imputed Costs                                                75                      0
Total                                                                               $72,873                $73,521




                                                        2-31
                             THE LIBRARY OF CONGRESS
               NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                     Fiscal Years Ended September 30, 2006 and 2005

                                           19 Earmarked Funds
SFFAS No. 27, “Identifying and Reporting Earmarked                     Special Events (these programs are discussed
Funds”, effective October 1, 2005, defines “earmarked                  further in Note 1.D. and 15);
funds” as those being financed by specifically                    x   Gift and TFB Funds authorized by 2 U.S.C. 154-
identified revenues, often supplemented by other                       163 (and discussed further in Note 1. E.). Gift
financing sources, which remain available over time.                   and TFB Fund cash donations and other realized
These specifically identified revenues and financing                   revenues were $13,500,975 for fiscal year 2006;
sources are required by statute to be used for                         and
designated activities, benefits or purposes, and must be          x   Other earmarked funds not outlined above
accounted for separately from the Government’s                         (combined revenues of $3,784 for fiscal year
general revenues.        The Library’s consolidated                    2006), including: The Oliver Wendell Holmes
financial statements include the results of operations                 Devise Fund, which is authorized to fund lectures
and financial position of its funds identified as                      known as the “Oliver Wendell Holmes Lectures”
“earmarked funds.” The Library’s earmarked funds                       and other projects pertaining to Justice Holmes or
are presented among the following classifications:                     the Supreme Court (Pursuant to Public Law 84-
                                                                       247); The Gertrude M. Hubbard Bequest, which
x   Collections of fees authorized annually for use by                benefits the Gardiner Greene Hubbard Collection
     appropriations act for:                                           (Pursuant to 37 Stat. 319-20); and the Foreign
     x The Cataloging Distribution Service (CDS),                     Service National Separation Liability Trust Fund,
         which is the distribution arm for the Library                 which is authorized to provide the separation pay
         of Congress bibliographic data and related                    for foreign national employees (Pursuant to
         technical publications. Pursuant to 2 U.S.C.                  Section 151 of Public Law 102-138).
         150, CDS sells its products to libraries
         throughout the United States and around the              The Federal Government does not set aside assets to
         world and charges “…a price which will                   pay future benefits or other expenditures associated
         cover their costs plus ten percent added.”               with earmarked funds. The cash receipts collected
         CDS earned revenues were $3,913,805 for                  from the public for an earmarked fund are deposited
         fiscal year 2006.                                        into the U.S. Treasury, which uses the cash for general
     x The Law Library, pursuant to Public Law                   Government purposes. Treasury securities are issued
         105-275, Section 208, is authorized to receive           to the Library as evidence of its receipts. Treasury
         funds from participants in and sponsors of an            securities are an asset to the Library and a liability to
         international legal information database                 the U.S. Treasury. Because the Library and the U.S.
         (known as the Global Legal Information                   Treasury are both parts of the Government, these
         Network (GLIN)) led by the Law Library of                assets and liabilities offset each other from the
         Congress. Fees for the development and                   standpoint of the Government as a whole. For this
         maintenance of GLIN were $10,000 for fiscal              reason, they do not represent an asset or a liability in
         year 2006; and                                           the U.S. Government-wide financial statements.
     x The Copyright Office, pursuant to 17 U.S.C.               Treasury Securities provide the Library with authority
         708(d), is authorized to collect fees for the            to draw upon the U.S. Treasury to make future
         registration of a copyright claim and other              expenditures. When the Library requires redemption
         copyright recordation and filing activities.             of these securities to make expenditures, the
         Fees collected for these services were                   Government finances those expenditures out of
         $24,312,946 for fiscal year 2006.                        accumulated cash balances, by raising taxes or other
x   Public Revolving Funds authorized by 2 U.S.C.                receipts, by borrowing from the public or repaying less
     182 for the Cooperative Acquisitions, Audio and              debt, or by curtailing other expenditures. This is the
     Video Duplication, Gift Shop Operations,                     same way the Government finances all other
     Decimal Classification, Photo Duplication and                expenditures.


                                                           2-32
                                THE LIBRARY OF CONGRESS
                  NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                        Fiscal Years Ended September 30, 2006 and 2005

Fiscal data as of, and for the year ended September 30, 2006 is summarized below. Intra-agency transactions have not
been eliminated in the amounts presented below.

                                               (Dollars in Thousands)
                                                                              2006
                                            Offsetting        Public                       Other          Total
                                            Collections      Revolving       Gift and    Earmarked      Earmarked
                                              Funds           Funds         TFB Funds      Funds          Funds
Balance Sheet
 Fund Balance with Treasury                    $26,440            $7,325      $13,925          $815        $48,505
 Investments in U.S. Treasury Securities             0                 0       49,351            67         49,418
 Other Assets                                      178             1,188       90,963             0         92,329
   Total Assets                                $26,618            $8,513     $154,239          $882       $190,252

 Liabilities                                    $5,360            $3,854         $765            $0         $9,979
 Cumulative Results                             21,258             4,659      153,474           882        180,273
   Total Liabilities and Net Position          $26,618            $8,513     $154,239          $882       $190,252

Statement of Net Cost
 Program Costs                                 $26,354           $11,243      $10,855           $39        $48,491
 Less: Earned Revenue                          (28,237)          (10,878)       (763)            (0)       (39,878)
   Net Cost of Operations                      ($1,883)             $365      $10,092           $39          $8,613

Statement of Changes in Net Position
 Net Position, Beginning                       $17,793            $4,054     $144,267          $846       $166,960

 Less: Net Cost                                   1,883            (365)      (10,092)          (39)        (8,613)
 Non-Exchange Revenues                                0                0         2,465             4          2,469
 Other Financing Sources                          1,582              970        16,834            71        19,457
   Change in Net Position                         3,465              605         9,207            36        13,313

 Net Position, Ending                          $21,258            $4,659     $153,474          $882       $180,273




                                                          2-33
                                  THE LIBRARY OF CONGRESS
                    NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                          Fiscal Years Ended September 30, 2006 and 2005


                                                 20 Budgetary Resources

  Budgetary resources are classified as follows:

                                                        (Dollars in Thousands)
                                                              2006                                         2005
                                                               Non-                                        Non-
                                             Appropriated                                Appropriated
                                                            Appropriated   COMBINED                     Appropriated   COMBINED
                                               Capital                                     Capital
                                                              Capital                                     Capital
Budgetary Resources
Unobligated balance, brought Forward,
October 1
                                              $110,432      $1,111,124     $1,221,556     $109,813        $919,497     $1,029,310
Recoveries of prior year obligations               3,792          2,277          6,069         3,610            745         4,355
Budget authority
   Appropriation                                567,424        290,476       857,900        549,760        245,925       795,685
   Spending authority from offsetting
   collections
   Earned
      Collected                                      462       112,280       112,742              66       127,552       127,618
      Change in receivables from
      Federal sources
                                                    (10)           (11)           (21)          (62)          3,321         3,259
   Change in unfilled customer orders
      Advance received                                            7,765          7,765                      (7,322)       (7,322)
      Without advance from Federal
      sources
                                                                  (492)          (492)                        6,353         6,353
   Expenditure transfers from trust funds                            2             2              0              0             0
    Subtotal Budget Authority                   567,876        410,020       977,896        549,764        375,829       925,593
Nonexpenditure transfers, net, anticipated
and actual
                                                   (594)             49          (545)         (496)               2        (494)
Temporarily not available pursuant to
Public Law
                                                      20            155           175           (20)              31          11
Permanently not available                      (15,056)            (95)      (15,151)        (7,527)            (70)      (7,597)
Other

Total Budgetary Resources                     $666,470      $1,523,530     $2,190,000     $655,144      $1,296,034     $1,951,178




                                                                  2-34
                                    THE LIBRARY OF CONGRESS
                      NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
                            Fiscal Years Ended September 30, 2006 and 2005
                                                            (Dollars in Thousands)
                                                                      2006                                       2005
                                                                       Non-                                       Non-
                                                     Appropriated                               Appropriated
                                                                    Appropriated   COMBINED                    Appropriated   COMBINED
                                                       Capital                                    Capital
                                                                      Capital                                    Capital
Status of Budgetary Resources:
    Obligations incurred
        Direct                                        $561,668       $210,088      $771,756      $544,712         $61,349     $606,061
        Reimbursable                                                  118,051       118,051                       123,561      123,561
    Unobligated balance-Exempt from
    Apportionment                                        95,649      1,195,340     1,290,989       101,815      1,107,418     1,209,233
    Unobligated balance not available-other               9,153             51         9,204         8,617          3,706        12,323
Total Status of Budgetary Resources                     666,470      1,523,530     2,190,000       655,144      1,296,034     1,951,178
Change in Obligated Balance:
Obligated balance, net
    Unpaid obligations, brought forward, October
    1                                                   171,707         59,643       231,350       164,906         48,710      213,616
    Less: Uncollected customer payments from
    Federal sources, brought forward, October 1            (164)      (14,811)       (14,975)         (226)        (5,137)      (5,363)
    Total unpaid obligated balance, net                 171,543         44,832       216,375       164,680         43,573       208,253
Obligations incurred net (+/-)                          561,668        328,139       889,807       544,712        184,910       729,622
Less: Gross outlays                                   (544,437)      (317,556)     (861,993)     (534,301)      (173,232)     (707,533)
Less: Recoveries of prior year unpaid obligations,
actual                                                   (3,792)        (2,277)       (6,069)       (3,610)          (745)      (4,355)
Change in uncollected customer payments from
Federal sources (+/-)                                         11             503         513             62        (9,674)      (9,612)
Obligated balance, net, end of period
    Unpaid obligations                                  185,146         67,949       253,095       171,707         59,643      231,350
    Less: Uncollected customer payments from
    Federal sources                                        (154)      (14,308)       (14,462)         (164)      (14,811)      (14,975)
    Total, unpaid obligated balance, net, end of
    period                                              184,992         53,641       238,633       171,543         44,832      216,375
Net Outlays
    Gross outlays                                       544,437        317,556       861,993       534,301        173,232       707,533
    Less: Offsetting collections                          (463)      (120,046)     (120,509)          (65)      (120,231)     (120,296)
    Less: Distributed Offsetting receipts                              (45,942)      (45,942)                    (23,300)       (23,300)
    Net Outlays                                       $543,974        $151,568      $695,542     $534,236         $29,701      $563,937

  For TFB funds, approximately $11.0 million and $13.0 million of unobligated authority for fiscal years 2006 and
  2005, respectively, at the donor’s request, is restricted from being spent on program costs (income from investing
  restricted donations under the Library’s Total Return Policy can be spent on program costs). These amounts are
  invested either in the permanent loan or in Treasury securities. An additional $77.4 and $75.0 million of restricted
  authority has been obligated and expended to invest in non-Treasury securities for the fiscal years 2006 and 2005,
  respectively.




                                                                      2-35
                                  THE LIBRARY OF CONGRESS
                             CONSOLIDATED FINANCIAL STATEMENTS
                                Fiscal Year Ended September 30, 2006

                                           STEWARDSHIP REPORT

                                                HERITAGE ASSETS


     OVERVIEW OF THE LIBRARY                                     value, and significant cultural, historical, and or
          COLLECTIONS                                            artifactual importance); silver (items requiring special
                                                                 handling or that are at high risk); bronze (items
The Library of Congress is the world's largest library           without special restriction in the Library’s reading
collection with more than 134 million items,                     rooms and materials that may be loaned without
including research materials in over 470 languages               stringent restriction); and copper (items the Library
and various media. The collections include more than             does not intend to retain but are held until a decision
32 million books and other printed materials, 59                 is made).
million sheets of manuscripts, 14 million
photographs, 5.2 million maps, 5.4 million pieces of             Recognizing that resource constraints preclude
music, 2.7 million audio recordings, and one million             protecting the entire universe of the collections at the
moving images (e.g., motion pictures). The collection            platinum level established for the nation’s treasures,
of incunabula (books printed before 1501) is the                 the Library’s approach sets clearly defined,
largest in the Western Hemisphere, and the                       differentiated degrees of protection. As an example,
collections of maps, atlases, newspapers, music,                 the Library has a vast collection of sheet maps that are
motion pictures, photographs, and microforms are                 not individually cataloged and are therefore controlled
probably the largest in the world. Other collections             only at the collection level. Lacking item level
include drawings, posters, prints, technical reports and         control, the maps are only served to a reader under
other printed materials; computer programs;                      conditions of strict physical security. In contrast,
videotapes and disks; talking books; and other audio             most of the book collections of the Library have item
and visual materials.                                            level control and may therefore circulate among the
                                                                 various reading rooms and even be loaned to other
In a collection as large and as diverse in formats as            libraries.     This ground-breaking approach to
the Library’s, decisions are made continually as to the          collections security has been shared with a wide array
appropriate level for the application of stewardship             of professional associations and, at the time of the
controls: should the Library’s collection be controlled          development of the Library’s security plan, no other
at the item level or at the collection level? While the          major cultural institution sampled was found to have a
optimum control would be to secure every individual              plan as complete as that of the Library.
item, such a minute level of control cannot be
globally achieved at a reasonable cost or within a               The Library holds the papers of 23 presidents of the
reasonable amount of time. Therefore, the Library                United States as well as papers of individuals from
has chosen to use each of the control measures, as an            many diverse arenas – Susan B. Anthony, Sigmund
individual technique and in synergy with each other,             Freud, Pamela and Averell Harriman, Henry
to exert the appropriate level of control to particular          Kissinger, Thurgood Marshall, Harry A. Blackmun,
segments of the collection.                                      Irving Berlin, and many others. The Library's
                                                                 treasures include one of three perfect copies in the
The Library’s five-tiered framework of risk, first               world of the three-volume Gutenberg Bible printed on
formulated and published in the 1997 Security Plan,              vellum, two of the five known copies of the
remains the unifying construct in the security plan as           Gettysburg Address, Thomas Jefferson's handwritten
of the end of the fiscal year. The five tiers are:               draft of the Declaration of Independence, and many
platinum (the most priceless items); gold (items                 other rare books and manuscripts, including the oldest
having prohibitive replacement costs, high market                example of printing in the world.            The most
                                                                 significant recent map acquisition is the highly prized
                                                           3-1
1507 world map by Martin Waldseemüller. One of                   perform their duties; a comprehensive record, in all
the great treasures of the world and American history,           formats, documenting the life and achievement of the
the map is the earliest known document on which the              American people; and a universal collection of human
name “America” appears.                                          knowledge (except clinical medicine and technical
                                                                 agriculture, which are the responsibilities of the
An ongoing goal of the Library’s acquisitions effort is          National Library of Medicine and National
to acquire recent books, serials, maps and other                 Agricultural Library, respectively) embodying
material documenting the American experience.                    primarily in print form the records of other societies,
Another goal is to acquire research quality materials            past and present. The Library makes available the
published in languages other than English and in other           Collections Policy Statements on its web site,
countries that complement and extend materials                   providing immediate access to them for staff and
published in the United States. During fiscal year               other research institutions.
2006, the Library placed its collecting emphasis on:
xSerials                                                       The Collections Policy Committee of the Library
x New electronic resources                                       reviews the allocation budgets for acquisitions and
                                                                 travel for the purpose of acquiring materials. It also
                                                                 coordinates the review of the Collections Policy
                                                                 Statements and announces its work plan to all the
          COLLECTIONS POLICY                                     recommending officers in the Library.             The
                                                                 committee is composed of the:
The collections are organized into two major                     xDirector for Acquisitions & Bibliographic Access,
categories: the print collections, which include                 xDirector for Collections & Services,
classified books, rare books, serials, and pamphlets;            xDirector for Preservation,
and the special format collections, which include                x Director, Law Library Services, Law Library
maps, motion pictures, music, manuscripts,                       xAssistant Director, Knowledge Services Group,
photographs, sound recordings, and prints.                         Congressional Research Service
                                                                 x Others as appointed.
The Library's collections are universal and
comprehensive in scope, building on Thomas
                                                                 Digital Preservation – The National Digital
Jefferson’s concept that Congress’ own interests are
                                                                 Information Infrastructure and Preservation Program
universal; however, the Library does not collect
                                                                 (NDIIPP), funded by a fiscal year 2001 appropriation
everything or accession everything it receives. The
                                                                 of $99.8 million from the U.S. Congress, continues to
collections development policy has evolved over the
                                                                 be the major focus for the Office of Strategic
years. In 1814, Jefferson offered to sell his personal
                                                                 Initiatives (OSI). The program is overseeing the
library to the Library Committee of Congress in order
                                                                 development of a digital preservation infrastructure
to "recommence" the Congressional library after the
                                                                 consisting of a network of partners with defined roles
British burned the U. S. Capitol, destroying the
                                                                 and responsibilities, working within a technical
Library of Congress. Jefferson stated: "I do not know
                                                                 architecture. NDIIPP reached its halfway point during
that it contains any branch of science which Congress
                                                                 this fiscal year, having achieved several critical
would wish to exclude from their collection; there is,
                                                                 milestones in this unprecedented program to build a
in fact, no subject to which a Member of Congress
                                                                 national infrastructure to save America’s digital
may not have occasion to refer." In 1815, President
                                                                 heritage, which is at risk of loss if it is not now
James Madison approved an Act of Congress
                                                                 preserved.
appropriating $23,950 for the acquisition of
Jefferson's library of 6,487 volumes.
                                                                 During fiscal year 2006, new preservation partners
                                                                 were added and are engaged in myriad activities in
As set forth in the Library's Collections Policy
                                                                 building an infrastructure to capture at-risk content
Statements, the Library's collection development
                                                                 important to the nation’s intellectual well-being and to
policies are designed to fulfill its responsibilities to
                                                                 develop enhanced tools and services. The program
serve: (1) the Congress and United States government
                                                                 also progressed in analyzing how current copyright
as a whole, (2) the scholarly and library community,
                                                                 law affects not only the process of digital preservation
and (3) the general public. This ensures that the
                                                                 but also how digital materials are handled by libraries
Library makes every effort to possess all books and
                                                                 and archives. NDIIPP also continued to explore how
library materials necessary for the Congress and
various offices of the United States government to
                                                           3-2
best to help state and local governments preserve                Preserving Creative America Initiative
digital government records.
                                                                 In July 2006 an announcement was issued that sought
Digital Preservation Partnerships                                expressions of interest in a project to preserve the
                                                                 digital content produced by the private sector,
The Library of Congress has made significant                     including, but not limited to, motion pictures, sound
advances in demonstrating the feasibility of a national          recordings, still photography, graphics, illustration,
network of partners to collect, preserve and make                interactive games, literary arts and other media. The
available a comprehensive collection of born-digital             deadline for submissions was September 22, 2006,
materials.     NDIIPP continued to build this                    and the Library is currently evaluating several
collaborative network of institutions committed to               proposals for possible matching funding.
sharing the best practices for digital preservation.
These partners are building large collections of at-risk         Partnership with Stanford University-CLOCKSS
content and developing advanced research into tools,
services, repositories and overall infrastructures for           The Library of Congress entered into a three-year
digital preservation. Individually, the partners have            cooperative agreement in June 2006 with Stanford
made significant strides over the past year in making            University to provide approximately $700,000 in
the challenges of digital preservation more                      support of Stanford’s CLOCKSS (Controlled Lots of
achievable.                                                      Copies Keep Stuff Safe) digital archive pilot and
                                                                 related technical projects.
While achieving considerable individual success, the
partners have also continued to strengthen their roles           As part of the NDIIPP cooperative agreement,
within the NDIIPP network. The partners interact                 Stanford will work with the Library of Congress to
through the NDIIPP-supported Affinity Groups                     explore the potential applicability of its
(flexible working groups that allow the partners to              LOCKSS/CLOCKSS technologies to a variety of
interact across a set of shared issues, including                initiatives and projects that support the overall goals
collection and selection, economic sustainability,               of NDIIPP. The Library award is being matched
technical architecture, and rights issues). NDIIPP, as           dollar-for-dollar by Stanford.
it did during fiscal 2005, again brought all partners
together twice to enhance information sharing and                Partnership with SCOLA
collaborative opportunities.
                                                                 Also in July, the Library of Congress entered into a
NDIIPP States Initiative                                         cooperative agreement with SCOLA, a non-profit
                                                                 educational organization that will ensure that high-
The Library has continued to build on the positive               interest foreign news broadcasts, such as those from
results of the 2005 States Consultation Workshops                Al Jazeera (an Arabic-language news network) and
that helped identify the pressing digital preservation           from Pakistan, Russia and the Philippines, are
issues facing state and local governments. In fiscal             archived and available for future research. NDIIPP
2006, the Library released Preservation of State                 is providing funding support. SCOLA is matching
Government Digital Information: Issues and                       the $250,000 provided by the Library, as required
Opportunities, a report on the workshops with the                by the NDIIPP legislation. The agreement, subject
states.                                                          to continuing matching contributions from SCOLA,
                                                                 was for an initial period of six months, renewable
The findings of the report confirmed that the Library            up to four years.
has a role to play, and in May 2006, the Library
released a Request for Expressions of Interest for               Partnership with the National Endowment for the
Multi-State Demonstration Projects for Preservation              Humanities: The National Digital Newspaper
of State Government Digital Information. Successful              Program (NDNP)
projects funded under this initiative will build on the
initial set of NDIIPP investments in establishing a              The National Digital Newspaper Program, a
network of preservation partners exploring the                   partnership between the National Endowment of the
viability of highly collaborative, decentralized digital         Humanities (NEH) and the Library, is a long-term
preservation approaches. The Library received eleven             effort to develop an Internet-based, searchable
submissions in response to the solicitation, and                 database for all U.S. newspapers and select digitized
announcement of awards is expected in early 2007.                historic titles. Supported by NEH, this rich digital
                                                           3-3
resource will be developed and permanently                       (approximately 26,000 pages) from their own award
maintained by the Library. As a collaborative digital            activities conforming to technical requirements for the
effort between Library Services, OSI and Information             initial Web site launch in October 2006. This data was
Technology Services (ITS), this program directly                 ingested into the preservation architecture and
contributes to the ongoing strategic goals of the                provided a robust dataset for development of the
National Digital Library Program by creating a                   access user interface. The Library also entered into an
national collection of high-value digitized historical           agreement with ProQuest Information and Learning to
newspapers; developing a Web-accessible repository               acquire 82,000 pages of the New York Tribune to
to the national collection selected by state awardees;           incorporate into the NDNP repository in 2007. This
providing free and open Internet user-friendly access            material will be digitized from ProQuest microfilm
to important historical content; and developing                  holdings by ProQuest to meet NDNP specifications.
consensus on standards and best practices for access
to both digitized historical newspaper content and               The NDNP web site, to be called American
digital library preservation practices.        NDNP              Chronicle, was scheduled for beta testing beginning
represents a logical extension of the technical and              in October 2006, with release to the public in mid-
collection building expertise supporting the Library’s           2007.
highly successful American Memory digital collection
effort.                                                          Partnership with San Diego Supercomputer Center

In the second year of a two-year program                         The aim of the NDIIPP partnership with the San
development phase, the Library continued building a              Diego Supercomputer Center is to build and
viable and extensible program model for funding and              measure trust and utility in a third-party bit-storage
digitization by state awardee institutions (in 2005,             and preservation facility. Two content types, namely
NEH awarded $1.9 million in NDNP awards to 6                     digital photographs and Web content, are being used
states – California, Florida, Kentucky, New York,                as test data in this project. Eight test scenarios are
Utah and Virginia), creating a sustainable digital               being developed for the purpose of this project.
repository, and validating technical approaches for the          Some of the test scenarios and required storage are
processing and accessing of complex digital objects.             already set up, test data have been transferred to San
                                                                 Diego and tests are under way.
This year the digital preservation architecture
supporting the long-term program fully took shape                Electronic Deposit for Electronic Journals Project
with the development of an NDNP repository and a
multi-functional user interface to provide access to             The digital revolution has lowered barriers to content
historical newspaper content for the general public.             creation and distribution. Current trends predict that,
Significant accomplishments were made in the                     in coming years, more and more works will be
incorporation of digital asset validation strategies and         published in a growing variety of formats, both digital
distribution of the process to awardees, establishing            and analog. When the electronic deposit system is
aggregation workflow, data ingestion, and                        deployed, it will ensure that as such works are
dissemination services to a Web interface, all                   published, the Library will be able to efficiently
proceeding in parallel over the course of the                    collect and preserve them for the benefit of future
development phase.                                               generations.

In early January 2006, the Library completed its                 In the current initial phase of the project, the scope is
initial conversion of selected microfilmed newspaper             limited to electronic journals (or e-journals). It is
content, representing Washington, DC, newspaper                  Ɣ building a repository prototype;
titles from 1900-1910. These 93,000 digitized pages              Ɣ building an automated submission process; and
(approximately 400,000 digital objects), along with              Ɣ recommending a policy framework governing the
the comprehensive newspaper title directory -                    specification of supported electronic formats.
approximately 140,000 bibliographic records and
900,000 holdings records for newspaper originals,                The system will have one or more machine-to-
microfilm masters, and copies created by the legacy              machine interfaces for content and metadata ingest
United States Newspaper Program - formed the initial             and communication with other information-
dataset for ingestion and testing of the Library                 technology systems within the institution. It will also
repository architecture and access capabilities. In              have one or more user interfaces that enable the
addition, each NEH awardee submitted digital assets              digital custodians involved in test activities to validate
                                                           3-4
and verify content and related data that have been                   donors, including civil rights and political
ingested.                                                            advocacy groups, professional and honorary
                                                                     organizations, memorial groups and research and
The quality of basic functions and the ability to                    educational organizations.
handle a variety of content formats will take
precedence over the quantity of content ingested                     TGeneral Collections Archiving Pilot: A pilot
during prototyping and testing. Once a high-quality                  project for a non-thematic collections.
system and reliable ingest process are tested and
proven, the system will be stress- tested and load-                  TCrisis in Darfur, Sudan: Organizations, news
tested. When these steps are complete, the team will                 reports and the responses of government,
begin to engage more publishers and extend the                       international organizations and the general public
system to ingest a wider variety of content types.                   in the United States and worldwide to the crisis in
                                                                     Darfur.
The project is sponsored by the Copyright Office,
Library Services and the OSI. A working group                        THurricane Katrina: A partnership with the
comprising senior managers from service units across                 Internet Archive and the California Digital
the institution performs customer and stakeholder                    Library to document communications, reactions
management. It has met on a biweekly basis since                     and commentary on Hurricane Katrina.
September 2005. The working group has also formed
teams to explore specific subject areas and to engage                TSupreme Court: The Supreme Court nomination
key stakeholders outside the working group. The                      and appointment process.
members and stakeholders have been chosen
according to subject matter expertise, technical                     T109th Congress: House, Senate, congressional
expertise or responsibility relevant to the execution of             committees and related sites
this project.
                                                                      TWar in Iraq: Web sites documenting the Iraq
Web Content Capture Project                                           war.
                                                                 Two technical areas were tested this year: indexing
Because the Web has become a major source of born-               tools and transfer and storage technical requirements.
digital information, NDIIPP supports a Web Capture               NutchWax, the first full-text indexing tool for
Team to collect and preserve web sites. During fiscal            archived Web content was installed and tested at the
2006, the team captured 21 terabytes of digital                  Library. During this year, six collections were
content, for a total of 56 terabytes to date,                    indexed using NutchWax. The team also initiated
representing more than one billion documents                     work on a Web archive collection management tool to
downloaded from the Web. This is the equivalent of               aid curator selection and collection and a tool to
digital text information from more than 55 million               capture streaming media from the Web.
books (1 megabyte per book of text only).
                                                                 National Digital Library Program
OSI worked with Library Services and the Law
Library on capturing the following collections:                  In fiscal year 2006, the Library’s web site overall
                                                                 handled 4,039,719,596 transactions, or “hits.” This
    TElection 2006: Congressional and gubernatorial              statistic accounts for all major sub-sites of
    candidates,    political    party,   government,             www.loc.gov, such as American Memory, America’s
    advocacy,     blogs,     public    opinion   and             Library, THOMAS, Online Catalogs, Exhibitions and
    miscellaneous Web sites related to the 2006 mid-             Global Gateway.
    term U.S. elections.
                                                                 The number of digital files produced by the Library in
    TPrints     and   Photographs      Acquisitions:             fiscal year 2006 was 900,192, and the total files now
    Photography, graphic arts and other visual-                  number 11,074,223.
    material Web sites, which complement, expand
    and enhance the Prints and Photographs Division              American Memory
    collections.
                                                                 Two collections were added to American Memory in
    TThe   Manuscript     Division   Archive     of              fiscal year 2006: The Moldenhauer Archives of
    Organizational Web Sites: Web sites of existing              approximately 3,500 items, documenting the history
                                                           3-5
of Western music from the medieval period through               The Global Legal Information Network, or GLIN
the modern era, and Miller NAWSA Suffrage                       (http://www.glin.gov), is an initiative of the Law
Scrapbooks: 1897-1911, a presentation of the                    Library designed to provide timely access to the laws
scrapbooks of Elizabeth Smith Miller and her                    of the world. It is a multinational database containing
daughter, Anne Fitzhugh Miller, documenting the                 laws and other legal materials from countries and
National American Woman Suffrage Association.                   international organizations in Asia, Africa, Europe
This brings to 135 the number of thematic collections           and the Americas. A network of government agencies
on this Web site that present digitized versions of the         and representatives of 30 countries, international
rare and unique multimedia materials from the                   organizations, and non-governmental organizations
Library and its partners.                                       contributes information directly to the database while
                                                                legal analysts in the Law Library input information
American Memory collections that were augmented                 for sixteen other Spanish- and Portuguese-speaking
with new materials are:                                         nations that are not yet contributing laws themselves.
Ɣ Tending the Commons: Folklife and Landscapes in               During the fiscal year, GLIN members contributed
Southern West Virginia,                                         over 5,100 laws to the database, and Law Library
Ɣ Civil War Maps,                                               staffers added about 625 laws. Currently, there are
Ɣ Map Collections,                                              over 120,000 laws in the GLIN database. The Law
Ɣ Panoramic Maps,                                               Library introduced a redesign of the site to include
Ɣ The American Revolution and Its Era: Maps and                 several new features including the ability to search it
Charts of North America and the West Indies, 1750-              in 13 languages.
1789,
Ɣ The Frederick Douglass Papers,
                                                                The Law Library continues to expand its online
Ɣ Built in America: Historic American Buildings
                                                                resources. The major acquisition was the United
Survey/Historic American Engineering Record, and,               States Supreme Court Records and Briefs, 1832-1978.
Ɣ Documents from the Continental Congress and
                                                                This full text database contains all the records and
Constitutional Convention.                                      briefs submitted to the United States Supreme Court
                                                                before 1979, providing full text searching for this rich
New materials were added to the Global Gateway                  historically important information for the first time.
presentations                                                   The Law Library also began a project to digitize the
Ɣ Islamic Manuscripts from Mali,
                                                                entire collection of U.S. Congressional hearings. The
Ɣ Selections of Arabic, Persian and Ottoman
                                                                collection will be searchable and will provide content
Calligraphy,                                                    for GLIN and the Thomas databases.
Ɣ France in America, and,
Ɣ United States and Brazil: Expanding Frontiers,
                                                                Bibliographic Enrichment Activities
Comparing Cultures.
                                                                The      Library’s    inter-divisional   Bibliographic
Law Library                                                     Enrichment Advisory Team (BEAT) is responsible
                                                                for initiating research and development projects to
Recognizing the national and international interest in          increase the value of cataloging products to library
the trial of Saddam Hussein, the Law Library                    users.     The team’s best-known project is the
developed and published a website tracking and                  enrichment of online catalog records by providing
reporting on the developments of the trial. The site is         electronic table of contents data (TOC). In fiscal year
updated frequently and includes articles analyzing the          2006, BEAT-developed software supported the
international legal issues associated with the trial as         inclusion of TOC in more than 28,488 records for
well digital reproductions of primary sources cited in          Electronic Cataloging in Publication titles and
those articles.       Additional relevant electronic            enabled links to and from another 21,044 catalog
resources are linked in appropriate places within the           records to D-TOC, or digital tables of contents, which
site. The Law Library also provides users with                  resided on a server. Links to TOC were also provided
additional print resources to guide them in further             by the BEAT ONIX projects, which link LC catalog
research. The Law Library intends to archive the site           records to tables of contents, publisher descriptions,
and make it available to anyone interested in studying          sample text, book jacket illustrations, author
the unique challenges of trying a former head of a              information, and reading group guides provided by
sovereign nation for criminal acts under principles of          publishers in ONIX, the standard for communicating
international law.                                              book industry product information in electronic form.

                                                          3-6
At year’s end there were 636,415 links, including               protecting the original and making these treasures
links to 33,510 sample texts and more than 272,000              accessible to scholars and researchers online. The
publisher descriptions of their publications.                   collaborative project is for two years with the
                                                                possibility of extending it for one more year. In
In fiscal year 2006, BEAT expanded its Review                   August 2006, the National Central Library (Taiwan)
Project, by adding links from catalog records to                completed digitizing approximately 300 titles of
reviews for 2,144 monographs in the LC collections.             Chinese rare books in 101,406 images, and sent the
At the request of the Handbook of Latin American                file to the Asian Division in DVDs. The estimated
Studies (HLAS), a project of the Hispanic Division,             cost of approximately $1 million was funded by the
BEAT developed software to change approximately                 Taiwan government. Full texts of each title, together
27,000 HLAS records to add the complete name of the             with the Library’s call number and bibliographic data,
journal relating to that HLAS record, making these              are now available in the Asian Reading Room.
records easier for end users to understand.
                                                                A digitization project of a rare edition of the Japanese
The BEAT team originated the project to reclassify              literary masterpiece, Genji Monogatari, The Tale of
and provide significantly improved access to tens of            the Genji (1654) was completed in June 2006 and is
thousands of pre-1970 Congressional hearings and                now accessible page by page online via the Library of
move them to the custody of the Law Library of                  Congress Online Catalog.
Congress, resulting in improved service to the
Congress, centralized availability of information now           The European Division digitized and posted on its
widely dispersed throughout the Library's collections,          home page historic telephone and city directories
modernization and uniformity of catalog formats for             from Central/Eastern Europe, e.g., the 1945 and 1947
the hearings, and addition or inclusion of other                telephone directories of Sofia, Bulgaria; Bibliography
information, such as the existence and location of              of the Russian and Ukrainian Pamphlet and Brochure
alternate data sources. In July 2006, Google, Inc.,             Collection, 1866-1949 (more than 4,400 entries, of
began to digitize the hearings that had been                    which 430 link to items digitized for the Meeting of
reclassified for the Law Library.                               Frontiers project); Index to Ledger of Persons
                                                                Registered at the Polish Consulate in Shanghai, 1934-
International Digital Projects                                  41; Bibliography of Bulgarian Newspapers at the
                                                                Library of Congress; List of Microfilmed Serials from
The African and Middle Eastern Division and the                 the National Library of Lithuania; Slavic and Central
Office of Strategic Initiatives built the collection of         European Sights of Interest in Washington D.C. and
harvested Web sites entitled: “Crisis in Darfur,                Vicinity; Maltese Collections at the Library of
Sudan.” This Web archive of 224 crawled sites                   Congress. The Division updated the website Polish
preserves the documentation of the humanitarian                 Declarations of Admiration and Friendship for the
crisis that began in 2003. The archive includes sites           United States, incorporating volumes previously
of key organizations, a sampling of news reports, and           missing in inventory.
the responses of government, international
organizations and the general public in the U.S. and            The Hispanic Division and Global Gateway expanded
worldwide. Because Web sites and blogs have                     The United States, Spain and the American Frontier,
replaced many of the pamphlets, flyers, and                     Historias Paralelas, a bilingual English/Spanish web
newsletters used to disseminate information in an               site, launched in collaboration with the National
earlier era, a Web archive is an invaluable resource            Library of Spain in fiscal year 2005. The Division
for current and future researchers.                             continued enhancing United States and Brazil:
                                                                Expanding Frontiers, Comparing Cultures, a
More than 355 Arabic, Persian and Ottoman                       collaborative project with the National Library of
calligraphy sheets that had been digitized and                  Brazil.
described were mounted on the Library’s web site in
fiscal year 2006. The sheets in this collection date
from the 9th to the 19th centuries and had never before         Acquiring Research Materials for the Library -
been available to the public.                                   The ideal of a universal collection was aided greatly
                                                                by the copyright law of 1870, which combined the
The Library and the National Central Library in                 registration and deposit functions in the Library of
Taiwan signed an agreement in March 2005 to                     Congress and stipulated that two copies of every
digitize selected Chinese rare books as a way of                book, pamphlet, map, print, photograph, and piece of
                                                          3-7
music published in the United States be deposited in             The Duplicate Materials Exchange Program (DMEP)
the Library. Copyright deposits are a major source of            was established as a Business Process Improvement
the Library's collections of Americana. In fiscal year           project by Library Services in 2002. Exchanges with
2006, research materials obtained for the collections            partners around the globe, previously handled by
through copyright deposits totaled 1,120,791 items.              various Acquisitions Sections, are now centrally
                                                                 serviced. The last phase in the initial program
The Cataloging in Publication Program is the other               development was to implement a Web-based
principal source of U.S. published books that the                customer interface to replace paper lists. That goal
Library acquires. A mainstay of U.S. library service             was achieved when Web DMEP was launched at the
for over thirty years, the program provides cataloging           end of July 2005, with letters, instructions and
data, based on pre-publication galleys, to participating         passwords being air mailed to 3,063 partners in 118
publishers who include the data in their published               countries.       The site employs shopping cart
books. As participants, these publishers are required            functionality to allow the Library’s exchange partners
to submit a copy of the published book to the Library.           to select materials that they would like to receive in
This copy is in addition to the two copies mandated              exchange for materials that they send to the Library.
under the copyright law. The Library also acquires               The program continues to produce printed lists and to
U.S. publications through the Preassigned Card                   distribute them to exchange partners who are unable
Number Program. In fiscal year 2006, the Library                 to use the new web-based system or simply do not
obtained 96,505 titles through the two programs.                 want to use Web DMEP.

The Library also acquires materials by purchase,                 In its first year of operation (August 2005 - July
transfer from other federal agencies, gift, domestic             2006), Web DMEP received more than 2,200 orders
and international exchange, or by provisions of state            for 16,700 books from over 600 partners. During that
and federal law. Many of these materials are foreign             time, DMEP also produced printed exchange lists that
publications. The Library maintains six overseas                 were sent to 161 other exchange partners, who
offices and has arrangements with book dealers,                  eventually requested and received 2,102 books from
agents, and publishers to ensure efficient and prompt            those lists. During the fiscal year, a total of 18,079
acquisition of current foreign publications of research          books was requested from DMEP and supplied to
value on a worldwide basis. The following are brief              partners.
descriptions of the Library's international exchange
and federal transfer programs.                                   In fiscal year 2006, the Library received 174,274
                                                                 items through its various exchange relationships.
Official Exchanges
                                                                 Federal Transfer
Among 5,000 exchange agreements, the Library of
Congress maintains about seventy "official"                      Pursuant to 36 C.F.R. 701.33, federal libraries send
exchanges with major national and parliamentary                  their surplus materials to the Library for addition to its
libraries around the world. These exchanges were                 collections or to use in the exchange and surplus
instituted and are overseen by the Library; however,             books programs. In fiscal year 2006, the Library
the Government Printing Office has the responsibility            received 130,945 items from federal agencies, and,
to ensure that this select group of exchange partners            although only a very small number were selected for
receives U.S. government publications. Pursuant to               the collections, several thousand were used in
44 U.S.C. 1719, the Superintendent of Documents                  exchanges with other libraries for materials needed by
distributes U.S. government publications "to those               the Library of Congress. Other federal transfers were
foreign governments which agree, as indicated by the             used in the Library's surplus books programs. The
Library of Congress, to send to the United States                Library has been working closely with federal
similar publications of their governments for delivery           agencies that are planning to transfer surplus
to the Library of Congress." The Government                      materials. This early consultation ensures that the
Printing Office pays for the cost of this program from           Library receives all materials appropriate for the
funds appropriated for the Superintendent of                     permanent collections or useful in the exchange and
Documents.                                                       surplus books program. Material not wanted by the
                                                                 Library can then be disposed of by the transferring
Duplicate Materials Exchange Program                             institution.


                                                           3-8
The primary resources for recent acquisitions are:




                                          2002           2003             2004          2005          2006

Annual Appropriations Authorized       $15,824,474     $10,815,240      $11,477,879   $12,381,152   $13,832,280

Estimated Value of Copyright           $31,302,048     $33,749,004      $36,456,888   $39,649,813   $41,211,901
Deposits Transferred to the Library
Government Printing Office
Appropriation (part of                    $718,000       $752,000         $751,000      $859,896      $563,590
Superintendent of Documents)



Acquisitions by source:



         Source                          Pieces 2002   Pieces 2003      Pieces 2004   Pieces 2005   Pieces 2006
Purchases:
Appropriated - GENPAC/LAW                   897,193           732,603       768,870       684,848       761,577
Appropriated Other                           34,397            25,146        26,365        16,389        14,096
Gift and Trust Funds                           393              3,003        13,065         7,159         6,450
 Total Purchases                            931,983           760,752       808,300       708,396       782,123
Non-Purchases:
Exchange                                    163,138         149,744         162,952       148,696       174,274
Government Transfers                        140,105         110,689          86,655        75,217       304,894
Gifts                                       864,398       1,488,847         949,918     1,090,439       885,422
Cataloging in
Publication/PCN                              67,971            95,967        91,747        66,011        96,505
Copyright Deposits                          896,504           869,083     1,038,561     1,098,420     1,120,791


Total Non-Purchases                       2,132,116       2,714,330       2,329,833     2,478,783     2,581,886
Total All Acquisitions                    3,064,099       3,475,082       3,138,133     3,187,179     3,364,009




                                                        3-9
     PRESERVATION OF LIBRARY                                     x   Implement emergency prevention, response, and
          COLLECTIONS                                                 mitigation procedures for collections;
                                                                 x   Maintain collections through the design and
The Preservation Directorate's mission is to assure                   creation of appropriate housings;
long-term, uninterrupted access to the Library's                 x   Monitor and document storage and exhibition
collections, either in original or reformatted form.                  environments and materials to ensure the best
This mission is accomplished through the                              possible collections environments throughout all
collaboration of the Directorate's four divisions:                    Library buildings and for all holdings;
Conservation, which surveys, treats and houses                   x   Manage and monitor the cool storage and
special collection photographs, prints, rare books and                exhibition of Top Treasures and the maintenance
audio/visual items; Binding and Collections Care,                     of their cases;
which labels, repairs, prepares, binds, and houses               x   Stabilize materials for digitization, exhibitions,
general and reference books and other shelf material;                 loans, and special events;
Preservation Research and Testing, which undertakes              x   Work with the programs to identify holdings at
analyses to develop treatments, analyze materials, test               most need of treatment and arrange for their
supplies, and create specifications; and Preservation                 transfer to Conservation for treatment; and
Reformatting, which converts deteriorated material               x   Perform materials research and develop best
into various new formats. The Directorate also                        practices for the conservation treatment of audio-
administers two additional long-term programs: the                    visual materials, paper, bound volumes, and
National Digital Newspaper Program and the Mass                       photographs.
Deacidification Program, which treats books and
paper sheets.                                                    In fiscal year 2006, divisional conservators provided
                                                                 care to a total of over 2.6 million endangered special
In fiscal year 2006, the Preservation Directorate                collection items, with emphasis on the Library’s most
completed over 10,472,480 assessments, treatments,               significant holdings. CD staff surveyed a total of
rehousings, and reformatting for books, paper,                   199,099 rare and fragile items so they could be
photographs, audio-visual and other items, including             stabilized by treatment or rehousings for access,
Chinese rubbings and George Washington’s obituary.               digitization, exhibition, and relocation to off-site
Through the coordinated efforts of the Directorate’s             storage. In fiscal year 2006, Conservators treated a
divisions and programs, over 7,688,900 items have                total of 16,243 items from twelve curatorial divisions,
been repaired, mass deacidified, or microfilmed or               including 784 books, 14,013 paper documents, 944
otherwise reformatted. This represents an increase of            photographs, and 502 other format materials. Staff
7.6% over fiscal year 2005.                                      members housed or moved 2,379,877 items, including
                                                                 the preparation of 6,078 protective boxes; the
Conservation Division                                            cleaning and housing of 15,397 discs, film, and
                                                                 magnetic media; the move of 2,250,080 photographs,
The Conservation Division (CD) ensures the                       and the conservation rehousing of 13,208 photographs
continuing existence and usefulness of the Library’s             and 94,696 paper-based items, as well as 418
special format collections.         Conservators and             miscellaneous items.       Conservators also labeled
technicians do the following core activities:                    26,416 items.
x Provide conservation treatment to valuable, high
    use, and high-risk items identified by the Library           Binding and Collections Care Division
    programs as the Library’s most endangered
    holdings;                                                    The Binding and Collections Care Division (BCCD)
x Analyze holdings, assess risks, and implement                 provides services mainly for the general and reference
    appropriate mitigation actions;                              collections. As part of the BCCD mission, periodicals
x Answer reference questions on conservation and                are bound into volumes and monographs are rebound
    preservation from fellow professionals and                   or conserved inhouse. In addition there is a major
    Congress;                                                    program to provide custom-made boxes for multi-
x Develop care, handling, and management                        piece titles, various formats that do not sit easily on
    policies, procedures, and training for digitizing            the shelf or old and damaged materials that can best
    projects, exhibitions, loans, moves; and special             be served in a box housing. The Library Binding
    events or other projects;                                    Section prepares materials to be outsourced for
                                                                 commercial binding, and provides labeling and shelf

                                                          3-10
preparation for materials be housed at the Fort Meade            collections and the materials used to house them,
facility and other areas. The Collections Care Section           deleterious or beneficial effects of environments in
provides inhouse conservation for the general and                which collections are stored, and the conservation
reference collections, providing rush services as well           treatments used to preserve them. The Division’s
as project-based care for a variety of formats. Within           programs focus on digital, audio-visual, and
BCCD, general collections care incorporates                      traditional materials, assure quality control of
education for patron and staff in care and handling of           materials and procedures, develop specifications and
materials as well as providing reference services in             standards, undertake forensic analyses to identify
the area of preservation for the public through the              compositions, characterize effects of natural and
service of QuestionPoint, which is staffed by a variety          accelerated aging, and develop testing and safety
of library experts in various fields.                            protocols.

The Library Binding Section continued to focus on                The Division maintains, services, and advises on the
improving efficiencies and eliminating backlogs.                 construction of highly sophisticated temperature and
During fiscal year 2006, 149,332 items were labeled.             humidity controlled chambers and display cases. The
Also, 259,728 volumes were sent for commercial                   Division remotely monitors conditions in the Top
library binding.                                                 Treasures Case, the Top Treasures Vault, and the
                                                                 Gutenberg and Mainz Bible cases, and conducts
The Collections Care Section provided treatment for              bimonthly on-site inspections. In fiscal year 2006, the
2,661 volumes, and made 8,384 boxes. This included               Division facilitated and supervised 62 repairs and
two important boxing projects. For the Hispanic                  maintenance services to the cases.
Reading Room, 1,000 boxes were made for the Luis
Dobles Segreda collection of Letras Patrias, Costa
Rica, 1826-1943. For the Asian Reading Room, 200                 A new initiative that was begun in fiscal year 2005
boxes were made for the Washington Documentation                 and continued in fiscal year 2006 involved design and
Center Collection, consisting of volumes from China              manufacture of the Waldseemüller map encasement.
created during the Ming and Qing periods (1368-                  Engineers and designers from the National Institute of
1644). In addition, 23,466 maps from the American                Standards and Technology who built the display cases
Title Map collection were rehoused through the                   for the Charters of Freedom at the National Archives
Section’s management of a contract with History                  are working with the Library to build an encasement
Associates, Inc.                                                 for permanent storage of the Waldseemüller map.
                                                                 Specifications for the encasement involve using state-
Staff is collaborating with other Library divisions to           of-the-art     materials      and     micro-analytical
move approximately 100,000 volumes from the                      instrumentation for maintaining and monitoring the
Landover Center Annex to the High Density Storage                map’s environment.
Facility at Fort Meade. The Section’s contributions to
the project have been in identifying volumes to be               Other fiscal year 2006 initiatives:
transferred to the Rare Book and Special Collections
Division, and in cleaning and rehousing at-risk                  Ɣ The Digital Media Research Program has primarily
volumes. This project will be on-going in fiscal year            focused on two on-going projects that evaluate
2007.                                                            physicochemical degradation reflected by digital error
                                                                 rates, which resulted in 821 analyses. The CD-Audio
Preservation Research and Testing Division                       Media Natural Aging Project, which monitors the
                                                                 aging properties of digital media in permanent storage
The Preservation Research and Testing Division                   under ambient conditions at the Library, has now been
conducts original research to advance preservation of            in progress for nine years. Closely related is the CD-
the Library's collections. From a material-science               Audio Media Accelerated Aging Project, which
perspective, the Library’s collections are composed of           evaluates the effect of accelerated aging over a range
traditional, audio-visual, and digital objects based on          of temperature and relative humidity on disc
their composition, properties, and use. To extend the            longevity.
useful life of these objects, research projects involve
using advanced analytical instrumentation to                     Ɣ A goal of the Division is to develop a searchable
investigate materials composition, aging properties of           relational database for all Library users to document
                                                                 all preservation treatments and chemical/physical

                                                          3-11
analyses and tests that are performed on collection             Ɣ A research project was undertaken to identify
objects. The first step in the Digital Data Archiving           adverse effects from pressure-sensitive adhesive
Program has been the development of a testing                   labels on different materials so that a “universal” label
database, which includes searchable parameters                  can be specified for use in bar-coding and labeling
regarding vendors, commercial product designations,             non-book and special collection materials.
test results, and other data for housing materials.
Test data from years prior to the inception of the              Preservation Reformatting
database is being added to make search results as
comprehensive as possible. In fiscal year 2006, 726             The Preservation Reformatting Division (PRD)
new records from current testing, old testing, and              provides access to at-risk Library materials by
from the digital media Natural Aging Study were                 converting items to new preservation formats, such as
added.                                                          microfilm, preservation facsimile copies or digital
                                                                reproductions. In carrying out this responsibility, PRD
Ɣ The Magnetic Media Identification and                         plans and manages the preservation reformatting
Deterioration research program focuses on the causes            budget; executes annual reformatting plans by
of degradation of magnetic media (film and tape), to            establishing requirements and standards for
develop approaches for preservation treatments and              preservation reformatting; and collaborates with other
for sampling collections for chemical species that              institutions to develop preservation reformatting
potentially can be used to predict the state of                 projects that improve the quality, content and
deterioration of the media. Closely related is the              accessibility of reformatted works. Multiple vendors
Direct Analysis in Real Time Mass Spectrometry                  produce the resulting preservation surrogates.
(DART-MS) of Magnetic Media Project, which has as
its goal performing “fingerprint” analysis of magnetic          In fiscal year 2006, PRD successfully converted
media. 240 experiments were conducted in fiscal year            5,865,061 units (e.g. print pages, photographs,
2006 to optimize conditions and define how the                  posters), a 25% increase over the fiscal year 2005
instrument can be used for non-destructively                    level, of Library material through a combination of
characterizing magnetic media.                                  preservation microfilming (5,809,544 pages or
                                                                3,295,852 exposures), preservation facsimile (3,557
Ɣ The Division conducted over 2,500 physical and                pages or 21 volumes), digitization (46,656 pages,
chemical analyses of a variety of materials brought to          132,752 files, or 2,091 works), and other preservation
the lab by curators and conservators to identify and            photographic reproductions (796 images and 4,508
characterize unknown materials.                                 acetate microfilm reels) for service to Congress and
                                                                the public. The Division continued its support for
                                                                audio and video recordings of official Library of
Ɣ The Division’s research program on the longevity              Congress performances (32 performances) by the
of paper is currently focused on aging and analysis of          Motion Picture, Broadcast and Recorded Sound
paper, having two on-going research projects and a              Division. Reformatted materials were drawn from ten
new one.                                                        Library Collection and Services divisions, the Law
                                                                Library, and the Master Negative Microform
Ɣ A new research project was begun to quantitatively            Collection held by the Photoduplication Service.
measure fading of pigments, inks, and other materials
using a non-destructive micro-spectrophotometer.                U.S. Newspaper Program (USNP)

Ɣ The on-going Iron Gall Ink Stabilization Project              The United States Newspaper Program (USNP) is an
seeks to determine the chemical mechanism(s) for                ongoing cooperative national effort among the states
deterioration of paper that results from iron gall ink          and the federal government to locate, catalog, and
and to develop stabilization treatments.                        preserve on microfilm newspapers published in the
                                                                United States from the eighteenth century to the
Ɣ The Detrimental Effects of Chemical Migration                 present. Program funding has been provided by the
Project was initiated to determine the adverse effects          National Endowment for the Humanities (NEH), with
                                                                the Library providing technical assistance to program
on the collection of long-term contact with poor
quality housing materials through migration of                  participants. Total lifetime program funding has
degradation products or color bodies.                           amounted to more than $54,000,000.


                                                         3-12
As of January 2006, USNP projects have produced or                 economies of scale and future cost-avoidance as a
updated 281,841 newspaper catalog records and                      dramatic preventive preservation activity.
microfilmed over 71,864,000 endangered newspaper
pages. NEH announced USNP awards of $892,559 in                    With a successful mass deacidification program in
fiscal year 2006 to fund continuing projects in two                place since 1995, the Library has to date extended the
states: Illinois (Chicago Historical Society, Chicago),            useful life of nearly 1.7 million books and 4 million
and Pennsylvania (Pennsylvania State University,                   sheets of manuscript materials from the national
State College). Other projects are ongoing in Illinois             library collections. The Library initiated a new 5-year
(University of Illinois, Urbana) and Tennessee                     deacidification services contract that will result in
(University of Tennessee, Knoxville).                              saving 1,250,000 books and over five million sheets
                                                                   of original manuscript materials.
Staff continued working directly with program
participants, OCLC and other interested external                   Achieving another important objective of its Thirty
parties in repurposing the bibliographic and microfilm             Year (One Generation) Mass Deacidification Plan, the
products produced through the USNP for new digital                 Library was able to make full use for the fourth year
initiatives that better connect users to the collections.          of a single-sheet treatment cylinder that is operated
Tangible results of this effort include the successful             on-site in the chemistry research and testing
conversion of over 900,000 local newspaper data                    laboratory in the Madison building. On average, over
records to the newer MARC 21 holdings format in                    4,000 pages of manuscripts are deacidified each day.
OCLC’s Connexion system and the inclusion of                       This Bookkeeper single-sheet treater and an
newspaper bibliographic and holding records in the                 associated spray booth meet all of the Library’s
National Digital Newspaper Program digital resource                published technical, environmental, health, and safety
undergoing testing at the close of the year.                       requirements for mass deacidification. The non-book
                                                                   treatment system is operated and maintained by the
Mass Deacidification Program                                       contractor, enabling the Library to obtain on-site
                                                                   deacidification services to ensure the longevity of
To extend the life and utility of collections through              unbound collections materials that are too valuable to
appropriate treatment and technologies, the                        be transported to the vendor plant near Pittsburgh,
Directorate deacidified 298,826 books and 1,069,500                PA, where the Library’s books continue to be
document sheets as part of its 30-year initiative to               deacidified.
stabilize over 8.5 million general collection books and
at least 30,000,000 pages of manuscripts.                          With oversight and training provided by the Library’s
Deacidification is an economic approach to keeping                 preservation staff, a contract staff of fifteen persons
books and manuscripts available in usable form. It                 handles the selection, charging-out, packing, shipping,
results in extending the useful life of acidic and                 and receipt of about 5,000 books each week, while
slightly brittle paper by a minimum of 300 per cent.               two additional contract personnel operate the on-site
This assures in most cases that treated books will                 treater.
survive for 300 to 1,000 years rather than becoming
extremely brittle, degraded, and unusable in less than
a century, requiring much more expensive
reformatting at over 600 per cent of the cost of
deacidification.     The technology thus achieves




                                                            3-13
Preservation statistics for fiscal year 2006 are as follows:


 Treatment:
 Volumes treated                                                                                              3,445
 Unbound items treated, paper-based                                                                          14,265
 Photographs (examined, treated, moved, housed)                                                           2,348,234
 Commercial library binding, volumes                                                                        259,728
 Mass Deacidification, volumes                                                                              298,826
 Mass Deacidification, paper sheets                                                                       1,069,500
 Housing/Rehousing:
 Protective boxes constructed                                                                                22,462
 Items rehoused, paper-based                                                                                110,162
 Copying/Reformatting:
 Preservation photocopying, volumes/pages                                                21 volumes = 3,557 pages
 Paper-based materials converted to microfilm, exposures                                                3,295,852
 Paper-based materials converted to digital format, works/pages                       2,091 works = 224,792 pages


                     SERVICE                                   materials, packaging them, and preparing loan charge
                                                               records for materials that circulate outside the Library.
The Library of Congress is a public institution open to        During the fiscal year, 117,835 items were circulated
everyone over high school age, with limited                    externally to authorized borrowers.
exceptions. Its collections are available to users in
twenty public reading rooms located in three Library
buildings on Capitol Hill. The Library's first service                 COLLECTIONS SECURITY
priority is to the Congress; second, to other branches
of the Federal government; and third, to scholars,
other libraries and the general public. The Library of         Collections Inventory Efforts
Congress is not a lending library; only members of
Congress and other statutory borrowers are authorized          The Baseline Inventory Program (BIP) inventoried
to remove materials from the Library. For selected             599,876 volumes in fiscal year 2006.         Since the
other users, primarily other libraries, the Library does       Program’s inception in 2002, a total of 2,714,271
make certain materials available for borrowing                 items have been inventoried. The Law Library also
through interlibrary loan.                                     inventoried 200,327 retrospective items, bringing the
                                                               total for fiscal year 2006 to 800,203 items.
To use Library collections, researchers identify the
items they want through on-line and card catalogs,             Collections Access, Loan and Management Division
finding aids, and bibliographies. To request items,            staff reviewed 141,100 items for transfer to Fort
readers first must register, provide photo-                    Meade, looking for errors in the Library’s Integrated
identification, and receive a reader registration card.        Library System and changing locations in the system
They then may submit call slips to the staff in the            as appropriate.
reading rooms, who retrieve the items from the
secured collections storage areas and deliver them to          Office of Security and Emergency Preparedness
the reader. In fiscal year 2006, the Library issued            (OSEP)
reader registration cards to 30,925 on-site readers.
                                                               OSEP’s Protective Services Office continued
The Collections Access, Loan and Management                    improving the physical security of the Library’s
Division (CALM) is responsible for retrieving                  facilities, staff members, patrons, and collections on
                                                               Capitol Hill and at the Library’s annexes. Now


                                                               3-14
responsible for the administration, repair, and                   Working in close collaboration with the Collections
maintenance of electronic security systems, the                   Security Oversight Committee, Protective Services
office’s security systems administrator completed a               continued implementing the Library’s Strategic Plan
major upgrade of the Library’s security network                   for Safeguarding the Collections, 2005-2008,
infrastructure, improving the effectiveness of access             approved by the Librarian of Congress in July 2005.
control, intrusion detection, and CCTV systems                    A significant ongoing initiative is the site assistance
integrated within the Police Communications Center.               visit program. In collaboration with the committee’s
                                                                  senior managers and curators, the office continued
On Capitol Hill, Protective Services’ electronic                  conducting staff assistance visits to all divisions
engineers developed a more flexible maintenance                   within the Library over a two-year cycle, significantly
contract for the Police Communications Center,                    enhancing the staff’s commitment to best security
facilitating installation of additional intrusion                 practices.
detection and access control devices; redesigned
camera monitoring recording capabilities for all the              A senior Protective Services staff member served as
buildings’ entrances; collaborated with the Architect             the Library’s contracting officer’s technical
of the Capitol and police in improving alarm systems              representative on the contract with Securiguard, Inc.
for the Adams Building east entrance post and                     Library security officers supported the Library’s
Jefferson Building east parking lot post; designed and            collections security program in select reading rooms,
supervised the installation of electronic security                monitoring patrons’ activities and screening those
protecting the relocated World Treasures exhibits in              exiting. They also ensured compliance with the
anticipation of the opening of the passageway from                Library’s reader registration and personal belongings
the Capitol Visitor Center to the Jefferson Building;             restrictions and maintained a deterrent presence in
identified enhancements of the Library’s X-ray                    exhibit and other high-profile public areas. The
screening systems to ensure compatibility with the                Library’s contract guard force also provided security
U.S. Capitol Police; and developed requirements                   for Library annexes in Culpeper, VA; Landover and
ensuring timely contractor response in the repair and             Fort Meade, MD; and the Little Scholars Child
maintenance of vehicle barriers.                                  Development Center and Taylor Street Annex
                                                                  facilities in Washington, DC.
At the National Audio-Visual Conservation Center in
Culpeper, Virginia, the Protective Services technical             Security Targeting and Marking
experts worked closely with the facility’s director, the
Architect of the Capitol, and contractors in designing            The Security Targeting and Marking Team was
security controls protecting the administration and               established within the Acquisitions and Bibliographic
nitrate vault buildings and the compound. In addition,            Access (ABA) Directorate of Library Services in
the office designed and supervised the installation of            December 2005, with contract staff performing the
primary and secondary intrusion detection systems                 following tasks:
protecting the Library’s Module 2 facility at Fort                Ɣ Installing security targets (strips) in all incoming
Meade, Maryland.         Protective Services security               monographs and all prebound and self-contained
experts also designed an electronic security egress                 serial volumes.
system at the Library’s Taylor Street Annex, enabling             Ɣ Placing edge stamps on all incoming monographs
swift compliance with applicable fire and life safety               and all prebound serial volumes.
codes.                                                            Ɣ Making a perforated Library ownership mark on
                                                                    incoming microfilm.
Protective Services worked closely with senior
Copyright staff members in designing and supervising              Across the Library in fiscal year 2006, book theft
the installation of more than ninety CCTV cameras at              detection targets were installed in collections items as
the service unit’s temporary relocation site in Crystal           follows:
City, Virginia. They also assisted in the development
of effective access controls and facilitated the timely           192,749 volumes processed by the Security Targeting
issuance of access control cards to Copyright staff                       and Marking Team.
members located in Crystal City.                                  225,151 volumes processed by the Copyright Office.
                                                           3-15
260,527 volumes bound by the Library’s commercial                 previous year, and 5,500 International Standard Serial
        bindery.                                                  Numbers (ISSN) assigned to new serials. The number
  1,143 high-risk materials served in the Newspaper               of ISSN assigned represents a decrease from 6,000
        and Current Periodical Reading Room.                      assigned in fiscal year 2005, but a marked increase in
  6,534 volumes received directly in the Law                      per-capita staff production considering that the
        Library.                                                  division lost two catalogers who performed this work.
 35,257 volumes in the General Collections                        For the first time, this year SRD included subject
                                                                  analysis and Library of Congress Classification on all
721,361 Total items receiving theft detection targets.            the bibliographic records it completed, a major
                                                                  expansion of its workload while the division kept
                                                                  production to ninety percent of the previous year’s
     CATALOGING & ARREARAGE                                       record. Uncataloged serials on hand at year’s end
           REDUCTION                                              numbered 2,090 compared to 4,998 at the end of
                                                                  fiscal 2005 - a 48% reduction.

In fiscal year 2006, the Library Services bibliographic           Production of name authority work by Library of
access (BA) divisions, including the Serial Record                Congress staff increased this year. The BA Divisions,
Division (SRD), cataloged a total of 346,182                      with the SRD and the field offices administered in the
bibliographic volumes (new works, added volumes,                  African/Asian and Overseas Operations Division,
and items added to collection-level records), the                 created 97,392 new name authority records, ten
highest total in their history, representing an increase          percent more than the 88,828 created in fiscal year
of more than ten per cent over the 312,818                        2005. Changes to name and series authority records
bibliographic volumes cataloged in fiscal year 2005.              totaled 44,512, compared to 60,454 in fiscal year
This was the second year in a row that the divisions              2005. The increased production of new name
achieved all-time production highs. Production of                 authorities reflected the Library’s decision to cease
full or core original cataloging, the most expensive              creating or updating series authority records as of
category of cataloging for the general collections,               June 1, 2006, freeing more skilled staff resources for
increased significantly to 199,223 records compared               name authority work. Total new subject headings
to 185,531 the previous year. These records have                  including those produced by catalogers and by the
complete description, subject analysis, and Library of            Subject Heading Editorial Team, Cataloging Policy
Congress Classification numbers, as well as full                  and Support Office, numbered 6,692, nearly identical
authority records for all descriptive and subject access          to the 6,678 produced in fiscal year 2005, bringing the
points, which are drawn from controlled vocabularies.             size of the entire subject headings database to more
                                                                  than 290,000 records. Total changes to subject
The bibliographic access divisions and Serial Record              headings numbered 10,306, compared to 6,020 in
increased production in other categories also, utilizing          fiscal year 2005. Catalogers proposed 1,535 new
less expensive modes of cataloging in order to meet               numbers in the Library of Congress Classification, a
production goals while providing effective access to              decrease of 11.88 per cent from the previous year, and
collection materials. Production of minimal-level                 changes to 131 Classification numbers, almost the
cataloging records increased 87.11 per cent, to 54,381            same as the 132 changes in fiscal 2005.
items, providing timely and cost-effective access to
items that do not require fuller cataloging or                    The ABA Directorate increased its acquisitions of
authorized forms of access points. Copy cataloging                Chinese materials for the Library’s collections and
production also showed an impressive increase of                  greatly improved bibliographic access to these
more than 33 percent, to 71,436 records. Two pilot                materials. In Chinese, 56,058 items were acquired for
copy cataloging initiatives utilizing innovative                  the Library’s collections, including 39,080 serial
workflows contributed to the increase. The Serial                 pieces and 16,129 books. The bibliographic access
Record Division expanded its copy cataloging this                 teams completed the cataloging of 481 new serial
year, producing a total of 5,159 copy-cataloged titles.           titles and 3,999 books and other non-serial items,
Total SRD production in all categories was 12,759                 compared to 8,579 Chinese books cataloged in fiscal
new records, compared to 13,827 new records the                   year 2005. Staff in ABA also assisted the Geography


                                                           3-16
and Map Division in cataloging maps for more than                   than the 11,910,623 reported in fiscal year 2005. Of
200 Chinese geographic places.                                      these, the Manuscript Division held 7,769,393 items,
                                                                    compared to 7,860,342 in its arrearage at the end of
Arrearage Reduction                                                 fiscal year 2005. The addition of nine new processing
                                                                    technicians permitted the Manuscript Division to
In fiscal year 2005, Library Services re-evaluated the              process 822,193 items in fiscal year 2006, nearly a
materials awaiting processing and categorized as                    third more than the 619,057 processed the previous
arrearages. This review showed that for some                        year; this figure included both arrearage items and
formats, the remaining amount of unprocessed                        new receipts.      Arrearages of sound recordings
materials had been reduced to the point where sound                 decreased from 770,483 at the end of fiscal year 2005
management practices dictated that the remainders be                to 680,581 this year; the arrearage of moving images
handled with current work on hand rather than as a                  decreased from 217,075 to 186,900. The music
separate arrearage category. The Library therefore                  arrearage increased slightly, from 3,085,363 items in
ceased reporting arrearages in these formats: print                 fiscal 2005 to 3,140,324 at the end of fiscal year 2006.
materials; rare books; prints and photographs; and                  The arrearage of machine-readable items was
maps.                                                               unchanged at 442.

Arrearages still remain for other formats of material.
The format with the largest remaining arrearage is
manuscripts. At the end of the year, the manuscript
arrearage stood at 11,894,021 items, slightly lower


Fiscal Year 2005 and 2006 arrearage statistics:


                    Items in Arrearage            As of Sept. 30,         As of Sept. 30,            Change
                                                       2005                    2006
                      Print Materials         -no arrearage-               -no arrearage-          -no change-
                      Special Materials           15,983,986                15,902,268               -0.5 %
                      Total                       15,983,986                15,902,268               -0.5 %




    OFFSITE STORAGE FACILITIES
                                                                    National Audio-Visual Conservation Center
Fort Meade
                                                                    In fiscal year 2006, the Packard Humanities Institute
414,986 items were accessioned and transferred to the               completed construction on Phase 1 – comprised of the
High Density Storage Facility at Fort Meade during                  Collections Building and Central Plant – of the
the fiscal year. By the close of the fiscal year, the               National     Audio-Visual     Conservation    Center
total amount of items stored in the two modules at the              (NAVCC) in Culpeper, Virginia. The Architect of the
Facility was 1,991,889. As increasing numbers of                    Capitol took possession of the Central Plant in
items have been stored there, the number of items                   November 2005, and in February the Motion Picture,
requested daily from the Facility has grown. A total                Broadcasting, and Recorded Sound Division (MBRS)
of 12,469 requests were received and responded to                   began relocating its more than 5.7 million sound and
during the year. The response success rate remains at               moving image collection items and related paper
100 per cent.                                                       documents into the Collections Building. Nearly 50


                                                          3-17
miles of high-density mobile compact shelving were               2005, substantial progress was made on developing
installed in the first two floors of the building.               the software that will integrate and automate all the
                                                                 center’s business processes.
By the end of the fiscal year, nearly half of the 5.7
million collection items had been relocated to
Culpeper from existing storage facilities in Capitol
Hill, Boyers, Pennsylvania, Elkwood, Virginia., and                       FINANCIAL REPORTING
the Landover Center Annex (Maryland). MBRS
continued to process significant numbers of collection           The Library's collections are classified as "heritage
items in preparation for their relocation, and mapped            assets" for financial reporting purposes in accordance
them into final storage destinations within the                  with SFFAS No. 29. Using a phased-in approach,
individual vaults at Culpeper. More than 100,300                 SFFAS No. 29 requires that certain disclosures on
sound recordings and 32,000 moving image items                   heritage assets be reported as basic information in the
were sorted, labeled and re-housed, with new                     financial statements beginning in fiscal year 2006,
cataloging or inventory records created. This figure             with additional disclosures being reported as basic
includes newly acquired items as well as retrospective           information in fiscal years 2008 and 2009. The
unprocessed collections. While this physical                     required disclosures include descriptions of major
processing continued, a parallel data conversion effort          categories, physical unit information (number of units
was undertaken to load collections information from              added and withdrawn), and the methods of acquisition
several legacy databases used by MBRS over the                   and withdrawal.
years into a single system, MAVIS (Merged Audio-
Visual Information System), the NAVCC’s primary                  The Library's reporting on heritage assets likewise
collections inventory database. MAVIS contained                  follows the phased-in approach of SFFAS No. 29.
approximately 250,000 entries at the start of this               The quantities of items in the Library's collections
project; when the data conversions are completed it              shown in the table that follows were taken from
will contain nearly 2 million titles.                            Library statistics collected on a regular basis and
                                                                 records that were accumulated over the years.
MBRS continued to develop the new workflow,
production and archiving systems that will be
implemented at the NAVCC. In March, contractor
Ascent Media completed the systems design, covering
both the “front-end” preservation production and data
capture equipment as well as the audio-visual viewing
and projection systems throughout the facility. A
subsequent contract to procure, integrate, install and
test these audiovisual systems was awarded during
summer 2006 to CEI of Chantilly, Virginia. On a
parallel track, the Library’s Information Technology
Services Directorate (ITS) in the Office of Strategic
Initiatives awarded a contract to design and build the
“back-end” digital storage archive to the firm GMRI.
This archive will store the digital files produced at
NAVCC in a secured environment with a mirrored
off-site back-up. By the end of the fiscal year GMRI
had installed the storage archive temporarily in the
ITS computer room on Capitol Hill, where it will be
bench-marked and tested before relocation to
Culpeper in 2007. ITS also built a test lab where all
the system software and applications that will be used
at the NAVCC can be developed and tested offline.
Following the completion of the NAVCC workflow
and systems requirements document in December


                                                          3-18
Estimated Quantity of Each Category of Collection Materials at September 30, 2006:


  Category of            Beginning of   Added         Withdrawn      End-of Year     Method of
  Collection             Year Balance   During        During Year    Total           Acquisition
                                        Year                                         and Withdrawal
  Print Collections -     20,091,288     445,545            4,141      20,532,692    Acquisitions:
  Classified Books                                                                   Copyright deposits,
                                                                                     purchase, gifts,
                                                                                     exchanges,
                                                                                     cataloging-in-
                                                                                     publication
                                                                                     Withdrawals:
                                                                                     exchange & gift of
                                                                                     unwanted or
                                                                                     duplicate copies;
                                                                                     depreciation or
                                                                                     depletion through
                                                                                     use; disposals
                                                                                     through GSA
  Other Print             10,159,387     1,441,026          9,104      11,591,309
  Materials -
  includes books in
  large type,
  newspapers,
  pamphlets,
  technical reports,
  incunabula, serials,
  etc.
  Total Print             30,250,675     1,886,571          13,245     32,124,001
  Collections
  Other Collections -     101,627,689     766,035            11       102,393,713    Acquisitions:
  includes audio                                                                     Copyright deposits,
  materials, talking                                                                 purchase; exchange
  books, books in                                                                    and gift
  raised characters,                                                                 Withdrawals:
  manuscripts, maps,                                                                 exchange & gift;
  microforms,                                                                        depreciation or
  music, visual                                                                      depletion through
  materials (moving                                                                  use; or disposals
  images, posters,                                                                   through GSA.
  photographs,
  photocopies, prints
  & drawings, etc.),
  and machine
  readable materials
  Total Collections       131,878,364    2,652,606          13,256    134,517,714




                                                     3-19
                                THE LIBRARY OF CONGRESS
                           CONSOLIDATED FINANCIAL STATEMENTS
                              Fiscal Year Ended September 30, 2006

          MANAGEMENT ASSERTION ON CONTROLS FOR THE COLLECTIONS




The purpose of this section is to assert management’s              of management about the equilibrium itself.
opinion about the effectiveness of the Library’s internal          Maintaining a balance in the midst of change is in turn
control structure for the collections.                             influenced by the financial and personnel resources the
                                                                   Library has, through appropriations and other sources,
 Preamble - The Mission of the Library of                          to invest in acquiring, preserving, securing, and serving
                                                                   the Heritage Assets which comprise not only the
                Congress                                           Library's holdings, but in fact the record of the history
                                                                   and creativity of the American people throughout its
A major mission of the Library of Congress is to                   history.
acquire, preserve, and make maximally accessible the
intellectual and information heritage of the United                The risks to the national collections are: not acquiring
States and, to the degree desirable, the world. The                and organizing materials that are critical to the
Library serves, in priority order: the Congress; other             continued development of the research collections that
branches of the government; other libraries and                    meet the needs of the Congress and the research
archives; researchers; and the general public. It is               community; not preserving the collections from the
custodian of more than 134 million items, in over 470              physical degradation inherent in each of the various
languages and in the following formats: monographs                 media the Library holds and from deterioration through
and serials; manuscripts; prints, posters, and                     use; and the theft, mutilation, or accidental loss of the
photographs; maps, atlases and globes; music                       items in the collection.
manuscripts and scores; motion pictures, broadcasting
and recorded sound; rare books; microforms; machine                In the course of its 206-year history, the Library has
readable formats; and digital files. It makes these                provided outstanding service to the Congress and has
materials available to the Congress and other                      over time added service to other constituencies - the
government entities through loans; to the research                 Executive and Judicial Branches, the library and
public in its reading rooms on Capitol Hill and through            academic communities of America, and the general
interlibrary loan; and to the general public through the           public - while continuing to make service to the
National Digital Library and such outreach programs as             Congress its first priority. With time, the risks to the
exhibitions and performances, publications, videos,                collections have increased.         For example, the
CDs, and tapes.                                                    introduction of highly acidic wood pulp paper in the
                                                                   mid-nineteenth century and a variety of unstable media
The Library of Congress, as the national library, has a            in the twentieth (nitrate film stock, wax cylinders,
special obligation to acquire comprehensively the                  audio tape, etc.) have presented the Library with a
creative and intellectual legacy of this country; to               number of preservation challenges. In addition, as the
secure and preserve those items for present and future             Library has moved to serve a wider audience and as the
generations; and to make these items available as soon             collections have grown, the risk of theft, mutilation,
as possible and prudent to its constituents, primarily the         and accidental damage through handling has been
Congress, other branches of government, and the                    elevated. Though this problem has always been widely
research community. Achieving and maintaining the                  recognized and conscientiously addressed in relation to
proper balance among preservation, security, and                   the special format materials such as manuscripts and
access is a dynamic and challenging process, faced by              rare books, it was only in the 1990s that the Library
all libraries and archives. The process is influenced by           took serious recognition of the extent to which the
the changing demands of the users, the development of              same problem affected the general collections (i.e.,
technological and other means for accessing,                       books and serials published after 1800).
preserving, and securing collections, and the judgment


                                                             4-1
The most recent problem identified is the need to                  three-way Implementation Agreement governing the
preserve those library materials “born digital.” To that           project. This agreement covers the construction of the
end, the Library received from the Congress the                    NAVCC by PHI and its transfer to the government
mandate to develop a National Digital Information                  when construction is completed. In fiscal year 2006,
Infrastructure and Preservation Program.                           PHI completed construction on Phase 1, comprised of
                                                                   the Collections Building and Central Plant. The
While the Library has, within the past 110 years, built            Architect of the Capitol took possession of the Central
three special library buildings on Capitol Hill for                Plant in November 2005, and in February the Motion
storage and service of the collections and acquired                Picture, Broadcasting, and Recorded Sound Division
space for special storage in Ohio, Pennsylvania,                   began relocating its more than 5.7 million sound and
Virginia and Maryland, the physical plant has not kept             moving image collection items and related paper
pace with the growth of the collections and their                  documents into the Collections Building. Nearly 50
demand for a controlled environment to slow inherent               miles of high-density mobile compact shelving were
physical degradation. In order to ensure continued                 installed in the first two floors of the building. By the
excellent service to the Congress and to document the              end of the fiscal year, nearly half of the 5.7 million
history and creativity of the American people, the                 collection items had been relocated to Culpeper from
Library has been zealous in fulfilling its obligation to           existing storage facilities in Capitol Hill, Boyers, Pa.,
sustain a comprehensive collection base, even, at times,           Elkwood, Va., and the Landover Center Annex (MD).
when that accumulation of items for the collections
might outstrip the Library's ability to preserve, secure,          Years of planning for off-site storage of other
and gain bibliographical control of those items in as              collections at Fort Meade, Maryland, came to fruition
timely fashion as the Library would have liked. While              when the facility opened November 18, 2002. The
this has been a conscious decision on the part of                  facility represented the start of the Library’s program
management - without acquiring appropriate                         to utilize custom-built offsite facilities both to relieve
collections as they become available, the Library has              overcrowding on Capitol Hill, and to ensure an
no chance of fulfilling its most fundamental mission to            excellent preservation environment. During fiscal year
Congress and the nation - the result has led to a                  2005, Module 1 reached capacity, and Module 2
cataloging backlog, inadequate storage space, and                  construction was completed. In fiscal year 2006, the
insufficient security in some areas.                               Library began to move materials into Module 2.
                                                                   During the year, 414,986 items were transferred to Fort
The Library of Congress recognizes these problems                  Meade, bringing the total amount of items stored in the
and has taken substantial steps to address them. It                two modules at the facility to 1,991,889.
established the Preservation Directorate in 1967. It
began an aggressive assault on the uncataloged backlog             As part of the security supplemental appropriated in the
in 1991 when it launched its Arrearage Reduction                   wake of the September 11, 2001, tragedy, the Library
effort. In 1992, it took the unprecedented step of                 is authorized to work with the Architect of the Capitol
closing its book stacks to the general public altogether           on the design of, and site selection for, a high security
and to its own staff for all purposes not directly related         storage facility away from Capitol Hill for its most
to their duties. Also, it began the systematic upgrading           highly valued collections. During fiscal year 2004,
of security in all its reading rooms and installation of           such an off-site storage location, with the appropriate
perimeter security of the collections.                             level of security, for the Library’s treasures was
                                                                   identified, and transportation plans were developed in
For almost a decade, the Library sought additional                 the event that the items must be moved to that location.
space and resources for secondary storage and film and
audio preservation facilities. In December 1997, the                       MANAGEMENT ASSERTION
Congress authorized the acquisition of space in
Culpeper, Virginia, owned by the Federal Reserve
Bank of Richmond to be used as the National Audio-                 We confirm, to the best of our knowledge and belief,
Visual Conservation Center (NAVCC). In August                      the following:
2003, the Library, the Packard Humanities Institute
(PHI), and the Architect of the Capitol completed a




                                                             4-2
1) We are responsible for establishing and maintaining            reader registration; security in reading rooms (cameras,
the internal control structure for the collections;               police and guard patrols, etc.); caging of high-risk
                                                                  collections; secured loan stations, and secured transit
2) We have assessed the effectiveness of the Library of           for high risk items.
Congress' internal control structure over safeguarding
of assets (collections) against unauthorized acquisition,         3) Providing access to our collections inevitably puts
use, or disposition, compliance with laws and                     them at risk and could impair the Library’s ability to
regulations, and financial reporting based upon                   serve the Congress and other users in the future.
established control criteria. Those control criteria              However, the collections exist to be used, and
include: bibliographical controls, inventory controls,            management accepts the responsibility of mitigating
preservation controls, and physical security controls.            risk to the collections at the same time it fulfills its
Specific controls over items depend upon the                      mission of service to the Congress and the nation.
individual format, demand for and conditions of use,              While we have aggressively addressed deficiencies in
and the value and risk assessment for that item.                  bibliographic, inventory, preservation, and security
                                                                  controls in the past fiscal year, our assessment of
   Bibliographical controls include but are not limited           internal controls identified the following material
to: cataloging, archival processing, and arrearage                weaknesses, which could adversely affect the Library’s
reduction.                                                        ability to meet its internal control objectives, and, as a
                                                                  result, we cannot provide reasonable assurance that the
   Inventory controls include but are not limited to:             internal control structure over safeguarding the
item-level holdings records and bar-coding for non-rare           Heritage Assets against unauthorized acquisition, use,
monographs accessioned October 1999 or later; the                 or disposition, was completely effective as of
automated circulation control system as implemented               September 30, 2006, for all of the Library’s collections.
in the Integrated Library System (LC ILS); manual and
automated shelflist and serial records; finding aids and          With the implementation of the LC ILS and the
other detailed item and/or collections descriptions; and          application of bar codes to all newly accessioned non-
registry of items lent for exhibition.                            rare monographs beginning October 1999, the Library
                                                                  has taken a step toward partitioning its assertion. We
   Preservation controls include but are not limited to:          cannot assert without qualification that the controls in
use of surrogates (digital, microform, service copies of          place are adequate and appropriate to mitigate the risks
audiovisual materials); collections care programs;                for all the special collections. We can assert that
disaster preparedness; Top Treasures security;                    bibliographic, preservation and physical security
deacidification; conservation of individual items;                controls are applied to all items newly acquired for the
preservation treatment of processed items; preservation           collections, but we cannot assert that inventory controls
research and testing programs to define actions for               are fully implemented during the in-processing and in-
deacidification, storage, audio preservation; studies of          storage life cycles.
longevity of new digital media, work on national
standards, etc.; and special Congressionally-mandated             The Library continued its multi-year effort to conduct
preservation programs such as the National Film and               an inventory of the general collections. That project,
Preservation Board and the National Recording                     the process of comparing the book stock on the shelves
Preservation Board.                                               to inventory records, and the conversion of the record
                                                                  to digital format, will establish a benchmark from
   Physical security controls include but are not                 which future security assessments can be measured.
limited to: perimeter security (e.g., theft detection
devices); secured receiving and holding areas for                 Bibliographical controls: As of September 30, 2006,
materials not yet accessioned into the research                   the Library had reduced the arrearage count to
collections, including the Copyright Office; secured in-          15,901,826 items. The 1989 benchmark number is 39.7
process working and holding areas; storage areas                  million items. During the year, newly acquired items
closed to the public and all staff except those who               were accessioned and cataloged using the LC ILS,
require daily access in order to perform their jobs;              while work on the arrearage continued.




                                                            4-3
Inventory controls: Contractors supervised by Library            The Library has integrated preservation and inventory
staff continue work on the inventory of books and                management and tracking controls within the five
serials in the general collections. Holdings information         tiered framework of risk first published in the Library's
is added to the record as the inventory is conducted.            1997 plan. The Office of Security and Emergency
Bar-coding of new receipts continued as one of the first         Preparedness, in coordination with the Collections
processing steps, providing better security to the               Security Oversight Committee, has prepared and
collections, and the capacity to do item-level tracking          published the Library’s Strategic Plan for Safeguarding
throughout the processing work flow.                             the Collections, 2005-2008 (SPSC). Approved by the
                                                                 Librarian of Congress in July 2005, the plan integrates
Preservation controls: The Library has inadequate                physical security, preservation, and inventory
temperature and humidity control in some collections             management controls protecting the Library’s
storage areas; inadequate space for appropriate storage          collections. The SPSC utilizes the Library’s five-tiered
of collections materials; insufficient space and                 framework of risk as the unifying approach to
environmental controls for the acetate negative                  collections security, identifying minimum standards
collection; and insufficient funds for preservation              and quantifiable performance measures for all three
reformatting.     These conditions cannot be fully               safeguarding controls. This plan supersedes the
addressed with current funds and physical plant. The             Library’s Security Plan published in October 1997,
move of collections into the storage modules at Fort             which focused solely on physical security controls.
Meade, Maryland, is expected to remedy many of these
difficulties for books and paper-based materials, and            4) We have disclosed all significant deficiencies in the
the acquisition of the National Audio-Visual                     design or operation of the internal control structure that
Conservation Center in Culpeper, Virginia, is a major            could adversely affect the Library's ability to meet the
step in the preservation of film and other media.                internal control objectives and have identified those we
                                                                 believe to be a material weakness.
Physical security controls: In fiscal year 2006, the
Library sustained its advances in collections security
by continuing to implement actions outlined originally
in the 1997 security plan, reader registration,
contracting for security monitors in reading rooms, and
continuing the marking and security tagging of library
materials.    The Library has also integrated its
preservation, bibliographic, and inventory controls
within the security planning framework developed for
the 1997 security plan.




                                                           4-4
                   UNITED STATES GOVERNMENT                                        LIBRARY OF CONGRESS
                   Memorandum                                                    Office of the Inspector General



TO:                James H. Billington                                                           February 15, 2007
                   Librarian of Congress

FROM:              Karl W. Schornagel
                   Inspector General

SUBJECT:           Results of the Library of Congress FY 2006 Financial Statements Audit


The attached reports present the results of the annual          Management Assertion on Controls for the Collections
audits of the Library of Congress financial statements          Kearney concluded that management’s assertion fairly
for fiscal years (FY) 2006 and 2005.                            stated that internal controls over collections were not
                                                                fully effective.
We contracted with the independent certified public
accounting firm of Kearney & Company (Kearney) for              Office of the Inspector General Oversight
these audits. The contract required that the audits be          of Kearney & Company Performance
performed in accordance with U.S. generally accepted
government auditing standards and Office of                     To ensure the quality of the audit work performed, the
Management and Budget Bulletin 06-03, Audit                     OIG:
Requirements for Federal Financial Statements.
                                                                x   reviewed Kearney’s approach and planning of the
Results of Independent Audit                                         audit;
                                                                x   reviewed significant audit working papers;
Financial Statements
                                                                x   evaluated the qualifications and independence of
For the eleventh consecutive year we are pleased to                  the auditors;
report that the auditor issued an unqualified (“clean”)         x   monitored the progress of the audit at key points;
opinion on the Library’s financial statements.                  x   coordinated periodic meetings with Library
                                                                     management to discuss audit progress, findings,
In its audit of the Library, Kearney found that the                  and recommendations;
financial statements were fairly presented, in all              x   performed other procedures we deemed
material respects, in conformity with U.S. generally                 necessary; and
accepted accounting principles.                                 x   reviewed and accepted Kearney’s audit report.
Report on Internal Controls
                                                                Kearney is responsible for the attached auditor’s
A notable achievement during fiscal year 2006 was the           reports and the conclusions expressed therein. Our
significant efforts the Library made in addressing              review does not enable us to express, and we do not
internal control weaknesses reported in previous years’         express, an opinion on the Library’s financial
audits concerning the financial system computing                statements or conclusions about the effectiveness of
environment and the entity-wide security program. As            internal control, compliance with laws and regulations,
a result, for FY 2006, Kearney found no material                or management’s assertions on internal controls over
weaknesses in internal control, as defined on page 5-4          collections.
of the audit report.
                                                                We appreciate the courtesies and cooperation extended
Compliance with Laws and Regulations
                                                                to Kearney and our staff during the audit.
Kearney found no instances of noncompliance with
laws and regulations tested.

Attachments
cc:     Chief Operating Officer
        Chief Financial Officer



                                                          5-1
